COVER: Yosemite National Park, Half Dome - Courtesy of National Park Service.
                                 MESSAGE FROM THE
                                INSPECTOR GENERAL

 I am pleased to report on our accomplishments for the semiannual reporting period ended
March 3 1, 1999. These accomplishments are highlighted on pages iv, v, and 4 of this
semiannual report, and the significant audit activities and investigations are summarized on
pages 5 through 29. During this semiannual period, significant audit resources continued to be
expended to meet the increasing requirements for work related to the Chief Financial Officers
(CFO) Act of 1990 and the Government Performance and Results Act (GPRA). Despite these
increasing requirements, we have responded to requests for audits and investigations of programs
and operations from the Congress, Department of the Interior (DOI) managers, other Federal
agencies (for example, the General Services Administration and the Department of Justice), and
governments in the insular areas. The requests covered such varied activities as legal services
costs incurred by an Indian tribe, background investigations of employees working at schools
operated by the Bureau of Indian Affairs, the use and disposition of excess Federal property by
tribal contractors, the investment and use of grant funds by tribally operated schools, the funding
and payment of substitute teachers by Guam’s Department of Education, year 2000 (Y2K)
readiness of the bureaus, and royalty-in-kind pilots of the Minerals Management Service. In
addition, we have been conducting DO1 requested audits of the nine bureaus’ financial
statements and the required audit of DOI’s consolidated financial statements in accordance with
the CFO Act. The combined efforts of Office of Inspector General (OIG) auditors and DO1
personnel have resulted in or wiIl result in improvements in the areas reviewed and in financial
management within DOI. We have also committed investigative resources to cases involving
allegations of fraud, public corruption, and the misappropriation of funds in the insular areas.
Further, OIG investigators are continuing to actively pursue fraud in DOI’s royalty program in
conjunction with the Department of Justice and with various U.S. Attorneys’ offices throughout
the United States.

During this semiannual reporting period, the Congress recognized that the Inspectors General
have an important role in informing agency heads and the Congress on efforts to implement the
GPIL4. In an October 7, 1998, letter to the Inspectors General, the Congress recognized the
“broad consensus on the need for Inspectors General oversight of Results Act implementation”
and requested that each Inspector General develop a GPR4 review plan. Consistent with that
request, OIG found that DO1 had established 612 performance measures in its 1999 performance
plan and that DOI’s budget submission for fiscal year 2000 included information on strategic
goals, strategies to achieve the goals, performance measures to assess DOI’s progress in
achieving the goals, and data sources DO1 will rely on to prepare its annual performance reports.
DOI decreased the number of performance goals and key measures related to its performance

             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                   i
plan for fiscal year 2000. However, the fiscal year 2000 plan still includes about 170
performance measures for DOI’s overall goals and an additional 2 15 performance measures for
bureau goals. Given the scope of the performance plan, we will develop a review plan that will
focus on the key performance measures which have a high risk for fraud, waste, or
mismanagement in consultation with appropriate Congressional committees and DOI managers.
Even with the decrease in the number of DOI’s performance measures, we anticipate establishing
a multi-year review plan because of our need to respond to the increasing number of statutorily
required audits and reviews, as well as to unplanned audits and reviews requested by the
Congress and DOI managers.

In the interim, we have considered and incorporated the identified DO1 measures and the General
Accounting Office and DOI Office of Inspector General-identified problem areas into the annual
planning process and will include appropriate references in the annual workplan for fiscal year
2000. In addition, we will be reviewing the controls over systems used to generate the
performance data that are included in the financial statements as part of our CFO audits.

We will continue our efforts to work with DO1 to improve its efforts to provide programs and
operations that are more effective, economical, and efficient.




                                            Acting Inspector General




ii           Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
                                                                           CONTENTS
                                                                                                                                                              Page
Statistical Highlights ............. . .                                                   . . . . .                . .          . , . . . . . IV
Introduction .................... . .                                                      . . . . . . . ...                     . . . . . . . . . . . . . . . 1
  Department Profile ............. . .                                                     ....... ... ...                       ................... 1
  OIG Organization .............. . . .                                                    ....... ... ...                       ...................                  2
Audit and Investigative Activities                              ... . . .                  ....... ... ...                      ................... 4
  Summary of Audit Results ....... . . .                                                   ....... ... ...                      ................... 4
  Investigative Matters ......................... . . . .._..........._............_........_..... 4
kgnificant Audit Activities and Investigations ....... ..,,......................................... 5
  Bureau Financial Statements Audits .............. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
  BureauofIndianAffairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     6
  BureauofLand.~anaeement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            13
  Bureau of Reclamatioi . . . . . . . . . . . . . . . . . . . . . .                                                                          ............ 14
  Insular Areas ................................                                               ...          ...                              . . . . . . . . . . . . 15
  Minerals Management Service ..................                                                                                             . . . . . . . . . . . . 21
  Multi-Office ................................                                                ...          ...                              . . . . . . . . . . . . 24
  Office of the Secretary ........................                                             ...          ...                              . . . . . . . . . . . . 25
  Office of the Special Trustee for American Indians . .                                       ..*          . .                              . . . . . . . . . . . . 26
  U.S. Fish and Wildlife Service .................                                             ...         ...                               . . . . . . . . . . . . 27
  U.S. Geological Survey .......................                                               ...          . .                              . . . . . . . . . . . . 29

Appendices
1 - Summary of Audit Activities From October 1, 1998, Through .March 3 1, 1999 . . . . . . . . . . . . . . . . . .                                                 30
2 - Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
     During the 6-Month Period Ended March 3 1, 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                       31
     -Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          31
     -ContractandGrantAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     34
     -SingleAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           35
     - Indirect Cost Proposals ....................................................                                                                                43
3 - Monetary Impact of Audit Activities From October 1, 1998, Through March 3 1, 1999 ....                                                                         50
4 - Non-Federal Funding Included in Monetary Impact of Audit Activities
     During the 6-Month Period Ended March 31, 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                  51
5 - Audit Resolution Activities ...................................................                                                                                53
     - Table I - Inspector General Audit Reports With Questioned Costs ..................                                                                          53
     - Table II - Inspector General Audit Reports With Recommendations That
        FundsBePutToBetterUse . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        54
     - Table III - Inspector General Audit Reports With Lost or Potential Additional Revenues                                                                      55
6 - Summary of Audit Reports Over 6 Months Old Pending Management Decisions. ........                                                                              56
     -Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          56
     - Contract and Grant Audits .................................................                                                                                 59
     -SingleAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           61
7 - Summary of Internal Audit Reports Over 6 Months Old Pending Corrective Action ......                                                                           65
8 - Starutory and Administrative Responsibilities ....................................                                                                             70
9 - Cross-References to the Inspector General Act ...................................                                                                              71




                       Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                                                                        111
                                            STATISTICAL HIGHLIGHTS


Audit Activities
  Audit Reports Issued or Processed ..................................                                               ........................ 250
    - Internal Audits ..............................................                                                 . . . . . . . . . . . . . . . . . . 44
.   - Contract and Grant Audits .....................................                                                . . . . . . . . . . . . . . . . . . 16
    -SingleAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      . . . . . . . . . . . . . . . . . 190
  Indirect Cost Proposals Negotiated .................................                                               . . . . . . . . . . . . . . . . . . . . . . . . 152

Impact of Audit Activities - (Dollar Amounts in Millions)
   Total Monetary Impact ..........................................................                                                                  $128.7
     -QuestionedCosts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . : k24.6’
     - Recommendations That Funds Be Put To Better Use ................................ . $43.1
     - Lost or Potential Additional Revenues ........................................... . 561.0
   Internal Audit Recommendations Made ............................................. . . . . . . . 183
   Internal Audit Recommendations Resolved .......................................... .                                                          .    . 106

Investigative Activities
   TotalReportsIssued                                                                                                                                                57
   CasesClosed ....................................................................................................................................................  98
   Cases Opened (3 from ...................................................................................................................................
                             Hotline)                                                                                                                                48
   CasesPending .. . . . .                                                                                                                                          404
   Hotline Complaint Matters Received ..........................................................47
   General Information Matters Received (28 from Hotline) ......................................... 116

Impact of Investigative Activities
   Indictments/Informations .........................                                        .              ..       ...        .   .   .         .       .       . 11
   Convictions ....................................                                          ..             ..       ...        .   .   .         . , . . . . . . . 20
   Sentencings.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         .                       ...        .   .   .         . . . . . . 16
     -Jail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   ..                      ...        .   .   .         _ 2,238 months
     -Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       .        . .        .       .         . . 630 months
     - Community Service ..........................                                                         ..       ...        .   .   .         . . 420 hours
     - Criminal JudgementsiRestitutions ...............                                                     .        . .        .   .   .         . $3.231.887
   Cases Pending Prosecutive Action as of October 1, 1998                                                   .        ...        .   .   .         .                 124
   Cases Referred for Prosecution This Period ...........                                                   ..       ...        .   .   .         . . . . . 25
   Cases Declined .................................                                          ..             .        .          .   .   .         .......... 7
   Cases Pending Prosecutive Action as of March 3 1, 1999                                    .,             ..       ...        .   .   .         . . . . . . 112
   Administrative Actions ...........................                                                       .        ...        .   .   .         . . . . . . . . 28
   CivilReferrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        ..             ..       ...        .   .   .         ., . . . . . . . . 1
   Civil Declinations ...............................                                        .              ..       ...        .   .   .         .......... 0
   Civil Settlements (3) .............................                                       .              ..       . .        .       .         . $3,780,000
   Cases Pending Civil Action as of March 3 1, 1999 ......                                                  ..       ...        .   .   .          . . . . . . . 39




iv                      Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
Administrative Actions Taken by Bureaus
    Matters Referred for Administrative Action ............                                .   ..      .......   .......   ,   ......      ....... 37
    Matters Referred for Information (16 from Hotline) .....                               .   ..      .......   .......   .   ......      ....... 30
    Removals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   ..      .......   .......   .    . . . .    ........ 4
    Resignations ....................................                                      .    .      .......   .......   .   ......      ........ 3
    Reassignments/Transfers ..........................                                                 .......   .......   .    . . . .    ........ 1
    Employee Suspensions (Totaling 88 days) .............                                  .           .......   .......   .       . .     ........ 6
    Reprimands/Counseling ...........................                                                  .......   .......   .     . . .     ........ 5
    Other Personnel Actions ...........................                                    .   .   .   .......   .......   .    . . . .    ........ 1
    Procedural Changes . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           .   .   .   .......   .......   .   . . . . .   ........ 1
    Admirustrative Recoveries/Restitutions (Totaling $21,978)                              .   .   .   .......   .......   .    . . . .    ........ 3
    General Policy Actions ............................                                    .   .   .   .......   .......   .   ......      ........ 3




.




                        Semiannual Report to the Congress: October 1, 1998 - March 3 1,1999                                                        V
                                      INTRODUCTION

Department Profile
T Nation’s
  he Congress created the Department of the Interior (DOI) on March 3, 1849, to manage the
           internal affairs. As the Nation’s principal conservation agency, DOI’s mission is
IO encourage and provide for the appropriate management, preservation, and operation of the
Nation’s public lands and natural resources for use and enjoyment both now and in the future; to
carry out related scientific research and investigations in support of these objectives; to develop
and use resources in an environmentally sound manner and provide an equitable return on these
resources to the American taxpayer; and to carry out trust responsibilities of the
U.S. Government with respect to American Indians and Alaska Natives and provide support for
the U.S. Territories and insular areas.

DO1 has approximately 68,000 employees based in more than 2,000 locations. In fiscal year
1999, DOI plans to spend about $10 billion and collect revenues of more than $7 billion. The
responsibilities of DO1 include the following:

  - Administering more than 500 million acres of Federal lands and more than 56 million
acres of Indian trust lands.

   - Managing, developing, and protecting water and related resources in an environmentally
and economically sound manner.

   - Managing mineral resources on the Outer Continental Shelf and on Federal and Indian
lands and collecting, verifying, and distributing revenues from these lands in a timely manner.

   -   Conserving, protecting, and enhancing fish and wildlife and their habitats.

   -   Preserving the natural and cultural resources and values of the national park system.

   -   Sustaining the health, diversity, and productivity of the Nation’s public lands.

   - Fulfilling trust responsibilities and promoting self-determination on behalf of tribal
governments, American Indians, and Alaska Natives.

    - Providing the Nation with reliable scientific information to describe and understand the
earth.

  - Reclaiming abandoned mine sites and enforcing regulations to ensure that coal mines are
operated in a manner that protects citizens and the environment.

              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                    1
OIG Organization

T    o cover DOI’s many and varied activities, the Office of Inspector General (OIG) has a
     budget of $25 million and has 229 full-time employees. Employees are under the direction
of the Assistant Inspectors General for Audits, Investigations, and Management and Policy and
are assigned to the headquarters offices in Washington, D.C., and field offices in Tamuning,
Guam; Rapid City, South Dakota; Albuquerque, New Mexico; Sacramento, California;
Arlington, Virginia; St. Paul, Minnesota; Billings, Montana; St. Thomas, U.S. Virgin Islands;
Lakewood, Colorado; Tulsa, Oklahoma; New Orleans, Louisiana; and Phoenix, Arizona.

OIG provides policy direction for and conducts, supervises, and coordinates audits,
investigations, and other activities in DO1 to promote economy, efficiency, and effectiveness and
to prevent and detect fraud, waste, abuse, and mismanagement. OIG is DOI’s focal point for
independent and objective reviews of the integrity of DOI operations and is the central authority
concerned with the quality, coverage, and coordination of the audit and investigative services
between DO1 and other Federal, state, and local governmental agencies. The Inspector General
reports directly to the Secretary of the Interior on these matters and is required to keep the
Secretary and the Congress fully and currently informed about problems and deficiencies relating
to the administration of DO1 programs and operations and the necessity for corrective actions.

In addition to the Inspector General’s requirement for semiannual reporting to the Secretary of
the Interior and the Congress in accordance with the Inspector General Act of 1978 (Public
Law 95-452), as amended, OIG’s mission encompasses a wide array of statutory and
administrative audit and investigative responsibilities. These responsibilities include OIG’s
review of various programs and activities within DOI in accordance with numerous public laws,
Office of Management and Budget circulars, and criminal and civil investigative authorities (see
Appendix 8). The semiannual reporting requirements of the Inspector General Act are
cross-referenced to applicable portions of this report in Appendix 9.

In the insular areas of Guam, American Samoa, the U.S. Virgin Islands, and the Commonwealth
of the Northern Mariana Islands, OIG is responsible for “establishing an organization which will
maintain a satisfactory level of independent audit oversight” for these insular areas in accordance
with the Insular Areas Act of 1982 (48 U.S.C. 1422). OIG has additional audit responsibilities in
the Federated States of Micronesia, the Republic of the Marshall Islands, and the Republic of
Palau pursuant to the Compact of Free Association Act of 1985 (Public Law 99-239). OIG’s
organizational chart is presented on page 3.




2            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
                                         U.S. DEPARTMENT OF THE INTE,&IOR
                                                OFFICE OF INSPECTOR GENERAL



                                                             INSPECTOR GENERAL
             Executive Staff Assistant
                                           t-

                                                                              I


                                                                      CHIEF OF STAFF AND
                                                                      GENERAL COUNSEL

                                                                                                      I


                  ASSISTANT                                           ASSISTANT                                               ASSISTANT
              INSPECTOR GENERAL                                   INSPECTOR GENERAL                                      INSPECTOR GENERAL
                  FOR AUDITS                                       FOR MANAGEMENT                                        FOR 1NVESTlGATlONS
                                                                      AND POLICY

                             I                     r
                                                              I
                                                                          I   I       I
                                                                                                  I
                                                                                                              1
                   Deputy Assistant                      Division of
                                                                                                                                     Lkputy Assistant
                                                         lnfomlatiorl                     Division of Human
                 Inspector General                                                                                                 Inspector General
                     for Audits
                                                          R!zSnucea       I   I       I        RlzsolKes
                                                                                                                                    for Investigations

                             l-                                                                                                            I


   Eastern
   Office

Arlington, VA


       I
                             Central
                             Offices
                        Lakewood, CO
                      Albuquerque, NM



             North Pacific


           Tamuning. Guam
                                 I   I
                                           3, y, ,
                                               Western
                                                Oflice

                                            Sacramento, CA



                                                                  /    j!??&      1        1   AZ2                1
                                                                                                                         Eastem
                                                                                                                        Division

                                                                                                                      Arlington, VA
                                                                                                                                                     Western
                                                                                                                                                     Division

                                                                                                                                                  Lakewood, CO
                       -AUDIT AND INVESTIGATIVE
                               ACTIVITIES

Summary of Audit Results

0     IG auditors issued or processed 250 audit reports and negotiated 152 indirect cost proposals
      during the 6-month period ended March 3 1, 1999. Appendix 1 summarizes audit activities,
and Appendix 2 lists the audit reports issued or processed and the indirect cost proposals
negotiated. The monetary impact of the findings in the audit reports and indirect cost proposals
totaled $128.7 million, which was composed of questioned costs, funds to be put to better use,
and lost or potential additional revenues, as summarized in Appendix 3. Appendix 4 identifies
the non-Federal funds (from audits of insular area governments) included in the monetary impact
of audit activities. During this 6-month period, OIG resolved $56.4 million of monetary findings
from prior and current reporting periods. Appendix 5 provides summary information on the
resolution of the monetary impact of audit activities, Appendix 6 provides a listing of audit
reports over 6 months old pending management decisions on recommendations and/or monetary
impact, and Appendix 7 provides a summary of resolved internal audits over 6 months old
pending final actions by management (implementation) on recommendations and on monetary
impacts.

Investigative Matters
     uring the past 6 months, the Office of Investigations has conducted investigations that have
D    resulted in 11 indictments/informations, 20 convictions, criminal judgements/restitutions of
$3,23 1,887, and civil judgements of $3,780,000.

OIG is pursuing proactive initiatives in the areas of affirmative civil enforcement, royalty fraud,
environmental crime, theft of archaeological resources from public lands, and fraud involving
land exchanges. During this semiannual period, we continued our fraud outreach program by
conducting fraud awareness seminars for employees of four DO1 agencies. We are also
participating on task forces with state and local law enforcement officials, the Federal Bureau of
Investigation (FBI), the Internal Revenue Service, representatives of other DO1 law enforcement
agencies, and agents from other OIGs.




4            Semiannual Report to the Congress: October 1, 1998 - March 3 1,1999
                  SIGNIFICANT AUDIT ACTIVITIES
                      AND INVESTIGATIONS


Bureau Financial Statements Audits

F
.    inancial statements audits are required by the Chief Financial Officers Act of 1990. During
    this semiannual period, OIG audited and issued audit reports on the fiscal year 1998 financial
statements of five of DOI’s bureaus and offices. Specifically, we expressed unqualified opinions
on the financial statements of the U.S. Geological Survey (USGS), the U.S. Fish and Wildlife
Service (FWS), the Office of Surface Mining Reclamation and Enforcement (OSM), the Bureau
of Reclamation (BOR), and the Bureau of Land Management (BLM). Although OIG was able to
issue unqualified opinions on the financial statements, we reported conditions that affected the
internal control structures of four of these organizational units as follows:

     - USGS did not have sufficient internal control procedures to ensure that the general ledger
control balances for the Advances From Others (Federal and Public), Accounts Receivable
Unbilled (Federal and Public), Undelivered Orders (Federal and Public), Equipment, and Deposit
Suspense Liability (Federal) Accounts were accurately stated and properly supported by detailed
subsidiary information. In addition, USGS needs to improve the accounting for investments
made by the Working Capital Fund. We also found weaknesses in the general control areas of
Reston Enterprise Data Services Center management and operations; mainframe computer
system physical and logical security; telecommunications security; and contingency planning,
including backup procedures for preventing data loss and recovering data in the event of a
disaster.

     - USGS, FWS, and BLM did not have formal policies and procedures for conducting
periodic assessment surveys of the condition of facilities and computing funding estimates of
deferred maintenance. In addition, the supervisory and monitoring controls over deferred
maintenance reporting need strengthening to ensure that the deferred maintenance estimates are
supported by adequate documentation.

    - BOR’s accounting system eliminated the Government or the non-Government identifier
from the transactions and therefore could not properly summarize the data.

USGS, FWS, BLM, and BOR have proposed actions to correct the internal control weaknesses
that we will evaluate during our audits of the financial statements for fiscal year 1999.

             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                5
Bureau of Indian Affairs
Weaknesses in Administration of Federal and Tribal Funds
Identified

I  I-I our Congressionally requested review of legal services costs incurred by the Cherokee
   Nation of Oklahoma, we found that the Nation did not acquire and pay for legal services in
accordance with applicable laws, regulations, and policies. Specifically, the Nation incurred
costs for legal services without formal contracts, without adequate support for costs billed,
outside the purview of contract terms and conditions (when contracts had been prepared), and in
excess of Tribal Council-approved appropriations. Also, the Nation incorrectly used Federal
funds from DO1 to pay for litigation against the Federal Government, transferred Federal funds
to the Nation’s general operating fund and motor fuel tax accounts without ensuring that the
Federal funds were needed to pay for expenditures under the Federal programs, and submitted to
the Bureau of Indian Affairs (BIA) an inadequate Financial Status Report. These deficiencies
occurred because the Nation’s Executive officials had not developed and implemented an
adequate financial management information system to ensure compliance with established
Federal and Nation requirements regarding legal services, adequate identification of Federal
program expenditures and amounts owed, and accuracy and completeness of Federal program
financial reports. As a result, the Nation (1) did not have assurance that costs incurred for legal
services were reasonable and necessary, (2) improperly charged $88,000 to DOI for legal
services, (3) transferred Federal funds of at least $16.1 million to the Nation’s general operating
fund without assurance that the Nation had incurred or was owed that amount for expenditures
on Federal programs, and (4) included inaccurate financial data in the Financial Status Report
submitted to BIA. Based on BIA’s response to the report, we considered all of the report’s six
recommendations resolved but not implemented.

Agricultural Leasing Practices Inadequate
       e found that BIA’s Fort Berthold Agency did not adequately manage agricultural leases
       and grazing permits of the Three Affiliated Tribes of the Fort Berthold Reservation and
individual Indians on the Reservation and did not distribute agricultural lease rents and grazing
fees and related interest from special deposit accounts. Specifically, (1) agricultural leases were
not approved in a timely manner, (2) interest applicable to late grazing fee payments was not
assessed or collected, (3) lease rent and grazing fee payments were not forwarded to the
Aberdeen Area Office for deposit in a timely manner, and (4) lease rents and grazing fees were
not distributed to landowners in a timely manner. Consequently, we determined that (1)
agricultural lease rents for 1997 of approximately $165,000 and grazing fees for 1996 and 1997
of about $489,000 were not paid timely, (2) interest of about S4,SOO relative to late grazing fee
payments was not assessed or collected, and (3) interest of about $2,000 relative to untimely
deposits of lease rents and grazing fee payments was not earned. In addition, rent payments on


6            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
agricultural leases for 1997 of at least $110,000 had not been distributed to landowners.
Furthermore, at December 3 1, 1996, the Agency had 293 special deposit accounts, with balances
totaling about $67 1,000, that consisted of agricultural lease rents and grazing fees which were
received in calendar year 1996 and prior years but were not distributed to landowners. Based on
BIA’s response to the report, we considered four of the report’s five recommendations resolved
and implemented and requested that BIA respond to the remaining recommendation, which we
revised.

Agricultural Leasing Activities Managed Adequately, But
Improvements in Distribution of Revenues Needed

w
.      e found that BIA’s Rosebud Agency generally managed agricultural and pasture leases on
       the Rosebud Sioux Indian Reservation in accordance with applicable regulatory, lease, and
permit requirements. Specifically, the Agency (1) advertised, using sealed bidding procedures,
those lands that were available for leases and permits; (2) initiated actions in a timely manner to
ensure that lease renewals were approved without loss of revenues to the landowners; (3) usually
made timely distributions of rents and fees collected to Indian landowners; and (4) enforced
bonding requirements stipulated in the leases. However, Lve also found that lease rents, grazing
fees, and related interest of about $493,000 which was deposited into special deposit accounts in
the 1980s and 1990s had not been distributed to landowners. The report did not contain any
recommendations because we believe that the deficiencies identified will be corrected if actions
outlined in the High Level Implementation Plan for the Trust Management Improvement Project
approved by the Secretary of the Interior on July 3 1, 1998, are taken.

Investments by Grant Schools Not Secured Adequately

I   n a review requested by the Assistant Secretary for Indian Affairs, we found that at least 18 of
    the 41 schools reviewed did not invest BIA grant funds in accordance with Public Law
 loo-297 (Tribally Controlled Schools Act of 1988), which states that grant funds “may be
. . . invested only in obligations of the United States or in obligations or securities that are
guaranteed or insured by the United States, or. . deposited only into accounts that are insured
by an agency or instrumentality of the United States.” School personnel stated that they were
not aware of the requirements of Public Law 100-297; were not knowledgeable of the insurance
limits ($100,000) on checking and savings accounts; and were not knowledgeable of obligations.
securities, and accounts which were guaranteed or insured by the Government. In addition. we
noted that 12 of the single audit reports for the 18 schools did not identify the investment of
funds in unsecured or uninsured obligations and accounts as a reportable audit finding. As a
result, at least three schools lost grant funds of about $69 1,000 that were invested in obligations,
securities, and accounts which were not adequately insured or guaranteed. Before the final report
was issued, the Assistant Secretary for Indian Affairs, in a February 20, 1998, memorandum,
informed BIA officials, auditors who perform single audits, and grant recipients of the
restrictions in investment and requested guidance from the Office of the Solicitor on BIA’s

              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                 7
authority to recover the lost revenues. Therefore, we did not make any recommendations
regarding procedural changes and considered the report’s one recommendation on the recovery
of the lost investmenti resolved but not implemented.

Background Investigations Not Initiated Timely or Completed
Properly

I  n a review requested by the Assistant Secretary for Indian Affairs, we issued three audit reports
   which found that the Albuquerque, the Phoenix, and the Navajo Area Security Offices did not
timely initiate and properly complete all background investigations for new and existing
education employees. We also found that the completed background investigations received
porn the Office of Personnel Management generally were reviewed and adjudicated in a timely
manner by the Area Security Officer and were documented in the personnel files as completed
and approved by the Albuquerque and the Phoenix Offices. However, deficiencies occurred
because BIA did not have effective processes, including written procedures, to identify all
employees needing background investigations, obtain the information needed for the proper and
timely completion of background investigations and security clearances, and ensure that
determinations of nonsuitability were adequately addressed. As a result, BIA could not be
assured that the 102 individuals who were employed without the requisite background
investigations at four agency offices and 36 BIA-operated schools, which had a total student
enrollment of 11,220, were suitable for employment at these facilities. In a related matter, we
noted that the Albuquerque Area Security Office did not always complete fingerprint
verifications to identify individuals who had unsuitable backgrounds, did not always document
required preemployment reference checks in the personnel files as having been completed and
approved, and made employee suitability determinations based on incomplete information.
Based on BIA’s responses to the reports, we considered 6 of the reports’ 10 recommendations
resolved and implemented and 4 recommendations resolved but not implemented.

Excess Federal Property Not Acquired or Used Properly
     ased on a request from the General Services Administration, we reviewed the acquisition,
B    donation, and use of excess personal property by BIA’s Portland Area Office, including 7 of
the Area Office’s 12 agency offices, and 12 tribal organizations for fiscal years 1995, 1996, and
1997. We found that neither the BIA offices nor the tribal organizations fully complied with the
applicable Federal requirements for the acquisition, use, and disposal of excess personal property
on contracts or agreements awarded under Public Law 93-638 (the Indian Self-Determination
and Education Assistance Act, as amended). Specifically, tribal organizations did not provide
sufficient support for property transfer orders; the Area Office and its agency offices approved
inadequately documented transfer orders, including blank transfer order forms; and the Area
Office, its agency offices, and tribal organizations did not ensure that requested excess personal
property was received at the reservation and used for authorized purposes. Public Law 93-638
authorizes BIA to approve tribal requests to acquire excess personal property for use related to

8             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
self-determination contracts or agreements. However, BIA did not have procedures to ensure
that (1) requests for excess personal property were adequately supported by the tribal
organization and sufficiently evaluated by BIA and (2) approved property acquisitions were
accounted for and received by the tribal organizations. The tribal organizations reviewed also
did not have adequate procedures to document the need for, verify the receipt of, and dispose of
excess personal property. As a result, excess personal property with an original acquisition cost
of $13.3 million was transferred without proper supponing documentation, including property
with an original acquisition cost of $5.4 million that we believe was not used for authorized
purposes. (The value of the property when it was transferred probably was less than the amount
the Government paid to originally acquire the property because of depreciation.) Based on
BIA’s response to the report, we considered all of the report’s four recommendations resolved
and implemented.
.
Grant Funds Not Used for Intended Purposes
      fter the closure of Federally owned portable classrooms at the Lac Courte Oreille Ojibwe
A     School because of unsafe conditions, BIA granted S2,550,000 for the design and
construction of replacement facilities and provided $180,000 for leasing temporary space. Based
on a Congressional request, we reviewed the use of the funds and found that former officials of
the School did not comply with the intended purpose of the grants and that BIA did not
adequately monitor the use of the grant funds. Specifically, School officials (1) attempted to
replace 17,359 square feet of portable classrooms with a 41,358-square-foot building without
having the necessary financial resources to complete the larger structure, (2) used operation and
maintenance funds intended for leased space to construct another 8,500-square-foot school
building, (3) invested grant funds in a retail operation, and (4) did not follow applicable
procurement requirements in the award of the contract for construction of the 41,358-square-foot
building. In addition, we questioned the allowability of grant funds of $450,922, which we
believe were spent for activities outside the scope of the grant agreements or were otherwise not
in compliance with Federal cost principles. As a result of the deficiencies cited, a 41,358-square-
foot building is incomplete and cannot be used by students, grant funds were at risk of loss
because they were invested in an operation that was not fully guaranteed or insured, there was a
lack of assurance that construction costs were fair and reasonable, and questionable grant
expenditures of $450,922 may have to be returned to BIA. Although BIA officials said that they
agreed with the intent of the report’s four recommendations, they stated that they were seeking
an opinion on the relationship between the School and the Lac Cout-te Oreilles Band of Lake
Superior Chippewa Indians before they would specifically respond to the recommendations. As
a result, we considered all four recommendations unresolved. Tribal officials stated that they
believed BIA “fully supported and advocated” the construction of a larger school facility and
fully supported the manner in which the School administered and expended the grant funds.
Tribal officials also stated that they plan to complete (construct and equip) the 41,358-square-
foot building at a cost of about $2.8 million through the sale of bonds.



             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                   9
 Tribal Employee Sentenced in Bribery/Embezzlement Scheme
      joint investigation with the Internal Revenue Service into allegations concerning the
 A    dumping of wastewater, waste oil, and asphalt oil at an Indian-owned sand and gravel
business enterprise in Arizona resulted in the conviction of a tribai employee on bribery,
embezzlement, and tax charges. The business enterprise supplied sand and gravel for various
road construction projects. However, the investigation disclosed that a tribal employee working
for the business solicited and received kickbacks from companies and subcontractors doing
business with the tribe. The tribal employee also obtained real property valued at between
$90,000 and $100,000 from another businessman in return for an exclusive agreement that the
tribal enterprise would extract aggregate materials from lands owned by the businessman.
Additionally, the employee solicited and received $75,000 and a new vehicle valued at $39,000
from another construction company in exchange for giving the company exclusive rights to
purchase tribally owned sand and gravel. This preferential treatment was significant because the
construction company had been awarded a road construction contract located near the tribal sand
and gravel operation and needed these materials to fulfill the terms of the contract.

The investigation resulted in a December 1998 guilty plea to filing a false tax return,
embezzlement from an Indian tribal organization, and bribery involving a program receiving
Federal funds. The tribal employee was sentenced to 15 months of imprisonment, 3 years of
supervised probation, and 300 hours of community service. In addition, he was ordered to make
restitution of $108,785 to the tribe and to pay the Internal Revenue Service back taxes of
$57,653.

Tribal College Official Convicted of Embezzlement
     multi-agency investigation resulted in the conviction in October 1998 of a former business
A    official of a tribal college located in the Midwest for his participation in a scheme to
embezzle $2.6 million from the college. On January 4, 1999, the former official was sentenced to
12 l/2 years of imprisonment and 3 years of supervised probation. He was held jointly and
severally liable for making restitution of $2,657,032 to the college and was ordered to pay a
special assessment of $800 to the Victims’ Assistance Fund. In a related sentencing, also in
October 1998, a coconspirator, a certified public accountant responsible for conducting audits of
Federal program funds at the college, was sentenced to 1 year of imprisonment and 3 years of
supervised probation because of his participation in the scheme. The accountant had advanced the
embezzlement scheme by establishing fictitious bank accounts and falsifying financial and audit
records. The accountant was ordered to make restitution of $114,470 (the amount he had received
as compensation for his part in the scheme) and to pay a special assessment of $50 to the Victims’
Assistance Fund. Three other individuals who participated in the conspiracy to defraud the
college previously pled guilty to felonies and are serving substantial prison terms. The
investigation was conducted jointly by OIG, the Internal Revenue Service’s Criminal
Investigations Division, and the FBI.


 0            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
Former Government Employee Pleads Guilty to Credit Card Misuse
     n OIG investigation disclosed that a former business technician at a BIA-operated school in
A    the Midwest used her Government credit card to make personal purchases of more than
S 12,000. On May 14, 1998, the individual was charged with theft of public money, property, or
records and of making false statements. On December 14, 1998, after entering a guilty plea to the
charges, the former employee was sentenced to 14 days of imprisonment, 4 months of home
detention, and 5 years of probation. She was also ordered to make restitution of $12,269 and to
pay a special assessment of $200 to the Victims’ Assistance Fund.

Employee Suspended for Misuse of Government Equipment

F. ollowing an OIG investigation, a BIA employee in New Mexico was suspended for 14 days
    without pay for using Government equipment for personal use. The investigation revealed
that the employee, assigned to fire suppression duties, used his position to obtain a BIA truck
rack, a fabricated structure designed to protect the back of a truck cab from damage. The
employee painted the rack to prevent it from being recognized as BIA equipment. The equipment
was recovered.

Tribal Chairman Sentenced in Land Purchase Scheme
     n Indian tribe in the Northwest purchased a ranch for $37,000. The tribal chairman
A    subsequently used her position to direct the tribal land resources committee to sell the ranch
to her for $8,000. In March 1997, the chairman was charged with theft or embezzlement from an
Indian tribal organization. Following a trial in September 1998, the chairman was convicted. On
January 19, 1999, the chairman was sentenced to 6 months of home confinement and 60 months
of probation. The chairman also was ordered to make restitution of S 18,000 and to pay a tine of
$3.000.

Former Employee Pleads Guilty to Embezzlement and Theft
      BIA education specialist in the Southwest was sentenced on February 23, 1999, to 4 years of
A     probation and was ordered to make restitution of $19,912 after she pled guilty to
embezzlement and theft of public money in Federal court, The investigation disclosed that the
education specialist made personal purchases of more than $20,000 with a Government credit card
in 1995 and 1996. When interviewed by an OIG agent, the employee admitted to the credit card
misuse and consented to a search of her residence, which revealed items she had purchased with
the credit card, including a washing machine, a computer with monitor and printer, diamond
earrings, a 25-inch television/VCR combination, a table saw, camping equipment, building
materials, toys, hardware, and a camcorder. During the investigation, the employee resigned from
BIA.


              Semiannual Report to the Congress: October 1, 1998 - lMarch 3 1, 1999               11
Former Tribal Employee Pleads Guilty to Embezzlement

A    n investigation disclosed that a former official of a tribal housing authority in Oklahoma and
     others devised a scheme to conceal the embezzlement of funds by altering the housing
authority’s records and paying checks to fictitious contractors for housing improvement projects.
The former official and a friend conspired to embezzle monies by having checks made out to the
friend and to three other individuals, ostensibly for work performed on housing improvement
projects. The official and the friend embezzled approximately $60,000. On January 12, 1999, in
the United States District Court for the Western District of Oklahoma, the former official pled
guilty to stealing from programs that receive Federal funds. According to the provisions of the
plea agreement, the former official is required to cooperate in the ongoing Federal Grand Jury
investigation concerning her friend’s involvement. Sentencing is pending.
 .

Former Contractor Sentenced for Embezzlement
     n OIG investigation disclosed that a contractor with a tribal housing authority in Oklahoma
A    stole and attempted to embezzle checks of approximately $10,200 from the housing authority
while working under a contract to complete computer data entry projects for the housing authority
and the tribe. An investigation disclosed that the contractor was able to convert three of the stolen
checks totaling $5,674. The contractor was sentenced in the United States District Court for the
Eastern District of Oklahoma to 2 years of imprisonment and 3 years of supervised probation and
was ordered to make restitution of $1,000 and to pay a special assessment of $100.

Gaming Devices Placed Illegally

A    Federal Task Force on Indian Gaming in Minnesota revealed that a New Jersey-based
     company had illegally transported video gaming machines in the early 1990s to several
casinos located on Indian tribal reservations in Michigan. Documents seized pursuant to a search
warrant identified an official of the company who participated substantially in illegal placement
of the gaming devices and subsequently attempted to evade paying taxes on taxable income of
more than $1.1 million from 1991 through 1993. On November 12, 1998, the official was
sentenced to 78 months of imprisonment and 24 months of supervised probation and was ordered
to pay any unpaid taxes, interest, and penalties due the Internal Revenue Service.




12            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
Bureau of Land Management
Drainage Protection Program Managed Effectively
        e found that BLM generally managed its drainage (the gradual removal of oil and gas from
W       beneath a property by a producing well on an adjoining property) protection program
effectively. We also found that potential drainage situations were effectively identified and
evaluated and that corrective measures were implemented. As a result, revenues estimated at
536 million were generated by the program during fiscal years 1995 to 1998 (through April 1998).
However, when coal bed methane drilling activity increased significantly in the Farmington, New
Mexico, area, BLM did not allocate sufficient resources to effectively manage the increased work
load, and a backlog of drainage cases developed that was approaching the 6-year statute of
limitations on initiating collection action on compensatory royalties related to drainage.
Consequently, the Farmington Field Office entered into drainage settlement agreements to
accelerate the royalty collection process and prevent the complete loss of royalties. While this
procedure did result in royalties and interest of $242,000 being collected, royalty revenues of
S24,530 were not collected because of the statute of limitations. Furthermore, interest on
royalties estimated at $83,000 was not collected, and at least 23 Indian drainage cases had not
been processed timely. Based on BLM’s response to the report, we considered all of the report’s
four recommendations resolved and implemented and three recommendations resolved but not
implemented.

Helium Payments Accounted For and Processed Effectively, But
Potential Payment Liability Not Evaluated

B   LM effectively accounted for and processed the helium payments it received. However,
    BLM did not effectively identify all of the helium producers and require them to submit
production information to compute fees from helium sales or to determine the payments due, as
required by the Mineral Lands Leasing Act and the Federal Oil and Gas Royalty Management Act
of 1982. All helium payments due were not identified because BLM did not take actions to
ensure that information requests forproduction and sales records were provided by gas producers.
In addition, BLM did not establish adequate reporting mechanisms to ensure that payors were
identified when leases or contracts were issued, and it assigned a low priority to identifying wells
producing helium on Federal lands. As a result, BLM had little assurance that fees from the
production and sales of helium were paid on Federally leased lands. We further determined that
the Minerals Management Service (MMS), through its Royalty Management Program, may be
able to perform BLM’s helium revenue collection function more effectively than BLM. Of the
report’s three recommendations, BLM agreed with the two recommendations to work with MMS
to evaluate the feasibility of transfetring the function and to establish procedures to ensure that
operators comply with information requests on production, and we considered these
recommendations resolved but not implemented. However, BLM did not agree with the


              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                13
recommendation to establish procedures requiring operators to report new production. We
requested that BLM reconsider its response to this recommendation, which is unresolved.

Overhead Costs for Services Not Recovered
        e found that BLM did not accurately compute and properly apply the indirect cost rate to
W       recover the total reimbursable overhead costs of providing services to organizations and
individuals during fiscal year 1997. This deficiency occurred because BLM (1) based the indirect
cost rate on estimated costs and limited the rate to 18 percent and (2) used an unsupported rate
(less than 18 percent) to assess overhead costs to two other bureaus and the road maintenance
program. As a result, BLM did not recover fiscal year 1997 costs of more than $386,000. In its
response to the report, BLM did not specifically address the report’s two recommendations. As a
result, we considered both recommendations unresolved.



Bureau of Reclamation
Unneeded Acquired Lands Not Identified and Disposed Of
     OR had not conducted real property reviews since 1993 to identify unneeded acquired lands
B    associated with its water projects. Federal Property Management Regulations require that
each executive agency conduct annual reviews of real property to determine whether any portion
of the property is not being used, is being underused, or is not being put to optimum use.
However, BOR did not conduct its reviews of acquired land, primarily because it had assigned a
low priority to such reviews. In addition, BOR had “sunsetted” (allowed to expire) its internal
instructions implementing the Federal Property Management Regulations. Thus, some BOR
regional and area office employees said that they did not believe that the “sunsetted” instructions
should be followed. As a result of not identifying unneeded acquired lands through the required
process, BOR did not initiate actions to report and dispose of such lands and to generate potential
revenues from the sale of these lands. Our review of 14 projects or project units identified
approximately 67,220 acres of potentially unneeded acquired lands, which had a BOR-estimated
current value of about $17.5 million. According to BOR officials, the estimated current value is
based on the purchase price of the land and does not represent the land’s fair market value. Based
on BOR’s response to the report, we considered all of the report’s three recommendations
resolved but not implemented.

Proposed Concession Contract Not Planned Sufficiently
       e found that BOR’s Lower Colorado Region did not plan and develop the proposed contract
W      for a virtual reality motion simulation attraction at Hoover Dam in compliance with BOR’s
requirements for concessions management. Specitically, BOR personnel had not (1)

14            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
demonstrated that a new concession was needed by the public, (2) determined that the concession
operation was economically viable, or (3) developed a request for proposals to allow other
interested parties to participate in bidding for the new concession. In addition, the proposed
contract did not include required standard contract provisions, such as those establishing the
operations and maintenance responsibilities of the concessioner and those authorizing unilateral
fee increases by BOR. The BOR Manual provides policies, directives, and standards to ensure
that concession contracts meet public needs and protect natural and cultural resources and the
Government’s financial interests. However, because this guidance was not followed, there was
little assurance that the proposed contract was in the best interest of the Federal Government.
Based on the report, BOR terminated negotiations with the proposed contractor. Therefore, we
considered both of the report’s recommendations resolved and implemented.

 .


Insular Areas
GUAM

Control Over Funding and Payment of Substitute Teachers
Inadequate
   n an audit requested by the Guam Legislature, we determined that the Guam Department of
I  Education paid substitute teachers for hours not worked, for hours worked on nonschool days,
and for hours which were not adequately supported by required documents. In addition, the
Department did not provide its schools with access to or funding for an adequate number of
qualified substitute teachers. These conditions occurred because (1) the Department did not
provide adequate written guidance on substitute teacher pay limitations to payroll personnel,
school timekeepers, and substitute teachers; (2) the Government of Guam’s retirement law
effectively prevented retired teachers from working as substitute teachers despite a shortage of
qualified substitute teachers; and (3) the Department underestimated the annual costs of substitute
teachers because schools did not report the use of school aides as substitute teachers when
substitute teacher funds were low. As a result, during fiscal years 1996 and 1997, the Department
paid the substitute teachers in our sample excess payments of $10,766 (the total excess payments
to all substitute teachers may be as high as $3 16,000) and unsupported payments of $ IO,9 15 (the
total unsupported payments to all substitute teachers may be as high as $1 million). In addition,
schools had to combine classes and/or use school aides in lieu of substitute teachers; thus the
Department could not ensure that Guam’s public school students received a quality education.
The Board of Education addressed two of the report’s four recommendations, which we
considered resolved and implemented, but did not address the remaining two recommendations,
which are unresolved.



              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999               15
Improvements in Controls Over Travel Needed
    II an audit requested by the Guam Legislature, we found that the Department of Education
I   needed to improve its controls over Federally funded travel. Specifically, the Department did
not ensure that (1) travel vouchers were filed in a timely manner and travel advances were used
for authorized purposes, (2) claims for Federal reimbursement of grant-related travel expenditures
were submitted timely, (3) documents were retained which identified those travel expenditures
submitted for Federal reimbursement, (4) travel expenditures were appropriately charged to
Federal grants, and (5) competitive procedures were used to obtain airline services. These
deficiencies occurred because Departmental officials did not provide adequate oversight of their
employees and provide them adequate training. As a result, the Department (1) was owed $4,055
for outstanding travel advances, (2) may lose $4,855 in Federal reimbursements, (3) did not have
ddequate support for at least $34,054 in claims for Federal reimbursement, (4) incurred
questionable travel costs of $4,915, and (5) had little assurance that it had obtained the best prices
for airfares. The Guam Board of Education’s response to the report expressed general
concurrence with the report’s seven recommendations. However, we requested target dates and
titles of the officials responsible for implementing each recommendation.

Corporation Official Sentenced in Overbilling Scheme
  n November 1998, an official of a Guam corporation that had a contract with the Guam Power
I Authority was convicted of engaging in a long-ten-n scheme to overbill the Power Authority for
fuel oil. The investigation revealed that the official and coconspirators caused the Power
Authority to pay $3.4 million for fuel it did not receive. The official, who provided fraudulent
documentation relating to the quantity of the fuel oil delivered to the Power Authority, was
convicted of conspiracy, multiple counts of wire fraud, and interstate transportation of stolen
property. In March 1999, the official was sentenced to 5 1 months of imprisonment and was
ordered to pay a special assessment of $1,600. As stated in our October 1998 Semiannual Report,
the U.S. Department of Justice in May 1998 unsealed criminal plea agreements for two other
Guam businessmen who conspired in the theft of fuel oil from the Power Authority. One
defendant made restitution through a civil settlement of $8 million to the Power Authority and
$1.4 million to the U.S. Navy Public Works Center. Sentencing is pending for these two
defendants. This was a joint investigation with the FBI.




16            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

Personnel Services Costs Adequately Supported, But Property and
Procurement Improvements Needed
       e found that personnel services costs charged to Federal grant programs were adequately
       supported by time and attendance records and that cash drawdowns were made in
compliance with Federal cash management standards. However, the Commonwealth of the
Northern Mariana Islands Public School System did not adequately justify the use of sole source
and emergency procurement methods; split procurements into small purchases, which resulted in
noncompetitive procurements; and did not obtain the required written price quotations for small
purchases. Furthermore, the Public School System did not maintain accurate inventory records
for reportable property and did not ensure that all controlled property was entered int6 the
property records. Also, the Public School System used Federal funds to pay for school bus repairs
covered by factory warranties. As a result, the Public School System did not have full assurance
that the best prices were obtained on at least 139 small purchases, totaling $523,589; did not have
control over Federally funded property of $197,964; and unnecessarily used Federal funds of
$17,044 to repair buses. Based on the Board of Education’s response to the report, we considered
6 of the report’s 10 recommendations resolved and implemented, 3 recommendations resolved but
not implemented, and 1 recommendation unresolved.

Discretionary Fund Expenditures Unauthorized and Questioned
     ased on a request from U.S. Government officials, we examined the Governor’s discretionary
B    fund. We found that the Office of the Governor authorized the expenditure of funds from the
discretionary fund which exceeded appropriated amounts and made expenditures from the
discretionary fund which were either not adequately supported or, in our opinion, did not appear
to have been made for a “public purpose.” In addition, during fiscal years 1996 and 1997, the
Office of the Governor authorized the reprogramming of funds between object classifications for
appropriations that the Legislature had specifically restricted from reprogramming authority.
These conditions occurred because the former Governor and the former Secretary of Finance
(who served as the certifying officer) charged expenditures to the discretionary fund, although the
annual appropriations for the fund had been depleted. In addition, there were no written policies
and procedures that clearly identified the purposes for which the discretionary fund could be used.
and there was no requirement for the Governor’s Office to prepare and submit periodic reports on
the status of the discretionary fund to the Commonwealth Legislature for oversight purposes.
Also, the Office of the Governor had not assigned responsibility for preparing and submitting the
required quarterly and annual reports on reprogramming actions to the Legislature. As a result,
expenditures from the discretionary fund exceeded appropriations by $900,000 in fiscal year
1996, $3.8 million in fiscal year 1997, and $1.8 million in fiscal year 1998. In addition, during
fiscal years 1996 and 1997, appropriated funds totaling $432,764 were reprogrammed
improperly. We made four recommendations to the Governor and one recommendation to the

              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999               17
President of the Senate and the Speaker of the House of Representatives. However, because we
did not receive responses to the report, we considered all five of the recommendations
unresolved.

Civil Settlement of $1.35 Million Paid
       fter a 3-year investigation, a joint effort by OIG and the FBI found that a California not-for-
A      profit health care corporation made payments totaling $96,000 to a former official of the
Commonwealth of the Northern Mariana Islands. The payments were made pursuant to a patient
referral agreement with the health care corporation whereby Commonwealth patients would be
referred to the corporation for treatment if the patients required health care that was beyond the
capabilities of the Commonwealth’s Health Center. These referrals resulted in payments to the
h’ealth care corporation from local and Federal sources. The patient referral agreement was in
effect from April 14, 1991, to July 1, 1994. The former official who received the payments was
the negotiating and contracting officer on behalf of the Commonwealth for the patient referral
agreement. The Commonwealth was unaware of the payments to the former Commonwealth
official, who cooperated with investigators and later pled guilty to bribery concerning a
government agency receiving Federal funds. Sentencing by a Federal court is pending.

The health care corporation denied liability but agreed to resolve the matter by a civil settlement
with the Department of Justice that included payments of $1.1 million to the Department of
Justice and $250,000 to the Commonwealth’s medical referral fund.


VIRGIN ISLANDS

Deficiencies in Unemployment Insurance Program Disclosed

W      e found that the Division of Unemployment Insurance, Virgin Islands Department of Labor,
       did not (1) issue unemployment insurance bills to employers in a consistent and timely
manner; (2) ensure the accuracy of employers’ unemployment accounts; (3) actively follow up
with employers concerning delinquent unemployment taxes; (4) consistently assess interest and
penalties against delinquent employers; (5) ensure that only qualified applicants received
unemployment insurance benefits; (6) maintain an adequate level of internal controls over
computer operations; (7) adequately safeguard computer and hard copy files for all individuals
who applied for unemployment benefits; (8) ensure that monthly bank reconciliations were
performed; and (9) ensure that blank, canceled, and voided checks were properly controlled and
secured. As a result, delinquent unemployment taxes totaled about $18.5 million, 156 claimants
received excess benefit payments of more than $152,800, supporting records were not available
for 183 additional claimants who received benefit payments of about $400,400, and 197 canceled



18            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
checks for benefit payments could not be located. Based on the response to the report from the
Governor of the Virgin Islands, we considered 3 of the report’s 12 recommendations resolved and
implemented and 9 recommendations resolved but not implemented.

Dual Compensation Paid

B    ased on a request from the National Guard Bureau, U.S. Department of Defense, we audited
     the Virgin Islands National Guard. We found that 10 members of the Virgin Islands National
Guard who were also Virgin Islands police officers received compensation of $12,265 from the
National Guard for time served on territorial active duty after Hurricane Marilyn struck the Virgin
Islands and also received compensation of $38,674 from their regular jobs as police officers for
periods during which they were also on duty with the National Guard. However, such payments
appear to have been in accordance with Virgin Islands law. We also found that because the
National Guard needed to improve controls over the approval and collection of lease fees for the
nonmilitary use of the Lionel A. Jackson Armory, estimated lease fees of at least $632 relating to
Federally owned equipment were deposited into a bank account in the Virgin Islands instead of
being transferred to the Treasury of the United States. We made four recommendations to the
Governor of the Virgin Islands and one recommendation to the Chief, National Guard Bureau,
Department of the Army. The Virgin Islands National Guard presented an alternative corrective
action for one recommendation and concurred with three recommendations. However, the
National Guard Bureau, Department of the Army, did not respond to one recommendation, which
we readdressed to the Governor. Therefore, we considered one recommendation resolved and
implemented, three recommendations resolved but not implemented, and one recommendation
unresolved.

Further Improvements in Personnel Management Practices Needed

I  n an audit requested by the Virgin Islands Legislature, we found that of the six
   recommendations made in our July 1992 survey report “Personnel Management Practices,
Division of Personnel, Government of the Virgin Islands” (No. 92-I- 1086) one recommendation
was implemented, one recommendation was considered closed because it was no longer feasible,
and four recommendations were not implemented. Specifically, although the Division of
Personnel took actions to develop and implement rules and regulations for the maintenance and
security of official personnel files, the Government did not (1) take action to amend the
Government Reorganization and Consolidation Act of 1987 to remove a conflict that allowed the
Governor to hire individuals into unclassified (exempt) positions that did not meet the
requirements of the Personnel Merit System, (2) develop and implement rules and regulations to
restrict the use of unclassified hiring and personal services contracts to till positions that should
have been a part of the classified service under the Personnel Merit System, and (3) review and
update all entrance examinations used to determine the qualifications of applicants for positions in
the classified service. In addition, although 567 employees in the Government’s Executive
Branch elected to retire under the provisions of the Early Retirement Incentive, Training and


              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                 19
Promotion Act of 1994, the Government did not reduce the size of the Executive Branch work
force by a commensurate number of permanent positions, which would have generated potential
savings in annual payroll costs of at least $16 million, including fringe benefits. To address the
deficiencies, we made four recommendations to the Governor and one recommendation to the
Legislature. The Governor’s response to the report specifically addressed the recommendations
contained in our July 1992 rep&, which in effect adequately addressed one recommendation in
our current report. We considered this recommendation resolved but not implemented.
However, the remaining three recommendations to the Governor are unresolved. Since the
Legislature did not respond to the recommendation addressed to it, that recommendation is also
unresolved.

Improvements in Administration of Real Property Taxes Needed
 .
       e found that improvements were needed in the Government of the Virgin Islands
       administration of real property tax exemptions and the collection of real property taxes.
The Tax Assessor’s Office, although it was generally effective in determining the assessed value
of real property and computing real property taxes, did not ensure that property tax exemptions
were granted to taxpayers in accordance with established requirements. In addition, the
Department of Finance did not maintain accounts receivable records for delinquent real property
tax bills and did not effectively enforce the collection of delinquent taxes. Further, improvements
were needed with regard to the internal controls for collecting and recording property taxes by the
Department and for processing tax appeals by the Board of Tax Review. As a result of these
deficiencies, 102 taxpayers received farmland, nonprofit, and industrial exemptions that were a
total of $300,000 more than the exemptions to which they were entitled, and almost 3,200 other
taxpayers received homestead and senior citizen exemptions that were a total of $2 10,000 less
than what they should have been. Additionally, taxpayers owed at least $15.4 million in
delinquent property taxes. Since we did not receive a response to the draft report, the report’s
10 recommendations are unresolved.

Retirement System Loans and Contributions Not Administered
Adequately
   n an audit requested by the Virgin Islands Legislature, we found that improvements were
I  needed in the Virgin Islands Government Employees Retirement System’s administration of
loans to members and accounting for employer and employee contributions to the Retirement
System. Specifically, the Retirement System did not fully implement 15 of the 16 unresolved
recommendations contained in our 1991 audit report and therefore did not adequately administer
loans to its members. We found that there were 1,054 delinquent loans, with outstanding balances
totaling $5.3 million. Further, erroneous amounts were deducted from employees’ salaries as
contributions to the Retirement System, which resulted in the need to refund an average of about
$104,000 annually, and the Retirement System lost about Sl million in interest income because of
the Government’s delays in submitting biweekly retirement contributions to the Retirement

20            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
System. In its response to the report’s 10 recommendations, the Retirement System addressed the
recommendations contained in the 1991 report but commented on only 1 of the current report’s 11
recommendations. Based on the response, we considered 10 recommendations unresolved and
requested additional information for 1 recommendation.



Minerals Management Service
Bonds for Abandoned Oil and Gas Facilities Not Sufficient

I  n an audit requested by MMS’s Director, we found that MMS’s Gulf of Mexico Regional
   Office had not obtained sufficient supplemental bonds to cover the estimated facility
abandonment costs for offshore oil and gas producing platforms, wells, and other facilities.
Supplemental bonds are required when it is determined that additional security over oil and gas
lessees’ general bonds is necessary. MMS developed objective standards in its supplemental
bond review procedures but did not formally approve or publish that document. In addition, the
Gulf of Mexico Region had not reviewed 59 nonexempt companies to determine whether
supplemental bonds were required because Regional policy provided for a supplemental bonding
review only when lease activity caused a review to be conducted. As a result, bond coverage for
these 59 nonexempt companies was $107 million less than the estimated liability for their leases,
and the Government could be responsible for these costs. MMS agreed with the report’s
one recommendation to expedite formalizing the supplemental bonding review procedures and
to establish a time frame to review the 59 nonexempt companies. Based on the response, we
considered the recommendation resolved but not implemented.

Royalty-in-Kind Pilots Successful for Specific Locations and
Products
      ased on a request from MMS’s Director, we examined MMS’s royalty-in-kind pilots in the
B     Gulf of Mexico to test gas and in Wyoming to test oil. We found that the pilots will provide
MMS with the knowledge and practical experience to implement a permanent royalty-in-kind
system for those particular regions and products. However, because the United States oil and gas
industry operates in distinct regions, we believe that the limited geographic coverage and products
included under the pilot program will not provide a conclusive royalty-in-kind feasibility
assessment for all Federal oil and gas production. The pilot program is limited because MMS’s
strategy is to conduct pilots in those areas where MMS expects to maintain or exceed the revenues
collected under the royalty-in-value system. MMS officials said that this strategy was consistent
with the recommendations contained in MMS’s “1997 Royalty In Kind Feasibility Study” and
that resources were not available to expand the planned pilot program. As a result of MMS’s
decision to limit the scope of its pilots, we believe that any conclusions concerning the feasibility
of a royalty-in-kind program will apply solely to the geographic regions and products specifically


              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                 21
studied and should not be used to evaluate the concept on a nationwide basis. Further, while
MMS’s strategy to maintain or exceed prior revenue collection levels for the pilot leases has
merit, we view the pilots as an opportunity to gain knowledge through operational experience of
how a royalty-in-kind program should be managed, as well as to demonstrate whether any
advantages exist over the in-value system. By including leases in these pilots that are not
anticipated to yield the desired revenues, MMS may obtain valuable information and learn
methods to maximize the collections. This would be consistent with MMS’s objective of the
pilot, which is “to test the propriety of the [royalty-in-kind] concept for collecting federal . . .
royalties.” Further, MMS should be prepared to effectively implement a permanent royalty-in-
kind program for Federal leases in anticipation of proposed legislation becoming law.
Accordingly, we made several suggestions that, if acted upon, would provide more useful results
from the pilots.

1**~rovements         in Offshore Civil Penalties Program Needed

 S ince the enactment of the Oil Pollution Act of 1990, MMS’s Gulf of Mexico Region has
   developed and implemented a civil penalties program. However, we identified areas where
improvements in the program were needed. Specifically, reviewing officers were not adequately
documenting their penalty assessment decisions, and case files were not reviewed by a supervisor
to ensure that the substantial evidence requirements were met. Undocumented and unsupported
assessment decisions can leave civil penalty decisions vulnerable to reversal under appeal and
lead to inconsistent penalty assessments, which could also limit the effectiveness of the civil
penalties program. In addition, we found that inspectors did not always make referrals for civil
penalties when appropriate or make referrals in a timely manner because inspection supervisors
did not ensure that inspectors were thoroughly knowledgeable of the civil penalties program and
made referrals when appropriate. When inspectors do not refer serious Incidents of
Noncompliance for civil penalty or do not refer them in a timely manner, the program is applied
inconsistently and the program’s effectiveness in promoting safe and environmentally sound
operations in the Gulf of Mexico is diminished. MMS identified similar program weaknesses and
initiated some corrective actions as a result of its internal reviews. Based on MMS’s response to
the report, we considered one of the report’s four recommendations resolved and implemented
and three recommendations resolved but not implemented.

Opportunity To Increase Rental Fees Cited
       e found that MMS has an opportunity to increase rental fee revenues. Specifically, the
w      Deep  Water Royalty Relief Act allows for royalty payments to be suspended for up to
87.5 million barrels of oil equivalent (the amount of energy resource such as natural gas that is
equal to one barrel of oil on an energy basis) produced under offshore leases in deep water (depths
of 200 meters or more) primarily in the central and western portions of the Gulf of Mexico.
During the period when royalty payments are suspended, MMS’s offshore oil and gas leases
terminate rental fees. Thus, DO1 does not receive any revenues during the period when royalties


22            Semiannual Report to the Congress: October 1, 1998 - March 3 I, 1999
are suspended for offshore leases. This is in contrast to the terms of onshore leases, which require
payments to be equal to the higher of rental fees or royalties throughout the time period of the
lease. We estimated that the Government has lost the potential to earn rental revenues of as much
as $3.7 million associated with deep water leases issued prior to the Royalty Relief Act and has
lost the potential to earn rental revenues ranging from $6.9 million to $75.9 million on oil and gas
leases issued in 1996 and 1997, subsequent to the Royalty Reiief Act. However, MMS has an
opportunity to increase rental revenues by an estimated $2.4 million to $26 million for leases that
will be issued between April 1, 1999, and December 3 1,2000, by changing the terms of these
leases before they are sold to require rental payments during periods of royalty relief. Based on
MMS’s response to the report, we have revised the report’s two recommendations and requested
that MMS respond to the revised recommendations.

Settlement of $205,000 Reached in Royalty Underpayment Case

C
    oal companies pay royalties to the Government based on the sales prices of coal mined on
    Federal lands. An OIG investigation into allegations that corporate officers of a power
supply company conspired to create a scheme to diminish Federal lease coal royalty payments to
MMS resulted in a civil settlement. The OIG investigation revealed that the power company sole
coal mined by an affiliate company to another affiliate. The sales were reported monthly to
MMS, and royalties were paid; however, the power company did not disclose that the sales were
from one affiliate company to another and therefore were not arms-length transactions. The
purchasing affiliate company resold the coal to third-party customers. The higher price paid by
the third-party customers should have been the price reported to MMS for purposes of making
royalty payments.

The civil settlement was reached after a complaint was filed by the Civil Division of the
Department of Justice alleging violations of the Civil False Claims Act, breach of contract, unjust
enrichment, and negligent misrepresentation. On October 2, 1998, a settlement agreement was
reached whereby the company that mined the coal made restitution of $205,000.

Civil Settlement of $147,333 Paid
   n New Mexico, a major oil corporation operating in the Southwest has agreed to pay MMS,
I  through the Department of Justice, $147,333 as a result of a March 26, 1999, civil settlement in
connection with an OIG investigation of the company for improperly claiming transportation
charges. Specifically, the corporation continued to pay tariffs to a pipeline company that
transported the product after an agreed-upon cumulative earnings ceiling had been reached. These
tariffs were then improperly deducted in the calculation of royalties. The investigation into other
matters involving this corporation is continuing.




              Semiannual Report to the Congress: October 1, 1998 - March 31, 1999                23
Multi-Office
Year 2000 Readiness Reviewed
      01’s Chief Information Officer requested OIG assistance in monitoring the progress of DO1
D     agencies in ensuring year 2000 (Y2K) readiness, implementing Y2K compliant systems, and
validating the accuracy of the information reported by the bureaus and DOI agencies to the Chief
Information Officer. Specifically, the Chief Information Officer requested that we determine
whether the bureaus (1) inventoried their automated information systems and identified those
systems that were mission critical and were not Y2K compliant; (2) developed auditable cost
estimates for renovating systems to be Y2K compliant; (3) identified, by name, individuals
responsible for ensuring that the bureaus are Y2K compliant; (4) ensured that responsible
individuals’ personnel performance evaluation plans included critical elements related to
identifying and remedying Y2K problems; (5) developed a credible plan that included milestones
and a critical path to ensure that the bureaus are Y2K compliant; and (6) developed a contingency
plan that would address the failure of any part of the systems not being Y2K compliant.

During this semiannual period, we evaluated the six areas at BOR, which included the Denver
Administrative Service Center (DSC); BLM; and USGS, which included the Washington
Administrative Service Center (WASC). The results of our reviews are as follows:

                                           Y2K READINESS

                                                         Bureau/Office
                   Action                  BOR       DSC      BLM      USGS WASC
 Inventoried and evaluated systems          Yes      N/A*      No        No       N/A
 Developed cost estimates                   No       N/A       No        No       Yes
 Designated responsible official            Yes      Yes       Yes       Yes      Yes
 Updated performance plan                   No       Yes       No        No       Yes
 Developed compliance plan                  No       Yes       No        No       Yes
 Developed contingency plan                 No       No        Yes       No       N/A


*Not applicable.

Since the purpose of the reports was to notify the Chief Information Officer of the status and
accuracy of the bureaus’ and the offices’ information reporting, the reports did not contain any
recommendations. Since completion of our fieldwork, BOR, BLM, and USGS reported that they
had completed actions on all six of the areas.


24                 Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
Individuals Convicted in Computer Thefts

F   ollowing an 18-month joint investigation conducted by OIG agents, the Federal Protective
    Service, and the U.S. Park Police, a DO1 employee, a DOI contract employee, and another
individual were arrested and charged with stealing computer equipment worth approximately
$90,000 from the Main Interior Building in Washington, D.C. The investigation disclosed that
between 1996 and 1998, these individuals devised a scheme to intercept new computer equipment
received at the Main Interior loading dock. The bureaus affected by these thefts were the Office of
the Secretary, OIG, OSM, and the National Park Service. The three individuals were arrested and
charged with theft of Government property. In February 1999, all three individuals were
sentenced to a total of 20 months of imprisonment and 132 months of probation and were ordered
to make restitution totaling $78,855.
 .

Former Contractor Sentenced for Computer Theft
   n a related computer theft, a joint investigation was initiated with OIG, the Federal Protective
I  Service, and a private security firm based on allegations that a contract employee was
attempting a steal a laptop computer fi-om DOI. According to the security firm’s officers
stationed at DOI, the contractor had the laptop in a plastic bag and was leaving the building when
the officers stopped him. The contractor confessed to attempting to steal the computer. On
January 12, 1999, in the Superior Court of the District of Columbia, the contractor pled guilty to
theft and was subsequently sentenced to 6 months of imprisonment and 2 years of probation.
The contract employee was ordered to make restitution of S 1,000 and to pay a special assessment
of $50.



Office of the Secretary
Weaknesses in Use of Purchase Cards Cited
     he 3 15 individuals who have Govemmenhvide purchase cards within the Office of the
T    Secretary made 6,452 purchases, totaling approximately $2.5 million, from October 1996
through July 1997, primarily for the acquisition of supplies and services costing $2,500 or less.
We found that for 192 ($142,446) of the 796 ($413,508) transactions sampled, the approving
officials either did not certify the cardholders’ statements or they certified the statements without
reviewing documents such as vendor invoices or itemized receipts to verify that the items
purchased were for valid Government purposes. Also, cardholders allowed noncardholders to use
their cards for 12 purchases, totaling $4,235; split orders for 41 purchases, totaling $56,923; and
either did not maintain telephone logbooks or maintained inadequate logbooks for 433 purchases,
totaling $247,883. In addition, 19 of the 53 cardholders included in our review did not adequately
safeguard their purchase cards. The deficiencies occurred because (1) approving officials did not


              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                25
    perform all of the required review procedures and (2) the Office of the Secretary did not perform
    periodic reviews of the Purchase Card Program. As a result, the Office of the Secretary did not
    have reasonable assurance that improper use of the purchase cards would be prevented or detected
    in a timely manner for the transactions reviewed. Based on the response from the Office of the
.   Secretary to the report’s six recommendations, we considered one recommendation resolved and
    implemented and requested additional information for five recommendations.



    Office of the Special Trustee for American Indians

     .
    Accountability Over Monies and Trust Funds Inadequate

    0 statements for fiscal year 1997 for tribal, individual Indian monies, and other special trust
         IG issued an audit report prepared by an independent public accountant on the financial

    funds managed by the Office of Trust Funds Management, which is under the Office of the
    Special Trustee for American Indians. The financial statements, prepared by the Office of Trust
    Funds Management, reported a trust fund balance of approximately $3 billion.

    The independent public accountant issued qualified opinions on the financial statements for fiscal
    year 1997 because cash and overnight investments could not be independently verified, cash
    balances were materially greater than those reported by the U.S. Treasury, major deficiencies in
    the accounting systems’ controls and records caused the systems to be unreliable, and certain
    beneficiaries of trust funds disagreed with balances recorded by the Office of Trust Funds
    Management and had filed or were expected to file claims against the Office of Trust Funds
    Management. These conditions prevented the cash and Trust Funds balances and the receipts and
    disbursements from being audited. In addition, a potential liability to the Federal Government
    exists because of lawsuits filed over the Government’s fiduciary responsibilities. The
    independent public accountant’s report on the internal control structure contained
    11 recommendations to address 3 material weaknesses, 4 reportable conditions, and 4 advisory
    comments. The independent public accountant’s report on compliance with laws and regulations
    contained a notice that some tribal organizations and individual Indians have tiled various claims
    against the Federal Government for its failure to fulfill fiduciary responsibilities. The report also
    addressed an immaterial noncompliance issue relating to the Office of Trust Funds Management’s
    accepting voluntary deposits totaling $2.5 million to Individual Indian Monies Trust Funds
    accounts.

    In addition to the results of the audit of the financial statements as of and for the year ended
    September 30, 1997, the independent public accountant’s report contained information on the
    minimal progress made by the Office of Trust Funds Management and BIA in addressing the
    material weaknesses, reportable conditions, and noncompliance issues identified in prior audit
    reports.


    26            Semiannual Report to the Congress: October 1, 1998 - March 31, 1999
Based on the responses from the Offrce of Trust Funds Management and BIA to the report’s
11 recommendations, we considered 2 recommendations resolved and implemented and
8 recommendations resolved but not implemented and requested additional information for
1 recommendation.



U.S. Fish and Wildlife Service
Deficiencies in Land Acquisition Activities Identified
        e found that FWS had not ensured that just compensation (the amount that was to be
W       offered to landowners) was properly established before FWS acquired land. Specifically,
FWS did not fully comply with its appraisal and boundary survey requirements or require (1)
documentation to show that consideration was given to updating certain appraisals, (2) the
preparation of two acceptable appraisals when two appraisals were required, or (3) the adjustment
of purchase prices of property to be based on boundary surveys. As a result, FWS did not have
sufficient assurance that it paid market value for 59 of the 205 land acquisitions reviewed. These
59 acquisitions included 29 cases in which FWS may have overpaid landowners about $748,000
because the number of acres in the appraisals was overstated and 3 cases in which FWS may have
underpaid landowners about $145,000 because the number of acres in the appraisals was
understated. FWS also did not have sufficient assurance that it paid market value for
462 easements, costing $3.5 million, because just compensation was not based on current data.
We also found that FWS had not ensured that payments for easements and refuge land were
necessary and appropriate, resulting in inappropriate payments of about $207,400 for future
property taxes and weed control costs and payments of about $66,500 for prior property taxes that
were not the liability of FWS. Also, FWS paid nonprofit organizations about $438,700 for
expenses that were unsupported or ineligible for reimbursement and about $189,300 for expenses
that were in excess of the fair market value of the acquired land. Further, FWS had not obtained
the required approvals in acquiring two tracts of land containing environmental contaminants. As
a result, FWS had a potential liability to pay about $772,900 to clean up the property if it is
determined that a full-scale cleanup is needed. We found that 13 of 14 land exchanges reviewed
had been transacted properly. However, in one exchange, FWS inappropriately obtained funds to
acquire private land by selling timber on refuge land to a third party. We considered this
transaction not to be in compliance with statutory requirements for the use of timber sales
revenues. Based on FWS’s response to the report’s 11 recommendations, we considered
7 recommendations resolved but not implemented and 4 recommendations unresolved.




              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999              27
Former Special Agent Sentenced for Making False Statements
      s reported in our October 1998 Semiannual Report, a joint investigation conducted by OIG
A     and FBI personnel led to the conviction of a former FWS special agent in Pennsylvania.
The former special agent pled guilty to making false statements and to destroying or removing
property to avoid seizure. In his plea, the special agent admitted to providing paramilitary and
wilderness survival training to an extremist group and making false statements to investigators.
He also admitted to disposing of semiautomatic assault rifles owned by the group to prevent their
seizure by Federal law enforcement officials. He was convicted in the United States District
Court for the Southern District of New York for engaging in a seditious conspiracy to commit acts
of urban terrorism, including the assassination of a president of a country and the bombings of
buildings in New York City. On January 29, 1999, the former special agent was sentenced to
4’years of imprisonment and was ordered to serve 2 years of supervised probation. The former
agent was also ordered to pay a special assessment of $200.

Former Forester Sentenced for False Statements

      n investigation into allegations that an FWS forester in Michigan manipulated the timber-
A     bidding processes and allowed logging companies to harvest unmarked timber in return for
kickbacks from the loggers determined that the forester did not violate criminal statutes relative to
the timber sales. However, the investigation revealed that the forester made false statements on his
1997 and 1998 Confidential Financial Disclosure Reports (SF-450). Specifically, the forester did
not disclose that he made a loan of several thousand dollars to one of his supervisors. On
February 1, 1999, in the United States District Court for the Western District of Michigan, the
forester was found guilty of making a false statement. He was sentenced to 24 months of
supervised probation and was ordered to pay a fine of $5,000 and a special assessment of $100.

Former Employee Resigns in Theft Case
     n investigation disclosed that a former U.S. Department of Agriculture employee misused a
A    Government-issued purchase card by charging personal items valued at approximately
$5,200. At the time the investigation was initiated, the employee had accepted a position in
Minnesota with FWS. On March 9, 1999, the employee was sentenced to 3 days of
imprisonment, 60 months of probation, and 120 hours of community service. The employee was
ordered to make restitution of $3,3 18 and to pay a fine of S 160.




28            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
U.S. Geological Survey
Additional Controls Over Data Processing Needed

0    IG issued an audit report prepared by the U.S. House of Representatives OIG on the data
     processing environment at USGS’s Reston General Purpose Computer Center. The report
followed up on a December 1996 report by the House’s OIG on the same subject. The December
1996 report contained 72 recommendations. The current review found that USGS had made
significant progress in addressing the weaknesses and problems identified in the 1996 report.
Specifically, the report stated that 48 recommendations had been resolved or superseded but that
additional actions were needed on the remaining 24 recommendations. However, the report
identified additional weaknesses in the general control areas of Computer Center management and
operations; mainframe systems physical and logical security; telecommunications security; and
contingency planning, including backup procedures for preventing loss and recovering data in
case of a disaster. According to the report, the identified weaknesses increased the risk of
unauthorized access and modifications to, and disclosure of, information processed on the
Computer Center’s mainframe computer. Also, the report noted that the weaknesses increased the
potential for operational errors, which could adversely affect service continuity. USGS
generally concurred with the weaknesses identified and with the 24 new recommendations.
USGS indicated that it had resolved and implemented 12 of the recommendations, and we
considered the remaining 12 recommendations resolved but not implemented.




             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999            29
I




                                                      APPENDIX 1

                             SUMMARY OF AUDIT ACTIVITIES FROM
                            OCTOBER 1,1998, THROUGH MARCH 31,1999
                                               AUDITS PERFORMED BY:
                                                           OTHER
                                                         FEDERAL         SON-FEDERAL
                                                         AUDITORS          AUDITORS
                                                      (With Review and   (With Review and
                                                        Processing by     Processing by
                                     OIG STAFF            OIG Staff)        OIG Staff)

                                     Internal and       Contract and
                                    Contract Audits     Grant Audits       Single Audits     TOTAL

     REPORTS ISSUED TO:

     Department/
     Dfftce of the
     Secretary                             2                  0                   0             2

     Fish and Wildlife
     and            Parks                  5                  9                  5             19
     Indian               Affairs         12                  0                156            168
     insular              Areas           11                  0                 22             33

     Land and Minerals
     Management                            9                 4                   3             16
     Water          and       Science      8                 0                   4             12
         Subtotal                         47                 13                190            250

     [NDIRECT COST PROPOSALS NEGOTIATED FOR:

     Indian Tribes and
     Drganizations                       116                 0                   0            116
     insular               Areas           3                 0                   0              3
     State           Agencies             33                 0                   0             33
         Subtotal                        152                 0                   0            152

           TOTAL                         199                13                 190            402




    30                Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
                                                              APPENDIX 2

  AUDIT REPORTS ISSUED OR PROCESSED AND INDIRECT COST
 PROPOSALS NEGOTIATED DURING THE &MONTH PERIOD ENDED
                     MARCH 31,1999

     This listing tncludes all internal. contract and grant. and single audit repom issued and ixtdirectcmtpmposals negotiated during tie 6-month
     period ended March 31. 1999. It provides report number. title. issue date. aad rnomty artumnts identified in each report (Vimds to be
     put to better we. **questioned costs, **Zlnsupported costs [unsupported c&s are mcludcd in questicmd costs], and ****lost or potential
     additional revenues).



INTERNAL AUDITS                                     99-I-145 BACKGROUND                                      99-I-363 BUREAU OF
                                                    INVESTIGATIONS FOR                                       INDIAN AFFAIRS FUNDS
                                                    PHOENIX AREA                                             PROVIDED TO THE LAC
BUREAU OF INDIAN                                    EDUCATION EMPLOYEES,                                     COURTE OREILLES OJJBWE
AFFAIRS                                             BUREAU OF INDIAN                                         SCHOOL FOR THE
                                                    AFFAIRS (12:23i98)                                       CONSTRUCTION OF
99-I-102 AGRICULTURAL                                                                                        SCHOOL FACILITIES AND
LEASJNG AND GRAZING                                 99-I-146 BACKGROUND                                      THE LEASMG OF
ACTIVITIES, FORT                                    INVESTIGATIONS FOR                                       TEMPORARY SPACE
BERTHOLD AGENCY,                                    NAVAJO AREA EDUCATION                                     (3/15/99) **$450,922
BUREAU OF INDIAN                                    EMPLOYEES, BUREAU OF
AFFAIRS (11!25/98)                                  INDIAN AFFAIRS (12/23/‘98)                               99-E-70 LEGAL SERVICES
                                                                                                             COSTS MCURRED BY THE
99-I-l 23 AGRICULTURAL                              99-I-187 EXCESS FEDERAL                                  CHEROKEE NATION OF
LEASING AND GRAZING                                 PERSONAL PROPERTY                                        OKLAHOMA ( 1 O/29/98)
ACTIVITIES, ROSEBUD                                                                                          **$88,000
                                                    DONATED TO INDIAN
AGENCY, BUREAU OF                                   TRIBAL ORGANIZATIONS
INDIAN AFFAIRS (12/7!98)                            BY THE PORTLAND AREA                                     99-E-376 PROPOSED
                                                                                                             SETTLEMENT FOR
                                                    OFFICE, BUREAU OF
99-I-126 INVESTMENTS                                                                                         INDIRECT COSTS NOT
                                                    INDIAN AFFAIRS (l/23/99)
AND DEPOSITS OF PUBLIC                                                                                       RECOVERED BY THE
                                                    *S5,400,000
LAW loo-297 GRANT FUNDS                                                                                      NAVAJO NATION
BY SCHOOLS OPERATED                                                                                          (3/19/99)
                                                    99-I-260 PER CAPITA
BY INDIAN TRIBES AND                                                                                         (Report issued to the Umted
                                                    DISTRIBUTIONS OF
TRIBAL ORGANIZATIONS                                                                                         States Attorney’s Oficefor the
                                                    GAMING REVENUES BY
(12/l 1198) **$691,000                                                                                       District of New Mexico)
                                                    THE TABLE MOUNTAJN
                                                    RANCHERIA, CALIFORNIA.
99-I-143 BACKGROUND
                                                    FROM JANUARY 1,1996,
                                                                                                             BUREAU OF LAND
INVESTIGATIONS FOR
                                                    THROUGH SEPTEMBER 30,                                    MANAGEMENT
ALBUQUERQUE AREA
                                                    1998 (2/l l/99)
EDUCATION EMPLOYEES,                                                                                         99-I-231 YEAR 2000
BUREAU OF INDIAN                                                                                             READINESS OF
AFFAIRS ( 12/22!98)                                                                                          AUTOMATED
                                                                                                             INFORMATION SYSTEMS
                                                                                                             AT THE BUREAU OF LAND
                                                                                                             MANAGEMENT (2il2 99)



                 Semiannual Report to the Congress: October 1, 1998 - March 31, 1999                                                                31
99-I-236 BUREAU OF LAND         99-I-l 73 AGREED-UPON             99-I-356 DISCRETIONARY
MANAGEMENT FINANCIAL            PROCEDURES: EMPLOYEE              AND REPROGRAMMED
STATEMENTS FOR FISCAL           WITHHOLDINGS/                     FUNDS, OFFICE OF THE
YEARS 1998 AND 1997             EMPLOYER                          GOVERNOR,
(2/L/99)                        CONTRIBUTIONS                     COMMONWEALTH OF
                                REPORTED FOR                      THE NORTHERN MARIANA
99-I-358 DRAINAGE               RETIREMENT AND HEALTH              ISLANDS (3/26/99)
PROTECTION PROGRAM,             AND LIFE INSURANCE                *56,909,774
BUREAU OF LAND                  BENEFITS AND ON THE
MANAGEMENT (3126199)            SUPPLEMENTAL                      Guam
                                SEML4NMJAL HEADCOLNT
99-I-393 RECOVERY OF            REPORT SUBMITTED TO               99-I-13 ON-CALL
OVERHEAD COSTS BY               THE OFFICE OF PERSONNEL           SUBSTITUTE TEACHERS,
THE BUREAU OF LAND              MANAGEMENT (12129:98)             DEPARTMENT OF
MANAGEMENT                                                        EDUCATION,
(3/31i99) ****$386,452          99-I-308 PROPOSED                 GOVERNMENT OF GUAM
                                CONTRACT                          (10/21/98) *$21,681
99-I-395 ADMINISTRATION         NO. 8-07-30-LO470 WITH
OF REVENUES DUE FROM            DYNASIM FOR THE DESIGN,           99-I-255 FEDERAL GRANT
HELIUM PRODUCED ON              INSTALLATION, AND                 PROGRAM TRAVEL
FEDERAL LEASES, BUREAU          OPERATION OF A WATER              ACTIVITIES, DEPARTMENT
OF LAND MANAGEMENT              EDUCATION THEATER AT              OF EDUCATION,
(313 1199)                      HOOVER DAM, BUREAU OF             GOVERNMENT OF GUAM
                                RECLAMATION (3122i99)             (2!25/99) **$47,879
BUREAU OF
RECLAMATION                     99-I-399 BUREAU OF                U.S. Virgin Islands
                                RECLAMATION FTNANCIAL
                                STATEMENTS FOR FISCAL             99-I-148 UNEMPLOYMENT
99-1-133 IDENTIFICATION
                                YEARS 1998 AND 1997               INSURANCE PROGRAM,
OF UNNEEDED ACQUIRED
                                (3/30/99)                         DEPARTMENT OF LABOR,
LANDS, BUREAU OF
RECLAMATION                                                       GOVERNMENT OF THE
(12/21/98)                      INSULAR AREAS                     VIRGIN ISLANDS (12/18/98)
****517,454,317                                                   **$408,200 & ****$18,729.200
                                Commonwealth of the
99-I-165 YEAR 2000                                                99-I-261 GOVERNMENT
                                Northern
READINESS OF                                                      EMPLOYEES RETIREMENT
                                Mariana Islands                   SYSTEM, GOVERNMENT OF
AUTOMATED
LNFORMATION                                                       THE VIRGIN ISLANDS
                                99-I-147 MANAGEMENT OF            (3126199) ****$6,300.000
SYSTEMS AT THE BUREAU
                                FEDERAL GRANTS, PUBLIC
OF RECLAMATION (1!8i99)
                                SCHOOL SYSTEM.                    99-I-309 VERIFICATION OF
                                COMMONWEALTH OF THE               WATCH QUOTA DATA FOR
                                NORTHERN MARIANA                  CALENDAR YEAR 1998
                                ISLANDS (12/15198)                SUBMITTED BY FIRblS
                                *$738,597                         LOCATED IN THE U.S.
                                                                  VIRGIN ISLANDS (2s 23i99)




32          Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
I   .



        99-I-364 VIRGIN ISLANDS          99-I-387 OPPORTUNITY             OFFICE OF
        NATIONAL GUARD,                  TO INCREASE OFFSHORE             SURFACE MINING
        GOVERNMENT OF THE                OIL AND GAS RENTAL
        VIRGIN ISLANDS (3/26/99)         REVENUES, MMERALS
                                                                          RECLAMATION AND
        *S12,897                         MANAGEhlENT SERVICE              ENFORCEMENT
                                         (3/31/99) ****$2.400,000
        99-I-365 FOLLOWUP OF                                              99-I-245 OFFICE OF
        RECOMMENDATIONS                  MULTI-OFFICE                     SURFACE MINING
        RELATING TO PERSONNEL                                             RECLAMATION AND
        MANAGEMENT PRACTICES,           99-I-374 OFFSHORE Crc’IL          ENFORCEMENT FINANCIAL
        DIVISION OF PERSONNEL,          PENALTIES PROGRAM,                STATEMENTS FOR FISCAL
        GOVERNMENT OF                   MINERALS MANAGEMENT               YEARS 1998 AND 1997
        THE VIRGTN ISLANDS              SERVICE (3/‘30/99)                (214199)
        (3/26/99) *$26,300,000
        .
                                        OFFICE OF THE                     U.S. FISH AND
        99-I-379 ADMINISTR4TION
                                        SECRETARY                         WILDLIFE SERVICE
        OF REAL PROPERTY TAXES,
        GOVERNMENT OF THE
        VIRGIN ISLANDS (3130199)        99-I-375 USE OF THE               99-I-162 LAND
        ****$15,716,888                 GOVERb&fENTWIDE                   ACQUISITION ACTIVITIES,
                                        PURCHASE CARD, OFFICE             U.S. FISH AND WILDLIFE
        99-I-400 ACQUISITION            OF THE SECRETARY                  SERVICE ( 12/29/98)
        AND CONTROL OF                  (3130199)                         *$1,066,253 & ***$438,680
        COMPUTERS, BUREAU OF
        INTERNAL REVENUE,                                                 99-I-386 U.S. FISH AND
                                        OFFICE OF THE
        GOVERNMENT OF                                                     WILDLIFE SERVICE
                                        SPECIAL TRUSTEE                   FTNANCIAL REPORT
        THE VIRGIN ISLANDS
                                        FOR AMERICAN                      FOR FISCAL YEARS 1998
        O/31/99) **fi51,005
                                        INDIANS                           AND 1997 (3/24:99)
        MINERALS
                                        99-I-372 FINANCIAL                U.S. GEOLOGICAL
        MANAGEMENT
                                        STATEMENTS FOR FISCAL             SURVEY
        SERVICE                         YEAR 1997 FOR THE
                                        OFFICE OF THE SPECIAL
        99-I-141 SUPPLEMENTAL                                            99-1-166 YEAR 2000
                                        TRUSTEE FOR AMERICAN
        BONDING ISSUES ON THE                                            READINESS OF
                                        INDIANS TRIBAL AND
        OUTER CONTTNENTAL                                                AUTOMATED
                                        OTHER SPECIAL TRUST
        SHELF, GULF OF MEXICO                                            INFORMATION SYSTEMS
                                        FUNDS AND INDIVIDUAL
        REGIONAL OFFICE,                                                 AT THE U.S. GEOLOGICAL
                                        INDIAN MONIES TRUST
        MINERALS MANAGEMENT                                              SURVEY (l/8/99)
                                        FUNDS MANAGED BY THE
        SERVICE (12/22/98)              OFFICE OF TRUST FUNDS
                                                                         99-1-381 ADDITIONAL
                                        MANAGEMENT (3126199)
        99-I-371                                                         CONTROLS NEEDED OVER
        ROYALTY-IN-KIND                                                  THE DATA PROCESSING
        DEMONSTRATION PILOTS,                                            ENVIRONMENT AT THE US.
        MMERALS MANAGEMENT                                               GEOLOGICAL SURVEY
        SERVICE (3/29/‘99)                                               RESTON ENTERPRISE DATA
                                                                         SERVICES CENTER (3125i99)




                    Semiannual Report to the Congress: October 1, 1998 - March 31, 1999            33
99-I-404 U.S. GEOLOGICAL           MINERALS                          99-E-80 U.S. FISH AND
SURVEY FINANCIAL                                                     WILDLIFE SERVICE
                                   MANAGEMENT
STATEMENTS FOR FISCAL                                                FEDERAL AID GRANTS TO
YEARS 1998 AND 1997                SERVICE
                                                                     ALASKA DEPARTMENT OF
(3i3 1199)                                                           FISH AND GAME FOR
                                   99-E-38 SOURCE ONE                2 FISCAL YEARS ENDED
                                   MANAGEMENT, INC.,                 JUNE 30, 1996 (1 l/6/98)
CONTRACT AND                       COSTS INCURRED FOR
GRANT AUDITS                       FISCAL YEAR ENDED                 99-E-84 U.S. FISH AND
                                   DECEMBER 31, 1996                 WILDLIFE SERVICE
                                   (10/27198)                        FEDERAL AID GRANTS TO
BUFWAUOFLAND
                                                                     LOUISIANA DEPARTMENT
MANAGEMENT                         NATIONAL PARK                     OF WILDLIFE AND
                                   SERVICE                           FISHERIES FOR 2 FISCAL
99-E-252 IBM                                                         YEARS ENDED JUNE 30,
GOVERNMENT SYSTEMS,                                                  1996 (1 l/6/98) **$568,508
COSTS BILLED UNDER                 99-E-31 7 GENERAL
BUREAU OF LAND                     CONSTRUCTION SERVICES,
                                                                     99-E-142 FISHING
AMANAGEMENT CONTRACT               INC., COSTS INCURRED
                                                                     LICENSE CERTIFICATION
NO. N-652-C-3-0002,                UNDER NATIONAL PARR
                                                                     SUBMITTED BY
SUBCONTRACT NO. 3 12079,           SERVICE CONTRACT
                                                                     MARYLAND DEPARTMENT
FOR FISCAL YEAR ENDED              NO. 1443CX300094906 FOR
                                                                     OF NATURAL RESOLRCES
DECEMBER 31, 1996 (2!18i99)        2 FISCAL YEARS ENDED
                                                                     TO U.S. FISH AND WILDLIFE
                                   DECEMBER 31, 1997 (31’1199)
                                                                     SERVICE DIVISION OF
 99-E-253 IBM                                                        FEDERAL AID FOR
GOVERNMENT                         U.S. FISH AND                     FISCAL YEAR ENDED
SYSTEMS, COSTS BILLED              WILDLIFE SERVICE                  DECEMBER 3 1, 1998 ( 1219198)
UNDER BUREAU OF LAND
MANAGEMENT CONTRACT               99-E-76 U.S. FISH AND             99-E-153 ARAMARK
NO. N-652-C-3-0002,               WILDLIFE SERVICE                  SERVICES, INC., COSTS
SUBCONTRACT                       FEDERAL AID GRANTS TO             INCURRED UNDER U.S.
NO. 3 12079, FOR FISCAL           UTAH DEPARTMENT OF                FISH AND WILDLIFE
YEAR ENDED                        NATURAL RESOURCES,                SERVICE CONTRACT
DECEMBER 31, 1995 (2/18/99)       DIVISION OF WILDLIFE              NO. 1448-98695-97-COO1
                                  RESOURCES, FOR 2 FISCAL           FOR FISCAL YEAR ENDED
99-E-254 IBM                      YEARS ENDED JUNE 30,              SEPTEMBER 30, 1997
GOVERNMENT                        1996 (1 l/4/98) **$98,184         (12/16/98)
SYSTEMS, COSTS BILLED
UNDER BUREAU OF LAND              99-E-78 U.S. FISH AND             99-E-154 UNIVERSITY OF
MANAGEMENT CONTRACT               WILDLIFE SERVICE                  NORTH DAKOTA, COSTS
NO. N-652-C-3-0002,               FEDERAL AID GRANTS TO             INCURRED UNDER U.S.
SUBCONTRACT NO. 3 12079,          MISSISSIPPI DEPARTMENT            FISH AND WILDLIFE
FOR FISCAL YEAR ENDED             OF MARINE RESOLTRCES              SERVICE COOPERATIVE
DECEMBER 3 1, 1997 (2/l 8/99)     FOR 2 FISCAL YEARS                AGREEMENT
                                  ENDED JUNE 30, 1997               NO. 14-48-0010-93-901
                                  (1114198) **S42,887               (12116198) **$2,045




34            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
99-E-172 U.S. FISH AND            99-A-2 ST. MICHAELS               99-A-16 SELDOVLA
WILDLIFE SERVICE                  ASSOCIATION FOR SPECIAL           VILLAGE TRIBE,
FEDERAL AID GRANTS TO             EDUCATION, INC.,                  FISCAL YEAR ENDED
SOUTH DAKOTA                      FISCAL YEAR ENDED                 SEPTEMBER 30, 1996
DEPARTMENT OF GAME,               SEPTEMBER 30,1997                 (10/9/98)
FISH, AND PARKS FOR               (lO/li98)
2 FISCAL YEARS ENDED                                                99-A-l 7 BIG LAGOON
JUNE 30, 1997 (12130198)          99-A-3 UNITED VILLAGES.           RXNCHERIA,
**$20,732                         INC., FISCAL YEAR ENDED           2 FISCAL YEARS Eh-DED
                                  DECEMBER 31, 1994 (1011 98)       DECEMBER 3 1, 1994 ( 1 O/9/98)
99-E-197 U.S. FISH AND
WILDLIFE SERVICE                  99-A-4 NORTHERN                   99-A-18 TONKAWA TRIBE
FEDERAL AID GRANTS TO             PUEBLOS TRIBUTARY                 OF OKLAHOMA,
IOWA DEPARTMENT OF                WATER RIGHTS                      2 FISCAL YEARS ENDED
NATUR4L RESOURCES,                ASSOCIATION,                      SEPTEMBER 30, 1996
FISH AND WILDLIFE                 FISCAL YEAR ENDED                 (1019198) **$41,035
DIVISION, FOR 2 FISCAL            SEPTEMBER 30, 1995
YEARS ENDED JUNE 30,              (10/l/98)                         99-A-26 FORT MCDOWELL
1996 (l/22/99) **$723,257                                           LMOHAVE-APACHE INDIAN
                                                                    COMMUNITY, FISCAL YEAR
                                  99-A-5 NORTHERN
99-E-240 BIRD                                                       ENDED SEPTEMBER 30, 1996
                                  PUEBLOS TRIBUTARY
CONSTRUCTION COMPANY,                                               (10116i98)
                                  WATER RIGHTS
MC., CLAIM FOR
                                  ASSOCIATION,
EQUITABLE ADJUSTMENT                                                99-A-39 OGLALA SIOUX
                                  FISCAL YEAR ENDED
SUBMITTED TO U.S. FISH                                              PARKS AND RECREATION
                                  SEPTEMBER 30,1996
AND WILDLIFE SERVICE                                                AUTHORITY, FISCAL YEAR
                                  (10/l/98)
UNDER CONTRACT                                                      ENDED DECEMBER 3 1. 1994
NO. FWS 10-94-038 (2118199)                                         (10123198)
*$2,506,690                        99-A-6 SICANGU OYATE
                                  HO, INC., FISCAL YEAR             99-A-40 OGLALA SIOUX
99-E-394 U.S. FISH AND            ENDED JUNE 30, 1997               PARKS AND RECREATION
WILDLIFE SERVICE                  (10/l/98)                         AUTHORITY, FISCAL YEAR
FEDERAL AID GRANTS TO                                               ENDED DECEMBER 31, 1995
ARKANSAS FOR 2 FISCAL             99-A-7 HAVASUPAI                  ( 10123198)
YEARS ENDED JUNE 30,              ELEMENTARY SCHOOL,
1997 (3129i99) **$881,800         FISCAL YEAR ENDED                 99-A-41 OGLALA SIOUX
                                  JUNE 30, 1996 (10/l/98)           PARKS AND RECREATION
SINGLE AUDITS                                                       AUTHORLTY, FISCAL YEAR
                                  99-A-14 KETCHIKAN                 ENDED DECEMBER 3 1, 1996
                                  INDIAN CORPORATION,               (10/23!98) **%16,800
BUREAU OF INDIAN                  FISCAL YEAR ENDED
AFFAIRS                           DECEMBER 3 1,1996                 99-A-42 TOHONO
                                   (10/9/98)                        O’ODHAM NATION.
99-A-l QAGAN                                                        FISCAL YEAR ENDED
TAYAGUNGIN TRIBE,                 99-A-15 RAMONA BAND               SEPTEMBER 30, 1994
FISCAL YEAR ENDED                 OF MISSION INDIANS,               (10/23/‘98) **%9,848
JUNE 30, 1996 (1012198)           4 FISCAL YEARS ENDED
**$4,427                          DECEMBER 3 1, 1997
                                  ( 1019198)




              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999             3.5
99-A-44 INDIAN                  99-A-56 PYRAMID LAKE              99-A-63 INDIAN
TOWNSHIP SCHOOL,                PAIUTE TRIBE,                     TOWNSHIP SCHOOL,
MAINEINDIAN .                   FISCAL YEAR ENDED                 MAINE INDIAN
EDUCATION, FISCAL               DECEMBER 3 1, 1995                EDUCATION, FISCAL YEAR
YEAR ENDED JUNE 30, 1997        (10128198)                        ENDED JUNE 30, 1996
(10123198)                                                        (10/29!98)
                                99-A-57 PYRA.MID L.%KE
99-A-45 SKOKOMISH               PAIUTE TRIBE,                     99-A-64 OFFICE OF
INDIAN TRIBE, FISCAL            FISCAL YEAR ENDED                 SUPERINTENDENT,
YEAR ENDED                      DECEMBER 3 1, 1996                MAINE INDIAN
SEPTEMBER 30, 1995              (10129198)                        EDUCATION, FISCAL YEAR
(10123198)                                                        ENDED JUNE 30, 1996
                                99-A-58 BATTLE                    (10129198)
99-A-46 KICKAPOO                MOUNTAIN BAND
NATION SCHOOL, FISCAL           COUNCIL, TE-,MOAK TRIBE           99-A-65 SAC AND FOX
YEAR ENDED JUNE 30, 1994        OF WESTERN SHOSHONE,              NATION, FISCAL YEAR
(10/23/98)                      FISCAL YEAR ENDED                 ENDED DECEMBER 3 1, 1996
                                SEPTEMBER 30, 1995                (10/29/98)
99-A-47 IUCKAPOO                ( 1 O/29/98)
NATION SCHOOL, FISCAL                                             99-A-66 HOH INDIAN
YEAR ENDED JUNE 30, 1995        99-A-59 BATTLE                    TRIBE, FISCAL YEAR
(10/23/98)                      MOUNTAIN BAND                     ENDED SEPTEMBER 30,1996
                                COUNCIL, TE-MOAK                  (10129198) **$3,324
99-A-48 ABSENTEE                TRIBES OF WESTERN
SHAWNEE TRIBE OF                SHOSHONE INDIANS,                99-A-67 COUNCIL OF
OKLAHOMA, FISCAL YEAR           FISCAL YEAR ENDED                ENERGY RESOURCE
ENDED DECEMBER 3 1. 1997        SEPTEMBER 30, 1996               TRIBES, INC., AND
(10123198)                      (10/29/98) **$6,600              SUBSIDIARY, FISCAL YEAR
                                                                 ENDED SEPTEMBER 30, 1997
99-A-49 TRENTON INDIAN          99-A-60 PORT GRAHAM              (10/29/98)
SERVICE AREA,                   VILLAGE COUNCIL,
FISCAL YEAR ENDED               FISCAL YEAR ENDED                99-A-68 AGDAAGUX
SEPTE_MBER 30, 1996             DECEMBER 3 1, 1996               TRIBAL COUNCIL,
(10123198)                      (10129198)                       FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1995
99-A-50 WICHITA AND             99-A-61 PLEASANT POINT           (10/29/98)
AFFILIATED TRIBES,              SCHOOL, MAINE INDIAN
FISCAL YEAR ENDED               EDUCATION, FISCAL YEAR           99-A-69 UNITED TRIBES
SEPTEMBER 30, 1996              ENDED JUNE 30, 1996              TECHNICAL COLLEGE,
(10123198)                      (10129198)                       FISCAL YEAR ENDED
                                                                 JUNE 30, 1996 (10/29/98)
99-A-55 PYRAMID LAKE            99-A-62 INDUN ISLAND
PAIUTE TRIBE,                   SCHOOL, MAINE INDIAN             99-A-85 MESA GRANDE
FISCAL YEAR ENDED               EDUCATION, FISCAL YEAR           BAND OF MISSION
DECEMBER 31, 1994               ENDED JUNE 30, 1996              INDIANS, FISCAL YEAR
(10129198) **$15,557            lOl29198)                        ENDED DECEMBER 3 1, 1995
                                                                 (1 l/6/98)




36          Semiannual Report to the Congress: October 1, 1998 - March 31, 1999
99-A-86 NATIVE VILLAGE             99-A-101 QUECHAN                  99-A-l 14 PUEBLO OF
OF BARROW, FISCAL YEAR             INDIAN TRIBE,                     NAMBE, FISCAL YEAR
ENDED DECEMBER 3 I,1996            FISCAL YEAR ENDED                 ENDED SEPTEMBER 30.1996
(1116198)                          DECEMBER 3 1, 1996                (1112199)
                                   (1 l/13:98)
99-A-87 tiPPER SKAGIT                                                99-A-l 15 WHITE
TNDIAN TRIBE, FISCAL               99-A-106 MESCALERO                MOUNTAM APACHE TRIBE,
YEAR ENDED                         APACHE TRIBE, FISCAL              FISCAL YEAR ENDED
DECEMBER 3 1, 1993 (11/6/‘98)      YEAR ENDED                        APRIL 30, 1996
                                   SEPTEMBER 30, 1996                (1 l/20/98)
99-A-88 OTOE-MISSOURIA             (l/12/99) **$23,649
TRIBE OF INDIANS, FISCAL                                             99-A-l 16 TURTLE
YEAR ENDED                         99-A-107 OSAGE NATION,            MOUNTAIN BAND OF
DECEMBER 31, 1996 (1 l/6/98)       FISCAL YEAR ENDED                 CHIPPEWA rNDIANS,
+*%2,700                           SEPTEMBER 30,1996                 FISCAL YEAR ENDED
                                   (l/12/99) **$I,473                SEPTEMBER 30, 1994
99-A-89 CADDO INDIAN                                                 (11120198) **$38,833
TRIBE OF OKLAHOMA,                 99-A-108 PUEBLO OF
FISCAL YEAR ENDED                  POJOAQUE, FISCAL YEAR             99-A-l 17 PRAIRIE ISLAND
SEPTEMBER 30, 1996                 ENDED SEPTEMBER 30,1995           INDIAN COMMUNITY,
(1116198)                          (li12/99)                         FISCAL YEAR ENDED
                                                                     SEPTEMBER 30. 1994
99-A-90 MIAMI TRIBE OF             99-A-109 JICARILLA                (11120198)
OKLAHOMA, FISCAL YEAR              APACHE TRIBE, FISCAL
ENDED SEPTEMBER 30, 1995           YEAR ENDED JUNE 30, 1994          99-A-l 18 PRAIRIE ISLAND
(1 l/6/98)                         (1 l/20/98)                       INDIAN COMMUNITY,
                                                                     FISCAL YEAR ENDED
99-A-91 MIAMI TRIBE OF             99-A-l 10 JICARILLA               SEPTEMBER 30, 1995
OKLAHOMA, FISCAL YEAR              APACHE TRIBE, FISCAL              (11120198)
ENDED SEPTEMBER 30, 1996           YEAR ENDED JUNE 30, 1995
(1 l/6/98)                         (l/12/99)                        99-A-130 LOWER SIOUX
                                                                    INDIAN COMMUNITY,
99-A-92 PUEBLO OF                  99-A-l 11 NAVAJO AREA            FISCAL YEAR ENDED
POJOAQUE, FISCAL YEAR              SCHOOL BOARD                     SEPTEMBER 30, 1996
ENDED SEPTEMBER 30, 1996           ASSOCIATION,                     (12/3/98)
(l/12/99) **$7,68 1                FISCAL YEAR ENDED
                                   SEPTEMBER 30. 1997               99-A-131 SANTEE SIOUX
99-A-99 ELY SHOSHONE               (1!12!‘99)                       TRIBE OF NEBRASKA,
TRIBE, FISCAL YEAR                                                  FISCAL YEAR ENDED
ENDED DECEMBER 3 1, 1996           99-A-l 12 PUEBLO DE SAN          SEPTEMBER 30, 1996
(11113i98)                         ILDEFONSO, FISCAL YEAR           (12/3,98)
                                   ENDED DECEMBER 3 1, 1994
99-A-100 LITTLE                    (l/12:99) **$50,879              99-A-132 UNITED SIOUX
TRAVERSE BAY BAND OF                                                TRIBES OF SOUTH DAKOTA
ODAWA INDIANS,                     99-A-l 13 PUEBLO OF              DEVELOPMENT
FISCAL YEAR ENDED                  NAMBE, FISCAL YEAR               CORPORATION,
DECEMBER 3 1, 1996                 EhDED SEPTEMBER 30,1995          FISCAL YEAR ENDED
(1103198)                          (11120198)                       SEPTEMBER 30, 1995
                                                                    (12/3/‘98)




              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999          37
99-A-134 PUEBLO OF               99-A-l 57 WOUNDED KNEE           99-A-183 UPPER SKAGIT
LAGUNA, FISCAL YEAR              DISTRICT SCHOOL,                 lNDIAN TRIBE,
ENDED FEBRUARY 29;1995           FISCAL YEAR ENDED                2 FISCAL YEARS ENDED
(l/12/99)                        JUNE 30, 1994 (12/17/98)         DECEMBER31, 1995 (l/11/99)

99-A-135 PUEBLO OF               99-A-l 58 WOUNDED KNEE           99-A-184 UPPER SKAGIT
LAGUNA, FISCAL YEAR              DISTRICT SCHOOL, FISCAL          INDIAN TRIBE,
ENDED FEBRUARY 29, 1996          YEAR EhJED JVNE 30, 1995         FISCAL YEAR ENDED
(l/12/99)                        (12/17!98)                       DECEMBER 3 1, 1996 ( 117i99)

99-A-136 TAOS PUEBLO             99-A-l 59 WOUNDED KNEE           99-A-185 INDIAN ISLAND
CENTRAL MANAGEMENT               DISTRICT SCHOOL, FISCAL          SCHOOL, MAINE INDIAN
SYSTEM, FISCAL YEAR              YEAR ENDED JUNE 30, 1996         EDUCATION, FISCAL YEAR
ENDED DECEMBER 3 1, 1996         (12/17/98)                       ENDED JUNE 30,1997
I1/12/99)                                                         ( l/7/99)
                                 99-A-l 60 SAC AND FOX
99-A-137 SKOKOMISH               NATION OF MISSOURI,              99-A-186 WA HE LUT
INDIAN TRIBE,                    FISCAL YEAR ENDED                INDIAN SCHOOL, FISCAL
FISCAL YEAR ENDED                SEPTEMBER 30, 1997               YEAR ENDED JUNE 30, 1997
SEPTEMBER 30, 1996               (l/12/99)                        (l/7/99) **$27,000
(l/12/99)
                                 99-A-l 61 PINON                  99-A-198 CROW CREEK
99-A-138 TYME MAIDU              COMMUNITY SCHOOL                 SIOUX TRIBE, FISCAL YEAR
TRIBE, BERRY CREEK               BOARD, INC., FISCAL YEAR         ENDED SEPTEMBER 30, 1996
RANCHER& FISCAL YEAR             ENDED JLJh’E 30, 1997            (l/19/99) **$14,448
ENDED DECEMBER 3 1, 1996         (li12199)
(1112199)                                                         99-A-199 UPPER SIOUX
                                 99-A-168 TONTO-APACHE            COMMUNITY, FISCAL YEAR
99-A-139 SPOKANE TRIBE           TRIBE, FISCAL YEAR               ENDED SEPTEMBER 30, 1995
OF INDIANS, FISCAL YEAR          ENDED DECEMBER 3 I,1994          (l/19/99)
ENDED SEPTEMBER 30, 1996         (12/23/98) **$32,714
(l/12/99)                                                         99-A-202 SUMMIT LAKE
                                 99-A-180 PENOBSCOT               PAIUTE TRIBE,
99-A-140 KA W NATION,            INDIAN NATION, FISCAL            FISCAL YEAR EhDED
FISCAL YEAR ENDED                YEAR ENDED                       DECEMBER 3 1, 1994
DECEMBER 3 1, 1996               SEPTEiMBER 30, 1997 (117199)     (l/21/99)
(li12i99)
                                 99-A-181 SENECA NATION           99-A-203 SUMMIT LAKE
99-A-155 COQUILLE                OF INDIANS, FISCAL YEAR          PAIUTE TRIBE,
INDIAN TRIBE,                    ENDED SEPTEMBER 30, 1997         FISCAL YEAR ENDED
FISCAL YEAR ENDED                (117i99)                         DECEMBER 31, 1995
DECEMBER 31, 1997 (1112199)                                       (l/21/99) **517,500
                                 99-A-182 NORTHERN
99-A-156 TUBA CITY HIGH          AMPAHOE TRIBE OF                 99-A-204 GREAT LAKES
SCHOOL BOARD, INC.,              INDIANS, FISCAL YEAR             INDIAN FISH AND
FISCAL YEAR ENDED                ENDED DECEMBER 3 1, 1995         WILDLIFE COMMISSION,
JUNE 30. 1997 (l/12/99)          ( l/7/99)                        FISCAL YEAR ENDED
                                                                  DECEMBER 3 1, 1997
                                                                  (1121199)




38           Semiannual Report to the Congress: October 1,1998 - March 31, 1999
99-A-205 PICURIS                  99-A-2 I4 RINCON SAN              99-A-266 DRY CREEK
PUEBLO, FISCAL YEAR               LUISENO BAND OF                   RANCHERIA, FISCAL YEAR
ENDED DECEMBER 3 l,- 1996         MISSION INDIANS,                  ENDED DECEMBER 3 1,1996
( 112 l/99)                       FISCAL YEAR ENDED                 (2/l 2/99)
                                  SEPTEMBER 30, 1996
99-A-206 MESA GRANDE              (l/21/99)                         99-A-267 MOORETOWN
BAND OF MISSION                                                     RANCHER& FISCAL YEAR
INDIANS, FISCAL YEAR              99-A-215 YERlNGTON                ENDED DECEMBER 3 1, 1997
ENDED DECEAMBER 3 1, 1996         PAIUTE TRIBE,                     (2/12/99)
(l/2 li99) **553,000              FISCAL YEAR ENDED
                                  DECEMBER 31, 1997 (1/21/‘99)      99-A-268 SKAGIT SYSTEM
99-A-207                                                            COOPERATIVE,
CHEYENNE-ARAPAHO                  99-A-232 CONFEDERATED             FISCAL YEAR ENDED
TRIBES OF OKLAHOMA,               SALISH AND KOOTENAI               DECEMBER 31, 1996 (2112199)
FISCAL YEAR ENDED                 TRIBES OF THE FLATHEAD
DECEMBER31, 1996                  RESERVATION,                      99-A-269 APACHE TRIBE
(1/‘21/99)                        FISCAL YEAR ENDED                 OF OKLAHOMA,
                                  SEPTEMBER 30, 1997                FISCAL YEAR ENDED
99-A-208 KlCKAPOO TRIBE           (l/28/99)                         DECEMBER 3 1, 1996 (2/l 2199)
OF KANSAS, FISCAL YEAR
ENDED DECEMBER 3 1. 1993          99-A-241 NORTHERN                 99-A-270 KIOWA TRIBE OF
(l/,21/99)                        PLAINS INTERTRIBAL                OKLAHOMA, FISCAL YEAR
                                  COURT OF APPEALS,                 ENDED DECEMBER 3 1, 1996
99-A-209 KlCKAPOO TRIBE           FISCAL YEAR ENDED                 (2112199)
OF KANSAS, FISCAL YEAR            SEPTEMBER 30, 1994
ENDED DECEMBER 3 1, 1994          (2/31’99)                        99-A-271 AFFILIATED
(l/21/99)                                                          TRIBES OF NORTHWEST
                                  99-A-242                         INDIANS, FISCAL YEAR
99-A-2 10 KICKAPOO TRIBE          SISSETON-WAHPETON                ENDED DECEMBER 3 1, 1992
OF KANSAS, FISCAL YEAR            SIOUX TRIBE, FISCAL YEAR         (2/l 2199)
ENDED DECEMBER 3 1, 1995          ENDED SEPTEMBER 30, 1997
(li21i99)                         (215199)                         99-A-272 AFFILIATED
                                                                   TRIBES OF NORTHWEST
99-A-2 11 KICKAPOO TRIBE          99-A-246 NORTHERN                INDIANS, FISCAL YEAR
OF KANSAS, FISCAL YEAR            ARAPAHOE TRIBE OF                ENDED DECEMBER 3 1,1993
ENDED DECEMBER 3 1, 1996          INDIANS, FISCAL YEAR             (2/12/99)
(l/21/99)                         ENDED DECEMBER 3 1. 1994
                                  (214199)                         99-A-273 AFFILIATED
99-A-212 RINCON SAN                                                TRIBES OF NORTHWEST
LUISENO BAND OF                   99-A-258 MOAPA BAND OF           INDIANS, FISCAL YEAR
MISSION INDIANS,                  PAIUTES, FISCAL YEAR             ENDED DECEMBER 3 1. 1994
FISCAL YEAR ENDED                 ENDED DECEMBER 3 1, 1997         (2112199)
SEPTEMBER 30, 1994                (2/12/99)
(1/21;99)                                                          99-A-274 AFFILIATED
                                  99-A-265 SAN PASQUAL             TRIBES OF NORTHWEST
99-A-213 RINCON SAN               AND OF MISSION INDIANS,          INDIANS, FISCAL YEAR
LUISENO BAND OF                   FISCAL YEAR ENDED                ENDED DECEMBER 3 1, 1995
MISSION INDIANS,                  DECEMBER 31, 1996                (2112199)
FISCAL YEAR ENDED                 (2112/99)
SEPTEMBER 30, 1995
(1/21.‘99)


            Semiannual   Report to the Congress: October 1,1998 - March 3 1, 1999             39
99-A-275 AFFILIATED              99-A-299 CONFEDERATED            99-A-316 OMAHA TRIBE
TRIBES OF NORTHWEST              TRIBES OF THE COLVILLE           OF NEBRASKA,
INDIANS, FISCAL YEAR             RESERVATION, FISCAL              FISCAL YEAR ENDED
ENDED DECEMBER 3 I,1996          YEAR ENDED                       SEPTEMBER 30, 1995
(2112i99)                        SEPTEMBER 30, 1996               (Z/26/99) **$13,647
                                 (2.19199)
99-A-276 ISLETA PUEBLO.                                           99-A-318 SALISH
FISCAL YEAR ENDED                99-A-300 NEZ PERCE               KOOTENAI COLLEGE, INC..
DECEMBER 31.1995                 TRIBE, FISCAL YEAR               FISCAL YEAR ENDED
(2i12i99)                        ENDED SEPTE.MBER 30, 1996        L’NE 30, 1993 (2/26/99)
                                 (2:19199)
99-A-277 ISLETA PUEBLO,                                           99-A-319 SALISH
FISCAL YEAR ENDED                99-A-301 PAUMA BAND OF           KOOTENAI COLLEGE, l-NC.,
DECEMBER 3 1, 1996               MISSION INDIANS, FISCAL          FISCAL YEAR ENDED
(2/l 2/99)                       YEAR ENDED                       JUNE 30, 1994 (2/26/99)
                                 DECEMBER 31, 1996 (2/19/99)
99-A-283 ALL INDIAN                                               99-A-320 SALISH
PUEBLO COUNCIL, MC.,             99-A-302 SAN JUAN                KOOTENAI COLLEGE, INC.,
FISCAL YEAR ENDED                PUEBLO BOARD OF                  FISCAL YEAR ENDED
JUNE 30, 1997 (2/19/99)          EDUCATION, FISCAL YEAR           JUNE 30. 1995 (2/26/99)
**$47,543                        ENDED JUNE 30, 1997
                                 (2/19/99)                        99-A-321 SALISH
99-A-284 TABLE                                                    KOOTENAI COLLEGE, INC.,
MOUNTAIN RANCHERIA               99-A-303 SKY PEOPLE              FISCAL YEAR ENDED
BAND OF INDIANS,                 HIGHER EDUCATION,                JUNE 30, 1996 (2i26199)
FISCAL YEAR ENDED                FISCAL YEAR ENDED
DECEMBER 3 1, 1996               SEPTEMBER 30, 1997               99-A-322 JICARILLA
(2/19/99)                        (2/19/99)                        APACHE TRIBE,
                                                                  FISCAL YEAR ENDED
99-A-285 BEAR RIVER              99-A-304 SUQUAMISH               DECEMBER 31, 1997
BAND OF THE                      TRIBE, FISCAL YEAR               (2/26/99)
ROHNERVILLE                      ENDED DECEMBER 3 1, 1997
RANCHER& FISCAL YEAR             (Zi19199)                        99-A-323 TUOLUMNE
ENDED SEPTEMBER 30, 1993                                          BAND OF ME-WUK
(3/l l/99)                       99-A-305 ZUNI PUEBLO,            TNDIANS, FISCAL YEAR
                                 FISCAL YEAR ENDED                ENDED SEPTEMBER 30, 1992
99-A-286 ROSEBUD SIOUX           DECEMBER 31,1997                 (2126199)
TRIBE, FISCAL YEAR               (2119199)
ENDED SEPTZMBER 30,1995                                           99-A-324 TUOLUMNE
(2f 18199) **5 1,675             99-A-314 SPIRIT LAKE             BAND OF ME-WUK
                                 TRIBE, FISCAL YEAR               TNiIANS, FISCAL YEAR
99-A-287 ROSEBUD SIOUX           ENDED SEPTEMBER 30, 1997         ENDED SEPTEMBER 30, 1993
TRIBE, FISCAL YEAR               (2’26199)                        (2:26/99)
ENDED SEPTEMBER 30, 1996
(2:18/99)                        99-A-315                         99-A-325 TUOLUMNE
                                 YAVAPAI-PRESCOTT                 BAND OF ME-WUK
99-A-292 COLUSA COUNTY           INDIAN TRIBE,                    INDIANS, FISCAL YEAR
OFFICE OF EDUCATION,             FISCAL YEAR ENDED                ENDED SEPTEMBER 30, 1994
FISCAL YEAR ENDED                DECEMBER 3 1, 1997               (21261’99)
JUNE 30, 1997 (2:18/‘99)         (2.‘26/99)



40           Semiannual Report to the Congress: October 1, 1998 - March 31,1999
99-A-326 TUOLUMNE                99-A-391 CONFEDERATED             INSULAR AREAS
BAND OF ME-WUK                   TRIBES OF THE GOSHUTE
INDIANS, FISCAL YEAR-            RESERVATION,
ENDED SEPTEMBER 30,199s          FISCAL YEAR ENDED                 Commonwealth of the
(2126199)                        SEPTEMBER 30,1996                 Northern Mariana
                                 (3i26199)                         Islands
99-A-327 TUOLCMNE
BAND OF ME-WUK                   99-A-392 CHIPPEWA CREE            99-A-355 CNMI PUBLIC
INDIANS, FISCAL YEAR             TRIBE, FISCAL YEAR                SCHOOL SYSTEM,
ENDED SEPTEMBER 30, 1996         ENDED SEPTEMBER 30, 1997          FISCAL YEAR ENDED
(2126199)                        (3!26/99)                         SEPTEMBER 30, 1995
                                                                   (3112199)
99-A-337 EASTERN BAND            BUREAU OF LAND
OF CHEROKEE INDIANS,             MANAGEMENT                        99-A-396
FISCAL YEAR ENDED                                                  COMMONWEALTH OF THE
SEPTEMBER 30,1997                99-A-293 WALLA WALLA              NORTHERN MARIANA
(314199)                         COUNTY, WASHINGTON,               ISLANDS, FISCAL YEAR
                                 FISCAL YEAR ENDED                 ENDED SEPTEMBER 30, 1997
99-A-338 SAULT STE.              DECEMBER 31, 1996                 (3/29/99) **$596,151
MARIE TRIBE OF                   (2118199)
CHIPPEWA TNDIANS,                                                  Federated States of
FISCAL YEAR ENDED                99-A-294 JEFFERSON
DECEMBER 3 1, 1997
                                                                   Micronesia
                                 COUNTY, WASHINGTON,
(3!4i99)                         FISCAL YEAR ENDED                 99-A-98 COLLEGE OF
                                 DECEMBER 3 1, 1996                MICRONESIA LAND GRANT
99-A-339 SALT RIVER              (2/18/99)                         PROGRAMS, FISCAL YEAR
PIMA-MARICOPA INDIAN
                                                                   ENDED SEPTEMBER 30,1997
COMMUNITY, FISCAL YEAR           99-A-296 FERRY COUNTY,            (11/16/98)
ENDED SEPTEMBER 30, 1997         WASHINGTON,
(314199)                         FISCAL YEAR ENDED                 99-A-189 FEDERATED
                                 DECEMBER 3 1, 1996 (2/l 8/‘99)    STATES OF MICRONESIA
99-A-352 BEAR RIVER
                                                                   NATIONAL GOVERNMENT.
BAND OF THE
                                 BUREAU OF                         FISCAL YEAR ENDED
ROHNERVILLE
                                 RECLAMATION                       SEPTEMBER 30, 1997
RANCHERIA, FISCAL YEAR
                                                                   (l/12/99)
ENDED SEPTEMBER 30, 1994
(3/l l/99)                       99-A-167 PADRE DAM,
                                 FISCAL YEAR ENDED                 99-A-195 COLLEGE OF
                                 JUNE 30, 1997 ( 12123198)         MICRONESIA, FEDERATED
99-A-389 SAINT REGIS
                                                                   STATES OF MICRONESLA,
MOHAWK TRIBE, FISCAL
                                 99-A-259 NEW MEXICO               FISCAL YEAR ENDED
YEAR ENDED
                                 HAMMOND CONSERVANCY               SEPTEMBER 30, 1997
DECEMBER 31, 1997 (3126i99)
                                 DISTRICT, FISCAL YEAR             (l/15/99)
99-A-390 NARRAGANSETT            ENDED DECEMBER 3 1. 1997
INDIAN TRIBE,                    (2!12/99)                         Guam
FISCAL YEAR ENDED
DECEMBER 31, 1994 (3126i99)      99-A-291 GRANT COUNTY,            99-A-144 GOVERNMENT
                                 WASHINGTON,                       OF GUAM, FISCAL YEAR
                                 FISCAL YEAR ENDED                 ENDED SEPTEMBER 30. 1997
                                 DECEMBER 3 1, 1996                (12/8/98)
                                 (2118199)


             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999         41
99-A-163 GUAM                     99-A-333 PALAU                    NATIONAL PARK
HUMANITIES COUNCIL, _             COMMUNITY ACTION                  SERVICE
FISCAL YEAR ENDED                 AGENCY, FISCAL YEAR
OCTOBER 31, 1994 (12/18/98)       ENDED SEPTEMBER 30, 1996          99-A-289 GRAYS HARBOR
                                  (3/1,99) **$2,310                 COUNTY, WASHINGTON,
99-A-164 GUAM                                                       FISCAL YEAR ENDED
HUMANITIES COUNCIL,               U. S. Virgin Islands              DECEMBER 31, 1996
FISCAL YEAR ENDED                                                   (2/18/99)
OCTOBER 31, 1995 (12/l&98)        99-A-54 VIRGIN ISLANDS
                                  HOUSING AUTHORITY,                99-A-290 STEUBEN
99-A-235 GUAM MASS                3 FISCAL YEARS ENDED              COUNTY, INDIANA,
TRANSIT AUTHORITY,                SEPTEMBER 30, 1993                FISCAL YEAR ENDED
FISCAL YEAR ENDED                 (10/28/98)                        DECEMBER 31, 1996 (2/18/99)
SEPTEMBER 30, 1997
(1129199)                          99-A-220 UNIVERSITY OF           U.S. FISH AND
                                   THE VIRGIN ISLANDS,
99-A-343 GUAM HOUSlNG
                                                                    WILDLIFE SERVICE
                                   FISCAL YEAR ENDED
AND URBAN RENEWAL                  SEPTEMBER 30, 1996
                                                                    99-A-295 CONSERVATION
AUTHORITY, FISCAL YEAR             (l/21/99)
ENDED SEPTEMBER 30, 1997                                            FUND, A NONPROFIT
                                                                    CORPORATION,
(318199)                           99-A-221 UNIVERSITY OF
                                                                    FISCAL YEAR ENDED
                                   THE VIRGLN ISLANDS,
99-A-371 GUA,M
                                                                    DECEMBER 31, 1997 (2/18/99)
                                   FISCAL YEAR EXDED
HUhfANITIES COUNCIL,               SEPTEMBER 30, 1995
                                                                    99-A-297 DISTR.ICT OF
FISCAL YEAR ENDED                  (l/21/99)
OCTOBER 31, 1997 (3123199)                                          COLUMBIA DEPARTMENT
                                                                    OF CONSUMER AND
                                   99-A-222 UNIVERSITY OF
                                                                    REGULATORY AFFAIRS,
Republic of the Marshall           THE VIRGIN ISLANDS,
                                                                    FISCAL YEAR ENDED
Islands                            FISCAL YEAR ENDED
                                                                    SEPTEMBER 30, 1996
                                   SEPTEMBER 30. 1994
                                                                    (t/18:99)
                                   (l/21/99)
99-A-O REPUBLIC OF
THE MARSHALL ISLANDS,                                               99-A-298 THUXSTON
                                  99-A-223 UNIVERSITY OF
FISCAL YEAR ENDED                                                   COUNTY, WASHINGTON,
                                  THE VIRGIN ISLANDS,
SEPTEMBER 30, 1997                                                  FISCAL YEAR ENDED
                                  FISCAL YEAR ENDED
(10/l/98) **$20,854,750                                             DECEMBER 31.1996
                                  SEPTEMBER 30, 1993
                                                                    (2/l 8/99)
                                  (l/21/99)
Republic of Palau
                                  99-A-224 UNIVERSITY OF            U.S. GEOLOGICAL
99-A-37 REPUBLIC OF               THE VIRGIN ISLANDS,               SURVEY
PALAU, FISCAL YEAR                FISCAL YEAR ENDED
ENDED SEPTEMBER 30, 1997          SEPTEMBER 30, 1992                99-A-288 PIMA
(10/20/98) **$1,029,762           (1/21!99)                         ASSOCIATION OF
                                                                    GOVERNMENTS. FISCAL
 99-A-151 PALAU                                                     YEAR ENDED JUNE 30, 1997
NATIONAL                                                            (2118199)
COMMUNICATIONS
CORF’ORATION,
FISCAL YEAR ENDED
DECEMBER 3 1, 1997
(lZil1198)

42            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
NON-DEPARTMENT                   99-P-21 STONE CHILD               99-P-3 1 LAC DU
OF THE INTERIOR-                 COLLEGE, FISCAL YEAR              FLAMBEAU BAND OF LAKE
                                 ENDED SEPTEMBER 30.1997           SUPERIOR CHIPPEWA
99-A-79 PUERTO RICO              (10/13!98)                        INDIANS, FISCAL YEAR
OFFICE OF YOUTH                                                    ENDED SEPTEMBER 30, 1977
AFFAIRS, FISCAL YEAR             99-P-22 STONE CHILD               (10119198)
ENDED JLNE 30, 1997              COLLEGE, FISCAL YEAR
(1 li5i98)                       ENDED SEPTEMBER 30. 1998          99-P-32 LAC DU
                                 (lOi13i98)                        FLAMBEAU BAND OF LAKE
                                                                   SUPERJOR CHIPPEWA
INDIRECT COST                                                      INDIANS, FISCAL YEAR
                                 99-P-23 LAS VEGAS
PROPOSALS                        PAJUTE TRIBE,                     ENDED SEPTEMBER 30, 1998
                                 FISCAL YEAR ENDED                 (1 O/20/98)
BUREAU OF INDIAN                 DECEMBER 3 1,199s
                                 (lOi15198) *$52,404               99-P-j3 MINNESOTA
AFFAIRS                                                            CHIPPEWA TRIBE,
                                                                   FISCAL YEAR ENDED
                                 99-P-24 NORTH FORK
99-P-8 SMITH RIVER                                                 SEPTEMBER 30,1998
                                 MONO RANCHER&
RANCHER& FISCAL YEAR                                               ( 1 O/l 9198)
                                 FISCAL YEAR ENDED
ENDED DECEMBER 3 1, 1998
                                 DECEMBER 3 1, 1997
(1011198) *$3,174                                                  99-P-34 PENOBSCOT
                                 (10/15!98) *$42,122
                                                                   INDIAN NATION,
9 9 - P - 9 QUTNAULT                                               FISCAL YEAR ENDED
                                 99-P-25 NORTH FORK                SEPTEMBER 30,1998
INDIAN NATION,
                                 MONO RANCHER&                     (10119/98)
FISCAL YEAR ENDED
                                 FISCAL YEAR ENDED
SEPTEMBER 30, 1998
                                 DECEMBER 3 1, 1998               99-P-35 OWENS VALLEY
(10/l/98)
                                 (10115198) *$12,062              TNDIAN WATER
                                                                  COMMISSION, FISCAL
99-P-10 PUEBLO OF
                                 99-P-27 SQUAXIN ISLAND           YEAR ENDED JUNE 30. 1998
POJOAQUE, FISCAL YEAR
                                 TRIBE, FISCAL YEAR               (10/19/98)
ENDED SEPTEMBER 30, 1998
                                 ENDED SEPTEMBER 30, 1997
(10/8/98)
                                 (10/15/98)                       99-P-36 OWENS VALLEY
                                                                  INDIAN WATER
99-P-l 1 ENTERPRISE                                               COMMISSION, FISCAL
                                99-P-28 SQUAXM ISLAND
RANCHERIA OF MAIDU                                                YEAR ENDED JUNE 30, 1999
                                TRIBE, FISCAL YEAR
INDIANS OF CALIFORNIA,                                            (10119198)
                                ENDED SEPTEMBER 30, 1998
FISCAL YEAR ENDED
                                (10/15198) *$6,550
DECEMBER 3 1, 1998                                                99-P-43 RINCON BAND
( 1 O/8/98)                                                       OF MISSION INDIANS,
                                99-P-29 MANZANITA
                                BAND OF MISSION                   FISCAL YEAR ENDED
99-P-19 STONE CHILD                                               SEPTEMBER 30, 1998
COLLEGE, FISCAL YEAR            INDIANS, FISCAL YEAR
                                ENDED DECEMBER 3 1.1996           (10/22198)
ENDED SEPTEMBER 30,1995
(10/13/98) *$15,836             (lOi19198)
                                                                  99-P-51 FALLON
                                99-P-30 MANZANITA                 PAIUTE-SHOSHONE TRIBE,
99-P-20 STONE CHILD                                               FISCAL YEAR ENDED
                                BAND OF MISSION
COLLEGE, FISCAL YEAR                                              DECEMBER 3 1,1996
                                JNDIANS, FISCAL YEAR
ENDED SEPTEMBER 30,1996                                           (10/27/98)
                                ENDED DECEMBER 3 1.1998
(10113198) *$15,836
                                (10119198)


            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999        43
9 9 - P - 5 2 FALLON                99-P-83 ASSOCIATION OF            99-P-l 2 1 NOOKSACK
PAIUTE-SHOSHONE TRIBE,              VILLAGE COUNCIL                   INDIAN TRIBE,
FISCAL YEAR ENDED .                 PRESIDENTS, FISCAL YEAR           FISCAL YEAR ENDED
DECEMBER 31. 1997                   ENDED DECEMBER 3 1, 1996          DECEMBER 3 1, 1998
(10/27./98)                         (1 l/S/98)                        (1 l/20/98) *553,228

99-P-53 CAT.AWBA INDIAN             99-P-94 AROOSTOOK                 99-P-l 22 TLRTLE
NATION, FISC.L\L YEAR               BAND OF MICMACS,                  IMOUNTAIN BAND OF
ENDED DECEMBER 3 1, 1998            FISCAL YEAR ENDED                 CHIPPEWA INDIANS.
(10127198)                          DECEMBER 3 1, 1997                FISCAL YEAR ENDED
                                    (1 l/10/98)                       SEPTEMBER 30, 1998
99-P-71 YOMBA                                                         (1 l/23/98) ‘$124,077
SHOSHONE TRIBE,                     99-P-96 SPIRIT LAKE
FISCAL YEAR ENDED                   SIOUX TRIBE, FISCAL YEAR          99-P-125 CHEYENNE RIVER
DECEMBER 31, 1997                   ENDED SEPTEMBER 30, 1998          SIOUX TRIBE, FISCAL YEAR
(10/29/98) *$14,486                 (1 l/12/98)                       ENDED SEPTEMBER 30, 1997
                                                                      (1 l/30/98) *$135,765
99-P-72 YOMBA                       99-P-l 03 CITIZEN
SHOSHONE TRIBE,                     POTAWATOMI NATION,                99-P-128 KAIBAB BAND
FISCAL YEAR ENDED                   FISCAL YEAR ENDED                 OF PAIUTE INDIANS.
DECEMBER 3 1, 1998                  SEPTEMBER 30, 1997                FISCAL YEAR ENDED
10/29198) +$14,486                  (1 l/16/,98) *$32,507             DECEMBER 31, 1998 (12/1i98)
                                                                      *$823
99-P-73 ROSEBUD SIOUX               99-P-104 LEECH LAKE
TRIBE, FISCAL YEAR                  RESERVATION,                      99-P-l 29 WHITE EARTH
EhDED SEPTEMBER 30, 1997            FISCAL YEAR ENDED                 RESERVATION,
(10/30198) *$152,949                SEPTEMBER 30, 1998                FISCAL YEAR ENDED
                                    (11117198)                        SEPTEMBER 30, 1998
99-P-74 ROSEBUD SIOUX                                                 ( 1212198)
TRIBE, FISCAL YEAR                  99-P-105
ENDED SEPTEMBER 30,1998             STOCKBRIDGE-MUNSEE               99-P-149 TULALlP
( 1 O/30/98) *$140,905              TRIBE, FISCAL YEAR               TRIBES OF WASHINGTON,
                                    ENDED SEPTEMBER 30, 1999         FISCAL YEAR ENDED
99-P-77 LOWER BRULE                 (11/18/98)                       DECEMBER 31, 1997
SIOUX TRIBE, FISCAL YEAR                                             ( I2/8/98) *$169,92 1
ENDED SEPTEMBER 30, 1997            99-P-l 19 SALT RIVER
(1 l/4/98) *$14,457                 PIMA-MARICOPA INDIAN             99-P-l 50 TRENTON
                                    COMMUNITY, FISCAL YEAR           INDIAN SERVICE AREA,
99-P-81 ASSOCIATION OF              ENDED SEPTEMBER 30, 1998         FISCAL YEAR ENDED
VILLAGE COLNCIL                     (1 l/20/98)                      SEPTEMBER 30, 1997
PRESIDENTS, FISCAL YEAR                                              (12110198) ‘556,672
ENDED DECEMBER 3 1, 1998            99-P-120 NOOKSACK
( 1 l/5/98)                         INDIAN TRIBE, FISCAL             99-P-152 COQUILLE
                                    YEAR ENDED                       INDIAN TRIBE,
99-P-82 PARJTE INDIAN               DECEMBER 31, 1997                FISCAL YEAR ENDED
TRIBE OF UTAH, FISCAL               (11120198) *$53,228              DECEMBER 3 1, 199s
YEAR ENDED                                                           (12/‘14/98)
DECEMBER 3 1. 1998 (1115198)




44             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
99-P-176 PRAIRIE ISLAND            99-P-225 CENTRAL                  99-P-250 AUGUSTINE
INDIAN COMMUNITY,                  COUNCIL OF THE                    BAND OF CAHUILLA
FISCAL YEAR ENDED -                TLMGIT-HAIDA                      MISSION INDIANS,
SEPTEMBER 30, 1998 (l/6/99)        INDIANS OF ALASKA.                FISCAL YEAR ENDED
*%12,735                           FISCAL YEPIR ENDED                DECEMBER 3 I,1999
                                   DECEMBER 3 1, I 996 ( I ,22/99j   (2i9199)
99-P-177 SAGINAW
CHIPPEWA INDIAN                    99-P-228 SOUTHERN                 99-P-256 LONE PI?iE
TRIBE OF MICHIGAN,                 UTE INDIAN TRIBE.                 PAIUTE-SHOSHONE
FISCAL YEAR ENDED                  FISCAL YEAR ENDED                 RESERVATION,
SEPTEMBER 30, 1998 (116199)        SEPTEMBER 30,1998                 FISCAL YEAR ENDED
                                   (l/25/99) *$5,362                 DECEMBER 31, 1998
99-P-178 1854 AUTHORITY,                                             (2/10/99)
FISCAL YEAR ENDED                  99-P-237 CORTINA INDIAN
DECEMBER 3 1, 1999                 RANCHERIA OF WINTUN               99-P-257 LONE PINE
(l/6/99) *$25,500                  INDIANS, FISCAL YEAR              PAIUTE-SHOSHONE
                                   ENDED DECEMBER 3 I,1998           RESERVATION,
99-P-179 SENECA NATION             (2/4/99)                          FISCAL YEAR ENDED
OF INDIANS, FISCAL YEAR                                              DECEMBER 3 1, 1999
ENDED SEPTEMBER 30, 1997          99-P-238 CORTINA INDIAN            (2110199)
( l/6/99)                         RANCHERIA OF WINTUZ’J
                                  LNDIANS, FISCAL YEAR               99-P-262 NORTHWEST
99-P-188 SOKAOGON                 ENDED DECEMBER 3 1, 1999           LNTERTRIBAL COURT
CHIPPE WA COMMUNITY,              (214199)                           SYSTEM, FISCAL YEAR
FISCAL YEAR ENDED                                                    ENDED SEPTEMBER 30, 1997
SEPTEMBER 30, 1997                99-P-239 KASHIA BAND               (211 l/99)
(1111199) *$128,198               OF POMO INDIANS,
                                  FISCAL YEAR ENDED                  99-P-263 NORTHWEST
99-P-2 16 CENTRAL                 DECEMBER 3 1, 1999 (2!4/99)        INTERTRIBAL COURT
COUNCIL OF THE                    *$10,000                           SYSTEM, FISCAL YEAR
TLNGIT-HAIDA                                                         ENDED SEPTEMBER 30. 1998
INDIANS OF ALASKA,                99-P-243 YAKUTAT                   (2/l 1199)
FISCAL YEAR ENDED                 TLINGIT TRIBE,
DECEMBER 3 1, 1995 (1122199)      FISCAL YEAR ENDED                  99-P-264 NORTHWEST
                                  DECEMBER 3 1, 1998 (214199)        TNTERTRIBAL COURT
99-P-21 7 CENTRAL                 *$13,384                           SYSTEM, FISCAL YEAR
COUNCIL OF THE                                                       ENDED SEPTEMBER 30. 1999
TLINGIT-HAIDA                     99-P-244 YAKUTAT                   (2!11/99)
INDIANS OF ALASKA,                TLINGIT TRIBE,
FISCAL YEAR ENDED                 FISCAL YEAR ENDED                  99-P-278 IUALEGEE
DECEMBER 3 1, 1997 ( 1122199)     DECEMBER 3 1, 1999 (2.4199)        TRIBAL TOWN,
                                  *$6,685                            FISCAL YEAR ENDED
99-P-218 CENTRAL                                                     SEPTEMBER 30, 1998
COUNCIL OF THE                    99-P-248 MINNESOTA                 (2/16i99)
TLINGIT-HAIDA                     CHIPPEWA TRIBE,
IhDIANS OF ALASKA,                FISCAL YEAR ENDED                  99-P-279 IUALEGEE
FISCAL YEAR ENDED                 SEPTEMBER 30, 1999 (2/5/99)        TRIBAL TOWN,
DECEMBER 3 1, 1998 ( l/22/99)                                        FISCAL YEAR ENDED
                                                                     SEPTEMBER 30, 1999
                                                                     (2/16/99) *$8,146



              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999         45
99-P-280 YANKTON SIOUX            99-P-329 ENTERPRISE               99-P-342 BAY MILLS
TRIBE, FISCAL YEAR                RANCHER& FISCAL YEAR              COMMUNITY COLLEGE,
ENDED DECEMBER 3 1; 1996          ENDED DECEMBER 3 1, 1999          FISCAL YEAR ENDED
(2122199)                         (3/l/99)                          JUNE 30, 1999 (315199)
                                                                    *$1,200
99-P-281 YANKTON SIOUX            99-P-330 CHITIMACHA
TRIBE. FISCAL YEAR                TRIBE OF LOUISWNA,                99-P-346 ROBINSON
ENDED DECEMBER 31, 1997           FISCAL YEAR ENDED                 RANCHERIA CITIZENS
(2/22!99) *$57,947                DECEMBER 3 1, 1999                BUSINESS COUNCIL,
                                  (2!26/99)                         FISCAL YEAR ENDED
99-P-282 YANKTON SIOUX                                              DECEMBER 31, 1998 (3/g/99)
TRIBE, FISCAL YEAR                99-P-331 KOOTENAI TRIBE
ENDED DECEMBER 3 1, 1998          OF IDAHO, FISCAL YEAR             99-P-347 ROBINSON
(2/22!99) *$57,947                ENDED SEPTEMBER 30, 1998          RANCHERIA CITIZENS
                                  (3/l/99) *$1,526                  BUSINESS COUNCIL,
99-P-307 BIG VALLEY                                                 FISCAL YEAR ,ENDED
RANCHERIA, FISCAL YEAR            99-P-332 KOOTENAI TRIBE           DECEMBER 3 1, 1999 (3/‘9/‘99)
ENDED DECEMBER 3 1,1998           OF IDAHO, FISCAL YEAR
(2122!99)                         ENDED SEPTEMBER 30, 1999         99-P-348 DRY CREEK
                                  (3/l/99)                         RANCHER& FISCAL YEAR
99-P-3 10 ANGOON NATIVE                                            ENDED DECEMBER 3 1, 1998
ASSOCIATION OF THE                99-P-334 GRAND PORTAGE           (319199)
CENTRAL COUNCIL OF                RESERVATION,
TLINGIT-HAIDA,                    FISCAL YEAR ENDED                99-P-349 DRY CREEK
FISCAL YEAR ENDED                 DECEMBER 3 1, 1999 (3/2/99)      RANCHERIA OF POMO
DECEMBER 31, 1998 (2/23/99)       *$14,665                         INDIANS OF CALIFORNIA,
                                                                   FISCAL YEAR ENDED
99-P-31 1 ANGOON                 99-P-335 CADDO TRIBE OF           DECEMBER 3 1, 1999
COMMUNITY                        OKLAHOMA, FISCAL YEAR             (319199)
ASSOCIATION,                     ENDED SEPTEMBER 30, 1997
FISCAL YEAR ENDED                (312199)                           99-P-353 FORT
DECEMBER 3 1, 1999                                                 TNDEPENDENCE lNDL4N
(2123199)                        99-P-336 REDDlNG                  RESERVATION,
                                 RANCHER& FISCAL YEAR              FISCAL YEAR ENDED
99-P-31 2 RAMONA BAND            ENDED DECEMBER 3 1, 1998          DECEMBER 31, 1998 (3i15199)
OF CAHUILLA MISSION              (3/2/99) *$70,000
INDIANS FISCAL YEAR                                                99-P-354 FORT
ENDED DECEMBER 3 1, 1999          99-P-340 PEORIA TRIBE            INDEPENDENCE INDIAN
(2123199)                        OF INDIANS OF                     RESERVATION,
                                 OKLAHOMA, FISCAL YEAR             FISCAL YEAR ENDED
 99-P-313 CABAZON BAND           ENDED MARCH 3 1, 1999             DECEMBER 31, 1999 (3/15/99)
OF MISSION INDIANS,              (3l3i99)
FISCAL YEAR ENDED                                                  99-P-357 INTER-TRIBAL
JUNE 30, 1998 (2123199)          99-P-341 PEORIA TRIBE             COUNCIL OF MICHIGAN.
                                 OF INDIANS OF                     INC., FISCAL YEAR ENDED
99-P-328 SAINT REGIS             OKLAHOMA,                         SEPTEMBER 30, 1999
MOHAWK TRIBE,                    FISCAL YEAR ENDED                 (3:12/99)
FISCAL YEAR ENDED                MARCH 30,200O (313199)
DECEMBER 3 1, 1999
(2126199)



46           Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
99-P-359 COLORADO                 99-P-373 G R E AT LAK E S         99-P-397 CAHTO TRIBE
RIVER INDIAN TRIBES,              INTER-TRIBAL COUNCIL,             OF LAYTONVILLE
FISCAL YEAR ENDED -               INC., FISCAL YEAR ENDED           RANCHER& FISCAL YEAR
DECEMBER 31, 1997 (3115/99)       JUNE 30, 1999 (3/17/99)           ENDED DECEMBER 3 1, 1999
*$33.652                                                            (3129199)
                                  99-P-378 INDIAN
99-P-360 COLORADO                 TOWNSHIP TRIBAL                   99-P-398 MANCHESTER
RIVER LNDIAN TRIBES,              GOVERNMENT,                       BAND OF POMO INDIANS.
FISCAL YEAR ENDED                 FISCAL YEAR ENDED                 FISCAL YEAR ENDED
DECEMBER 3 1, 1998 (3115199)      SEPTEMBER 30, 1995                DECEMBER 3 1, 1999 (3/29/99)
*$93,916                          (3122199) *X.30.624
                                                                    BUREAU OF
99-P-361 COYOTE VALLEY            99-P-380 CONFEDERATED
                                                                    RECLAMATION
BAND OF POMO INDIANS              TRIBES OF COOS, LOWER
DF CALIFORNIA.                    UMPQUA, AND SIUSLAW
                                  INDIANS, FISCAL YEAR              99-P-174 SORTH DAKOTA
FISCAL YEAR ENDED
                                  ENDED DECEMBER 3 1, 1997          WATER COMMISSION,
DECEMBER 3 1, 1998
                                  (3:22199)                         FISCAL YEAR ENDED
(3/15/99) *$1,567
                                                                    JUNE 30, 1999 (l/4/99)
99-P-362 COYOTE VALLEY            99-P-382 THE SAMISH
BAND OF POMO INDIANS              TRIBAL ORGANIZATION,              INSULAR AREAS
OF CALIFORNIA,                    FISCAL YEAR ENDED
FISCAL YEAR ENDED                 DECEMBER 31, 1998
                                                                    Republic of Palau
DECEMBER 3 1, 1999                (3125199) *$24,5 12
(3/15/99) *$1,762
                                  99-P-383 THE SAMISH               99-P-169 REPUBLIC OF
                                  TRIBAL ORGANIZATION.              PALAU, INDIRECT COST
99-P-366 REDWOOD
                                  FISCAL YEAR ENDED                 PROPOSAL FOR
VALLEY LITTLE RIVER
                                  DECEMBER 31, 1999                 FISCAL YEAR ENDED
BAND OF POMO INDIANS,
                                  (31’25199)                        SEPTEMBER 30, 1999
FISCAL YEAR ENDED
                                                                    ( 12122198)
DECEMBER 31, 1998
(3116/99)                         99-P-384 DEATH VALLEY
                                  TIMBISHA SHOSHONE                 U.S. Virgin Islands
99-P-367 BRIDGEPORT               BAND OF CALIFORNIA.
INDIAN COLONY,                    FISCAL YEAR ENDED                 99-P-95 DEPARTMENT OF
FISCAL YEAR ENDED                 DECEMBER 3 1, 1998 (3;25/‘99)     LABOR. GOVERNMENT OF
DECEMBER 31, 1998 (3116199)                                         THE VIRGIN ISLANDS,
                                  99-P-385 DEATH VALLEY             3 FISCAL YEARS ENDED
99-P-368 BRIDGEPORT               TIMBISHA SHOSHONE                 SEPTEMBER 30,1999
TNDIAN COLONY,                    BAND OF CALIFORNIA,               (1 l/10:98)
FISCAL YEAR ENDED                 FISCAL YEAR ENDED
DECEMBER 31, 1999 (3/16/99)       SEPTEMBER 30, 1999                99-P-369 DEPARTMENT
                                  (3/251’99) *$9,3 12
                                                                    OF EDUCATION,
99-P-370 OGLALA LAKOTA                                              GOVERNMENT OF THE
COLLEGE, FISCAL YEAR              99-P-388 CHOCTAW                  VIRGIN ISLANDS,
ENDED SEPTEMBER 30,1998           NATION OF OKLAHOMA,               3 FISCAL YEARS ENDED
(3/16/99) *$129.873               FISCAL YEAR ENDED
                                                                    SEPTEMBER 30, 1999
                                  SEPTEMBER 30, 1998                (3:16/99)
                                  (3125199) *$882,677




              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999           47
MULTI-OFFICE                        99-P-345 NEVADA                   99-P-230 WYOMING
                                    CONSERVATION AND                  DEPARTMENT OF
99-P-97 MONTANA -                   NATURAL RESOURCES,                COMMERCE, FISCAL YEAR
DEPARTMENT OF                       DIVISION OF WILDLIFE,             ENDED JUNE 30,200O
NATURAL RESOURCES                   FISCAL YEAR ENDED                 (l/25/99)
AND CONSERVATION,                   JUNE 30, 1998 (3/g/99)
FISCAL YEAR ENDED                                                    99-P-234 MICHIGAN
JUNE 30, 1999 (1 l! 12198)          NATIONAL PARK                    DEPARTMENT OF STATE,
‘$8,509                             SERVICE                          FISCAL YEAR ENDED
                                                                     SEPTEMBER 30, 1999
99-P-175 UTAH                                                        (1128199)
                                    99-P-127 NEW MEXICO
DEPARTMENT OF                       DEPARTMENT OF ENERGY,
NATURAL RESOURCES,                                                   99-P-350 MONTANA
                                    MINERALS AND NATURAL
DIVISION OF OIL, GAS AND                                             DEPARTMENT OF FISH,
                                    RESOURCES, FISCAL YEAR
kINING, FISCAL YEAR                                                  WILDLIFE AND PARKS,
                                    ENDED JUNE 30, 1999
ENDED JUNE 30, 1999                                                  FISCAL YEAR ENDED
                                    (12/l/98
(l/4/99)                                                             JUNE 30, 1999 (3/9/99)
                                    99-P-l 70 IOWA                   *%27,907
99-P-196 UTAH                       DEPARTMENT OF
DEPARTMENT OF                       NATURAL RESOURCES,               99-P-351 MONTANA
NATURAL RESOURCES,                  FISCAL YEAR ENDED                DEPARTMENT OF FISH,
GEOLOGICAL SURVEY,                  JUNE 30, 1999 (12i29198)         WILDLIFE AND PARKS,
FISCAL YEAR ENDED                                                    FISCAL YEAR ENDED
JUNE 30. 1999 (l/15/99)                                              JUNE 30, 2000 (319199)
                                    99-P-171 COLORADO
                                    HISTORICAL SOCIETY,
99-P-201 MONTANA                    FISCAL YEAR ENDED                U.S. FISH AND
HISTORICAL SOCIETY,                 JUNE 30, 1999 (12:29/98)         WILDLIFE SERVICE
FISCAL YEAR ENDED
JUNE 30, 1999 (1120199)                                              99-P-12 LOUISIANA
                                    99-P-193 SOUTH
                                    CAROLINA DEPARTMENT              DEPARTMENT OF WILDLIFE
99-P-249 WASHINGTON                 OF HISTORY AND                   AND FISHERIES, FISCAL
DEPARTMENT OF                       ARCHIVES, FISCAL YEAR            YEAR ENDED JUNE 30. 1999
ECOLOGY. FISCAL YEAR                ENDED JUNE 30,1999               (1018198)
ENDED JUNE 30, 1999                 (1113199)
(2l5i99) *$3,417                                                     99-P-93 MISSISSIPPI
                                   99-P-226 ARKANSAS                 DEPARTMENT OF
99-P-251 HAWAII                    DEPARTMENT OF PARKS               ENVIRONMENTAL
DEPARTMENT OF                      AND TOURISM, FISCAL               QUALITY, FISCAL YEAR
LAND AND NATURAL                   YEAR ENDED JUNE 30, 1999          ENDED JUNE 30,1999
RESOURCES, FISCAL YEAR                                               (11;9/‘98)
                                   (1125199) *$1,587
ENDED JUNE 30, 1999
(2i9199) *$4,807                                                     99-P-124 FLORIDA GAME
                                   99-P-229 WYOMING
                                   DEPARTMENT OF                     AND FRESH WATER FISH
99-P-344 NEVADA                    COMMERCE, FISCAL YEAR             COMMISSION, FISCAL
CONSERVATION AND                   ENDED JUNE 30, 1999               YEAR ENDED JUNE 30, 1995
NATURAL RESOURCES,                                                   (11127198)
                                   (l/25/99)
DIVISION OF WILDLIFE,
FISCAL YEAR ENDED
JUNE 30, 1997 (318199)


48             Semiannual Report to the Congress: October 1, 1998 - March 3 I, 1999
99-P-l 90 NORTH                   99-P-247 SOUTH
CAROLINA WILDLIFE                 CAROLINA DEPARTMENT
RESOURCES COMMISSION,             OF NATUR4L RESOURCES,
FISCAL YEAR ENDED                 FISCAL YEAR ENDED
JLNE 30, 1999 (l/12/99)           JUNE 30, 1999
                                  (215199)
99-P-192 lNDIANA
DEPARTMENT OF                     99-P-306 MICHIGAN
NATURAL RESOURCES,                DEPARTMENT OF
FISCAL YEAR ENDED                 NATURAL RESOURCES,
JUNE 30, 1998 (l/12/99)           FISCAL YEAR ENDED
                                  SEPTEMBER 30. 1998
 99-P-194 ARKANSAS                (2/19/99)
GA.ME AND FISH
COMMISSION, FISCAL                U.S. GEOLOGICAL
YEAR ENDED JUNE 30, 1999          SURVEY
(l/14199)
                                  99-P-75 WYOMING
99-P-200 MISSOLRI                 GEOLOGICAL SURVEY,
DEPARTMENT OF                     FISCAL YEAR ENDED
CONSERVATION,                     JUNE 30, 1999(11/4/98) *$319
FISCAL YEAR ENDED
SEPTEMBER 30,1999
                                  99-P-191 GEOLOGICAL
(1120199)
                                  SURVEY OF
                                  ALABAMA/STATE
99-P-219 FLORIDA GALME            OIL AND GAS BOARD,
AND FRESH WATER FISH              FISCAL YEAR ENDED
COMMISSION, FISCAL                SEPTEMBER 30, 1999
YEAR ENDED JUNE 30.1996           (1112i99)
(l/2 l/99)

99-P-227 COLORADO
DEPARTMENT OF
NATURAL RESOURCES,
FISCAL YEAR ENDED
JUNE 30, 1999 (li25i99)
*$3.918

99-P-233 MARYLAND
DEPARTMENT OF
NATURAL RESOURCES,
FISCAL YEAR ENDED
JUNE 30, 1999 ( l/22/99)




              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999   49
                                           APPENDIX 3

                MONETARY IMPACT OF AUDIT ACTIVITIES FROM
                  OCTOBER 1,1998, THROUGH MARCH 31,1999
                                                     FL?DS TO
                                                     BE PUT TO
          ACTIVITY*            QUESTIONED             BETTER
                                 COSTS                 USE**            REVENUES***           TOTAL

Bureau of Indian
Affairs                             $1,660,256           $8,010,817                     0     $9,67 1,073

bureau of Land
Management                                       0                 0          386,452            386,452
Bureau of Reclamation                         0                    0        17,454,317        17,454,3 17

Insular Areas: ****
     - Commonwealth of
       the Northern
       Mariana Islands                 596,151          7,648.37 1                   0         8244,522
     - Guam                             47,879              21,681                   0            69,560
     - Republic of the
       Marshall Islands             20,854,750                     0                 0        20,854,750
     - Republic of Palau             1,032,072                     0                 0         1,032,072
     - U.S. Virgin Islands             4 5 9 , 2 0 5 26,3 1 2 , 8 9 7      40,746,088         67.518,190
Minerals Management
Service                                       0                    0        2,400,OOO          2,400,OOO
Multi-Office                                  0             16,735                   0            16,735
National Park Service                         0             28,103                   0            28,103
U.S. Fish and Wildlife
Service                                  2,045            1,070,171                  0         1,072,216
U.S. Geological Survey                        0                 319                  0               319
     Total                         %24,652,358         $43,109,094        $60,986,857       $128,748,309
   * Costs for audits performed by the Defense Contract Audit Agency are not included.
  ** Includes monetary impact of indirect cost proposals negotiated.
 *** Represents lost or potential additional revenues.
**** Includes monetary impact of non-Federal timds ( see Appendix 4).



50              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
                                        APPENDIX 4

                   NON-FEDERAL FUNDING INCLUDED IN
                  MONETARY IMPACT OF AUDIT ACTIVITIES
                   DURING THE 6-MONTH PERIOD ENDED
                            MARCH 31,1999


    No. 99-I-13 - “On-Call Substitute Teachers,. Department of Education, Government of
    Guam,” dated October 1998. All of the $21,681 reported as monetary impact represents
    insular area funds.
.
    No, 99-I-147 - “Management of Federal Grants, Public School System, Commonwealth of
    the Northern Mariana Islands,” dated December 1998. All of the $738,597 reported as
    monetary impact represents Federal funds.

    No. 99-I-148 - “Unemployment Insurance Program, Department of Labor, Government of
    the Virgin Islands,” dated December 1998. All of the $19,137,400 reported as monetary
    impact represents insular area funds.

    No. 99-I-255 - “Federal Grant Program Travel Activities, Department of Education,
    Government of Guam,” dated February 1999. Of the $47,879 reported as monetary impact,
    $2,878 represents insular area funds and $45,001 represents Federal funds.

    No. 99-I-261 - “Government Employees Retirement System, Government of the Virgin
    Islands,” dated March 1999. All of the $6.3 million reported as monetary impact represents
    insular area funds.

    No. 99-I-356 - “Discretionary and Reprogrammed Funds, Office of the Governor,
    Commonwealth ofthe Northern Mariana Islands,” dated March 1999. All ofthe $6,909,774
    reported as monetary impact represents insular area funds.

    No. 99-I-364 - “Virgin Islands National Guard, Government of the Virgin Islands,” dated
    March 1999. Of the $12,897 reported as monetary impact, S 12,265 represents insular area
    funds and $632 represents Federal funds.

    No. 99-I-365 - “Followup of Recommendations Relating to Personnel Management
    Practices, Division of Personnel, Government of the Virgin Islands,” dated March 1999. All
    of the $26.3 million reported as monetary impact represents insular area funds.




             Semiannual Report to the Congress: October 1, 1998 - March 3 1,1999           51
No. 99-I-379 - “Administration of Real Property Taxes, Government of the Virgin Islands,”
dated March 1999. All of the $15,716,888 reported as monetary impact represents insular
area   funds.    _

No. 99-I-400 - “Acquisition and Control of Computers, Bureau of Internal Revenue,
Government of the Virgin Islands,” dated March 1999. All of the $51,005 reported as
monetary impact represents Federal funds.




52       Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
                                                      APPENDIX 5
                                                        Table I

                         INSPECTOR GENERAL AUDIT REPORTS
                              WITH QUESTIONED COSTS

                                                                                                      Unsupported
                                       No. of Reports*              Questioned Costs                    costs**

A. For which no
management decision had
been made by the
commencement of the
reporting period                                70                     $178,206,569                     $1,160,199
B. Which were issued
during the reporting
period                                         3 3                        24.652.358                                0
    Total (A+B)                                103
                                               -                       $202.858.927                     $1.160.199
C. For which a
management decision
was made during the
reporting period                                32                        $3,953,645                                0
   (i) dollar value of
       disallowed costs                         26                        $3,483,553                               0
   (ii) dollar value of
        costs not
        disallowed                                8                          $470,092                              0
D. For which no
management decision had
been made by the end of
the reporting period                            71                     $198,905,282                    $1,160,199
E. For which no
management decision
was made within 6
months of issuance                              50                     $175,570,484                    $1,160,199
* Report totals cannot be reconciled because some reports have dollar amounts in both the allowed and disallowed categories.
** Unsupported costs are included in questioned costs.




                Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                                       53
                                                     APPENDIX5
                                                          Table II

            INSPECTOR GENERAL AUDIT REPORTS WITH
       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                            No. of Reports*              Dollar Value**

 A. For which no management decision had been made by
 the commencement of the reporting period                                            36                  $269,319,413

 B. Which were issued during the reporting period                                    61                    43.109.094***

     Total (A+B)                                                                     2                  $312.428.507

 C. For which a management decision was made during the
 reporting period                                                                    57                    $13640,559
     (i) dollar value of recommendations that were agreed
         to by management                                                            57                   Jz3,540,559***

     (ii) dollar value of recommendations that were not
          agreed to by management                                                     1                       $100,000

 D. For which no management decision had been made by
 the end of the reporting period                                                     37                 $298,787,948
 E. For which no management decision was made within
 6 months of issuance                                                                32                 $264,928,25 1
 * Report totals cannot be reconciled because some reports have dollar amounts in both the agreed and disagreed categories.
 ** Amounts include preaward audits.
 *** Amounts include indirect cost proposals negotiated.




54              Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
                                         APPENDIX 5
                                           Table III

        INSPECTbR GENERAL AUDIT REPORTS WITH LOST OR
               POTENTIAL ADDITIONAL REVENUES


                                                       No. of Reports       Dollar Value
A. For which no management decision had been made
by the commencement of the reporting period                  13              $70,720,144
B. Which were issued during the reporting period             $                60.986.857
   Total (A+B)                                               z!             $131.707,001
2. For which a management decision was made during
the reporting period                                          3              $42,X05,5 17
  (i) dollar value of recommendations that were
   agreed to by management                                    3              $42,805,5 17
  (ii) dollar value of recommendations that were not
   agreed to by management                                    0                         0
D. For which no management decision had been made
my the end of the reporting period                           16              $88,901,484
E. For which no management decision was made within
5 months of issuance                                         12              $64,098,144




            Semiannual Report to the Congress: October 1, 1998 - March 31, 1999             55
                                                          APPENDIX 6

             SUMMAkY OF AUDIT REPORTS OVER 6 MONTHS OLD
                   PENDING MANAGEMENT DECISIONS

                           a summary of tnrernal, contract (except preawards) and grant, and smgle audit reports that were over
       6 months old on March 31, 1999, and still pending a management declsion. It provides report number, title, issue date, number
       of unresolved recommendations, and unresolved amount of monetary benefits identified in the audit report.




INTERNAL AUDITS                                  98-I-689 FOLLOWUP OF                                98-I-653 LEGISLATIVE
                                                 NEVADA LAND EXCHANGE                                RENOVATION PROJECT,
                                                 ACTIVITIES, BUREAU OF                               LEGISLATURE OF
BUREAU OF INDIAN                                 LAND MANAGEMENT                                     AMERICAN SAMOA:
AFFAIRS                                          (9130198)                                           AMERICAN SAMOA
                                                 2 RECOMMENDATIONS                                   GOVERNMENT
98-I-490 PROPOSED                                UNRESOLVED                                          (8/28/98)
SEnLEMENT FOR                                                                                        2 RECOMMENDATIONS
UNDERRECOVERY OF                                 BUREAU OF                                           AND $757,363
INDIRECT COSTS BY THE                            RECLAMATION                                         UNRESOLVED
CONFEDERATED TRIBES
OF THE SILETZ INDIANS                            98-I-250 FOLLOWUP OF                                Commonwealth of the
(6/2/‘98) $330,771                               RECOVERY OF IRRIGATION                              Northern Mariana
UNRESOLVED                                       INVESTMENT COSTS,                                   Islands
(Circumstances beyond the                        BUREAU OF RECLAMATION
Bureau’s control have delayed                    (2113198)                                           94-I-936 FOLLOWW
resolution of the costs.)                        3 RECOMMENDATIONS                                   OF RECOMMENDATIONS
                                                 UNRESOLVED                                          CONCERNING THE
BUREAU OF LAND                                                                                       ECONOMIC DEVELOPMENT
MANAGEMENT                                       INSULAR AREAS                                       LOAN FUND,
                                                                                                     COMMONWEALTH
94-I-496 SALE OF                                 American Samoa                                      DEVELOPMENT
.MATERIALS FROM PLBLIC                                                                               AUTHORITY (7/ 18/94)
LANDS. BUREAU OF LAND                           93-I-1600 REVIEW OF                                  2 RECOMMENDATIOXS
hlANAGEMENT (313 l/94)                          GRANT ADMINISTRATION,                                UNRESOLVED
1 RECOMMENDATION AND                            DEPARTMENT OF
$3,062,000 UNRESOLVED                           EDUCATION, AMERICAN                                 96-I-596 MANAGEMENT OF
                                                SA,MOA GOVEILWMENT                                  PUBLIC LAND,
97-I-1300 ISSUANCE OF                           (9/30/93)                                           COMMONWEALTH OF THE
MINERAL PATENTS,                                2 RECOMMENDATIONS                                   NORTHERN MARIAN.
BUREAU OF LAND                                  Ai’ii $306,637 UNRESOLVED                           ISLANDS (3120196)
MANAGEMENT AND                                                                                      6 RECOMMENDATIONS
OFFICE OF THE                                                                                       AND $145,877,257
SOLICITOR (9130197)                                                                                 UNRESOLVED
2 RECOMMENDATIONS
UNRESOLVED




56               Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
Guam                            97-I-1051 FOLLOWUP OF             U.S. Virgin Islands
                                RECOMMENDATIONS
92-I-597 SELECTION, _           CONCERNING PERSONNEL              91-I-467 FOLLOWUP OF
PROCUREMENT, AND                AND PAYROLL PRACTICES,            RECOMMENDATIONS
ADMINISTRATION OF               LEGISLATIVE BRANCH,               CONTAINED IN REPORT
WATER DISTRIBUTION              GOVERNMENT OF GUAM                ON THE ROAD FUND,
PROJECTS, PUBLIC UTILITY        (7/31/97)                         GOVERNMENT OF THE
AGENCY OF GUAM,                 1 RECOMMEhiATION                  VIRGIN ISLANDS (2.19191)
GOVERNMENT OF GUAM              UNRESOLVED                        1 RECOMMENDATION
(3120192)                                                         UNRESOLVED
2 RECOMMENDATIONS               97-I-1294 SCHOOL
UNRESOLVED                      BUS OPERATIONS,                   92-I-1086 PERSONNEL
                                DEPARTMENT OF PUBLIC              MANAGEMENT,
93-I-706 SELECTED               WORKS, GOVERNMENT OF              GOVERNMENT OF THE
SPECIAL REVENUE FUNDS,          GUAM (9/30/97)                    VIRGIPI; ISLANDS (8i3i92)
GOVERNMENT OF GUAM              6 RECOMMENDATIONS                 6 RECOMMENDATIONS
(3/15/93)                       AND $3,584,034                    Ai\iD $5 1,542 UNRESOLVED
7 RECOMMENDATIONS               UNRESOLVED
AND $39,330,411                                                   93-I-363 INMATE CARE,
UNRESOLVED                      98-I-179 PROTECTION               REHABILITATION, AND
                                AND ADVOCACY OF THE               SAFETY, BUREAU OF
93-I-1 195 IMPACT OF THE        MARIANAS, TERRITORY               CORRECTIONS,
COMPACT OF FREE                 OF GUAM ( 12/23/97)               GOVERNMENT OF THE
ASSOCIATION ON THE              10 RECOMMENDATIONS                VIRGIN ISLANDS ( 12:3 1192)
GOVERNMENT OF GUAM              AND $74 1.687 UNRESOLVED          10 RECOMMENDATIONS
(6128193)                                                         UNRESOLVED
1 RECOMMENDATION AND            98-I-264 LEGISLATURE
$15,9 11,978 UNRESOLVED         CAPITAL IMPROVEMENT               93-I-572 SUPPLY
                                FUND, GUAM                        AND EQUlPMENT
94-I-106 REVIEW OF              LEGISLATURE,                      MANAGEMENT,
GUAM’S                          GOVERNMENT OF GUAM                DEPARTMENT OF
GOVERNMENTWIDE                  (2/20/98)                         EDUCATION,
TRAVEL PRACTICES                4 RECOMMENDATIONS                 GOVERNMENT OF THE
(1 l/26/93)                     AND $4,159,110                    VIRGIN ISLANDS (2.‘19/93)
16 RECOMMENDATIONS              UNRESOLVED                        9 RECOMMENDATIONS
AND S 1,689,650                                                   AND $3 10,000
UNRESOLVED                      Republic of the Marshall          UNRESOLVED
                                Islands
97-I-591 GUAM                                                    93-I-670 PERSONNEL.
LEGISLATURE,                   94-1-21 CAPITOL                   PROPERTY MANAGE.MENT,
GOVERNMENT OF GUAM             RELOCATION PROJECT,               AND PROCUREMENT
(3124i97)                      REPUBLIC OF THE                   PRACTICES, BUREAU OF
5 RECOMMENDATIONS              MARSHALL ISLANDS                  CORRECTIONS,
AND $1,004,084                 (10/18/93)                        GOVERNMENT OF THE
UNRESOLVED                     2 RECOMMENDATIONS                 VIRGTN ISLANDS (3t 11,‘93)
                               UNRESOLVED                        14 RECOMMENDATIONS
                                                                 AND %265,823
                                                                 UNRESOLVED




           Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999             57
95-I-1258 SCHOOL LUNCH           97-l-243 WORKMEN’S                98-I-263 SEWAGE SYSTEM
PROGRAM, DEPARTMENT              COMPENSATION                      USER FEES, GOVERNMENT
OF EDUCATION, .                  PROGRAM, GOVERNMENT               OF THE VIRGIN ISLANDS
GOVERNMENT OF THE                OF THE VIRGIN ISLANDS             (2120198)
VIRGIN ISLANDS (9/12!95)         (12:30/96)                        5 RECOMMENDATIONS
1 RECOMMENDATION                 1.5 RECOMMENDATIONS               AND %897,2 12
UNRESOLVED                       AND $2,530,000                    UNRESOLVED
                                 UNRESOLVED
96-E-828 ACCOLNTING                                                98-I-384 HURRICANE-
CONTROLS FOR DISASTER            97-E-279 ACCOUNTMG                RELATED CONTRACTING,
ASSISTANCE FUNDS,                CONTROLS FOR DISASTER             DEPARTMENT OF
POLICE DEPARTMENT,               ASSISTANCE FUNDS,                 EDUCATION,
GOVERNMENT OF THE                VIRGIN ISLANDS WATER              GOVERNMENT OF THE
VIRGIN ISLANDS (513 1196)        AND POWER AUTHORITY               VIRGIN ISLANDS (3/3 l/98)
2 RECOMMENDATIONS                ( l/7/97)                         4 RECOMMENDATIONS
UNRESOLVED                       3 RECOMMENDATIONS                 AND $54 18 UNRESOLVED
                                 UNiSOLVED
97-I-40 DIVISION OF                                                98-I-468 FOLLOWUP OF
AGRICULTURE,                     98-E-98 EXPENDITURES              RECOMMENDATIONS
DEPARTMENT OF                    CLAIMED AGAINST THE               RELATING TO THE
ECONOMIC DEVELOPMENT             FEDERAL EMERGENCY                 BUREAU OF CORRECTIONS.
AND AGRICULTURE,                 MANAGEMENT AGENCY’S               DEPARTMENT OF JUSTICE,
GOVERNMENT OF THE                COMMUNITY DISASTER                GOVERNMENT OF THE
VIRGIN ISLANDS (10/Z 1196)       LOAN, GOVERNMENT OF               VIRGIN ISLANDS (5/29/98)
8 RECOMMENDATIONS                THE VIRGIN ISLANDS                6 RECOMMENDATIONS
AND $90,000 UNRESOLVED           (1 l/12/97)                       UNRESOLVED
                                 4 RECOMlMENDATIONS
97-E-189 SUBGRANT                AND $2 1,700 UNRESOLLED           98-I-669 ADMINISTRATIVE
ADMINISTRATION FOR                                                 FUNCTIONS, TERRITORIAL
DISASTER ASSISTANCE              98-I-l 88 INTERNAL                COURT OF THE VIRGIN
FUNDS, OFFICE OF                 REVENUE TAXES, BUREAU             ISLANDS (9/9/98)
MANAGEMENT AND                   OF INTERNAL REVENUE.              4 RECOMMENDATIONS
BUDGET, GOVERNMENT OF            GOVERNMENT OF THE                 AND $200,000
THE VIRGIN ISLANDS               VIRGIN ISLANDS (12/30 97)         UNRESOLVED
(1 l/26/96)                      1 RECOMMENDATION
2 RECOMMENDATIONS                UNRESOLVED                        98-I-670 INTERFUND
UNRESOLVED                                                         LOANS AND FEDERAL
                                98-I-191 BUILDING PERMIT           GRANT BALANCES,
97-E-239 PROCUREMENT            FEES, DEPARTMENT OF                GOVERNMENT OF THE
PRACTICES FOR                   PLANNING AND NATURAL               VIRGIN ISLANDS (919198)
HURRICANE-RELATED               RESOURCES,                         14 RECOMMENDATIONS
DEBRIS REMOVAL,                 GOVERWENT OF THE                   AND $1,581,000
DEPARTMENT OF PUBLIC            VIRGIN ISLANDS (12/30 97)          UNRESOLVED
WORKS, GOVERNMENT OF            7 RECOMMENDATIONS
THE VIRGIN ISLANDS              AND $143,446 UNRESOLVED
(1207196)
1 RECOMMENDATION
UNRESOLVED




58          Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
MINERALS                        97-I-1304 SERVICEWIDE             94-E-919 COSTS CLAIMED
                                MEDIA PROGRAM,                    BY DIVERSIFIED BUSINESS
MANAGEMENT _                                                      TECHNOLOGIES
                                NATIONAL PARK SERVICE
SERVICE                         (9/30/97)                         CORPORATION UNDER
                                5 RECOMMENDATIONS AND             CONTRACT NO. CBMOOO 147
96-I-1255 SELECTED              $204,000 UNRESOLVED               (6/30:94) $247,4 14
ACTIVITIES OF THE                                                 L-NXESOLVED
ROYALTY MANAGEMENT              98-I-344 FOLLOWUP OF              (Circumstances beyond the
SYSTEM, MINERALS                MAINTENANCE ACTIVITIES,           Bureau‘s control have delayed
MANAGEMENT SERVICE              NATIONAL PARK SERVICE             resolution of the costs.)
(9130196)                       (3127198)
3 RECOMMENDATIONS               3 RECOMMENDATIONS a%ND            98-E-709 BOMAR, INC.,
AND $3,860,000                  $4 11 .OOO UNRESOLVED             REQUEST FOR EQUITABLE
UNRESOLVED                                                        ADJLSTMENT SUBMITTED
                                98-I-389 CONCESSIONER             UNDER BUREAU OF
!%-I-336 GENERAL                IMPROVEMENT ACCOLXTS,             INDLAN AFFAIRS
CONTROLS OVER                   NATIONAL PARK SERVICE             CONTRACT
AUTOMATED                       (313 1198)                        NO. 145CBH002116 (9i3Oi98)
INFORMATION SYSTEMS,            2 RECOMMENDATIONS .XND            $2,169,6 15 UNRESOLVED
ROYALTY MANAGEMENT              $224,800 UNRESOLVED               (Circumstances beyond the
PROGRAM, MINERALS                                                 Bureau’s control have delayed
MANAGEMENT SERVICE              98-I-686 SELECTED                 resolution of the costs.)
(3123198)                       MANAGEMENT ACTIVITIES
3 RECOMMENDATIONS               AT ,MANASSAS NATIONAL             BUREAU OF LAND
UNRESOLVED                      BATTLEFIELD PARK,                 MANAGEMENT
                                NATIONAL PARK SERVICE
NATIONAL PARK                   (9121198)
                                                                  98-E-555 CODIAK
SERVICE                         1 RECOMMENDATION
                                                                  CONSTRUCTION, REQUEST
                                UNRESOLVED
                                                                  FOR EQUITABLE
96-I-806 EMERGENCY                                                ADJUSTMENT SUBMITTED
MEDICAL AND SEARCH              CONTRACT AND                      UNDER BUREAU OF LAND
AND RESCUE SERVICES,                                              M_4NAGEMENT CONTRiCT
NATIONAL PARK SERVICE           GRANT AUDITS
                                                                  NO. 1422-N670-C96-0046
(6110196)                                                         (7i1.‘98) $149,241
2 RECOMMENDATIONS               BUREAU OF INDIAi’i
                                                                  L%iSOLVED
AND $450 1,000                  AFFAIRS
UNiSOLVED
                                94-E-784 COSTS CLAIMED             INSULAR AREAS
97-I-908 AUTOMATED LAW          BY DIVERSIFIED BUSl-N-ESS
ENFORCEMENT SYSTEM,             TECHNOLOGIES                       Republic of the Marshall
NATIONAL PARK SERVICE           CORPORATION UNDER                  Islands
(6/23/97)                       CONTRACT NO. CBM000047
2 RECOMMENDATIONS               (6110194) $825,170                 95-E-951 GRANT AND
UNRESOLVED                      UNRESOLVED (Circumstances          TRUST FUNDS PROVIDED
                                beyond the Bureau ‘s control       FOR THE RONGELAP
                                have delayed resolution of rhe     RESETTLEMENT PROJECT,
                                costs.)                            REPLBLIC OF THE
                                                                   MARSHALL ISLANDS
                                                                   (522.95) $215,960
                                                                   L&RESOLVED


            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999              59
NATIONAL PARK                   98-E-226 U.S. FISH AND            U.S. GEOLOGICAL
SERVICE                         WILDLIFE SERVICE                  SURVEY
                                FEDERAL AID GRANTS
98-E-217 RAMPART                TO WASHINGTON
                                                                  93-E-339 TGS
WATERBLAST, INC., CLAIM         DEPARTMENT OF FISH
                                                                  TECHNOLOGY, INC..
                                AND WILDLIFE FOR
SUBMITTED UNDER                                                   CLOSING STATEMENT
                                2 FISCAL YEARS ENDED
NATIONAL PARK SERVICE                                             (12!22:92) $520,235
                                JUNE 30, 1996 (l/14/98)
CONTRACT                                                          UNRESOLVED
                                11 RECOMMENDATIONS
NO. 1443cx-3000-93-904
                                AND $2 17,500 UNRESOLVED
( li8:98) S 1.464523                                              SINGLE AUDITS
UNRESOLVED
                                98-E-674 US. FISH AND
                                WILDLIFE SERVICE                  BUREAU OF INDIAN
U.S. FISH AND                   FEDERAL AID GRANTS TO             AFFAIRS
YILDLIFE SERVICE                WISCONSIN DEPARTMENT
                                OF NATURAL RESOURCES              96-A-1122
97-E-100 U.S. FISH AND          FOR 2 FISCAL YEARS                NORTHWESTERN BAND OF
WILDLIFE SERVICE                ENDED JUNE 30,1996                THE SHOSHONI NATION,
WILDLIFE AND SPORT FISH         (9/10/98)                         FISCAL YEAR ENDED
RESTORATION GRANTS              13 RECOMMENDATIONS                DECEMBER 30, 1994
TO CONNECTICUT FOR              AND $5067,771                     (08115196)
2 FISCAL YEARS ENDED            UNRESOLVED                        1 RECOMMENDATION
JUNE 30, 1995 ( 10/30196)
                                                                  UNRESOLVED
6 RECOMMENDATIONS               98-E-681 U.S. FISH AND            (Circumstances beyond the
AND 51,750,514                  WILDLIFE SERVICE                  Bureau’s control have delayed
UNRESOLVED                      FEDERAL AID GRANTS TO             resolution of the
                                NEW YORK DEPARTMENT               recommendation.)
97-E-1254 US. FISH AND          OF ENVIRONMENTAL
WILDLIFE SERVICE                CONSERVATION FOR
FEDERAL AID GRANTS                                                BUREAU OF LAND
                                2 FISCAL YEARS ENDED
TO FLORIDA DEPARTMENT           MARCH 31, 1996 (9117198)          MANAGEMENT
OF ENVIRONMENTAL                $2,175,118 UNRESOLVED
PROTECTION FOR                                                    97-A-847 UTAH, FISCAL
2 FISCAL YEARS ENDED            98-E-705 U.S. FISH AND            YEAR ENDED JUNE 30, 1994
JUNE 30, 1996 (9/18/97)         WILDLIFE SERVICE                  (5121197)
2 RECOMMENDATIONS               FEDERAL AID GRANTS TO             1 RECOMMENDATIOS
UNRESOLVED                      RHODE ISLAND                      UNRESOLVED
                                DEPARTMENT OF
98-E-198 U.S. FISH AND          ENVIRONMENTAL
WILDLIFE SERVICE                MANAGEMENT, DIVISION
FEDERAL AID GRANTS              OF FISH AND WILDLIFE,
TO COLORADO FOR                 FOR 2 FISCAL YEARS
2 FISCAL YEARS ENDED            ENDED JUNE 30, 1996
JUNE 30, 1995 (l/16/98)         (9130198)
1 RECOMMENDATION AND            8 RECOMMENDATIONS AND
$1.453,632 UNRESOLVED           $1,104,906 UNRESOLVED




60          Semiannual Report to the Congress: October 1, 1998 - March 31, 1999
INSULAR AREAS                   93-A-l 10 MARIANA                 94-A-836 COMMONWEALTH
                                ISLANDS HOUSING                   OF THE NORTHERN
                                AUTHORTT’Y, FISCAL YEAR           MARIANA ISLANDS,
Commonwealth of the
                                ENDED SEPTEMBER 30, 1990          FISCAL YEAR ENDED
Northern Mariana                ( 1 O/26/92)                      SEPTEMBER 30, 1993
Islands                         1 RECOMMENDATION AND              (6120194)
                                9 124,450 UNRESOLVED              59 RECOMMENDATIONS
91-A-731 COMhfONWEALTH                                            UNRESOLVED
UTILITIES CORPORATION,          93-A-225 MARIANA
FISCAL YEAR ENDED               ISLANDS HOUSING                   94-A-l 075 NORTHERN
SEPTEMBER 30, 1988              AUTHORITY, FISCAL YEAR            MARIANAS COLLEGE,
(4/2619 1)                      ENDED SEPTEMBER 30, 1991          COMMONWEALTH OF THE
1.5 RECOMMENDATIONS             (11119192)                        NORTHERN MARLANA
AND $6,087,882                  I RECOMMENDATION AND              ISLANDS, FISCAL YEAR
&JNRESOLVED                     $I,1 19,377 UNRESOLVED            ENDED SEPTEMBER 30,
                                                                  1991 (7/29/94)
91-A-803 lMARJ.ANA              93-A-1563                         30 RECOMMENDATIONS
ISLANDS HOUSING                 COMMONWEALTH                      AND $4,600 UNRESOLVED
AUTHORITY, FISCAL YEAR          DEVELOPMENT
ENDED SEPTEMBER 30,1986         AUTHORITY, FISCAL YEAR            94-A-1083 MARIANA
(j/7/91)                        ENDED SEPTEMBER 30, 1988          ISLANDS HOUSING
1 RECOMMENDATION AND            (9113193)                         AUTHORIl-Y, FISCAL YEAR
$1,537,32 1 UNRESOLVED          52 RECOMMENDATIONS                ENDED SEPTEMBER 30,
                                AND $4,998,398                    1993 (g/3/94)
9 1 -A-823 MARIANA              UNRESOLVED                        5 RECOMMENDATIONS
ISLANDS HOUSING                                                   UNRESOLVED
AUTHORITY, FISCAL YEAR          94-A-525 COMMONWEALTH
ENDED SEPTEMBER 30,1987         DEVELOPMENT                       95-A-784
(5/10/91)                       AUTHORITY, FISCAL YEAR            COMMONWEALTH PORTS
 1 RECOMMENDATION AND           ENDED SEPTEMBER 30, 1989          AUTHORITY, FISCAL YEAR
$455,857 UNRESOLVED             (4/l 5194)                        ENDED SEPTEMBER 30,
                                45 RECOMMENDATIONS                1994 (4/12/95)
91-A-824 MARIANA                AND $6,078,308                    10 RECOMMENDATIONS
ISLANDS HOUSING                 UNRESOLVED                        UNRESOLVED
AUTHORITY, FISCAL YEAR
ENDED SEPTEMBER 30, 1988        94-A-574 COMMONWEALTH             97-A-851 NORTHERN
(S/10/91)                       UTILITIES CORPORATION,            MAIUANAS COLLEGE,
1 RECOMMENDATION AND            FISCAL YEAR ENDED                 FISCAL YEAR ENDED
$196,593 UNRESOLVED             SEPTEMBER 30, 1990 (516194)       SEPTEMBER 30, 1993
                                6 1 RECOMMENDATIONS               (S/16/97)
92-A-1179 MARIANA               AND S 166,509 UNRESOLVED          36 RECOMMENDATIONS
ISLANDS HOUSING                                                   UNRESOLVED
AUTHORITY, FISCAL YEAR          94-A-8 18 COMMONWEALTH
ENDED SEPTEMBER 30, 1989        UTILITIES CORPORATION,
(81’13192)                      FISCAL YEAR ENDED
1 RECOMMENDATION AND            SEPTEMBER 30, 199 1
$168,711 UNRESOLVED             (6/ 16194)
                                42 RECOMMENDATIONS
                                UNRESOLVED




            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999       61
98-A-339 COMMONWEALTH            Chuuk                             94-A-521 STATE OF
OF THE NORTHERN                                                    POHNPEI, FEDERATED
MAFUANA ISLANDS, -              91-A-505 CHUUK STATE               STATES OF MICRONESIA,
FISCAL YEAR ENDED               GOVERNMENT, FISCAL                 FISCAL YEAR ENDED
SEPTEMBER 30, 1996              YEAR ENDED                         SEPTEMBER 30, 1992
(3111198)                       SEPTEMBER 30, 1989                 (4119194)
47 RECOMMENDATIONS              (2.‘20/9 1)                        2 1 RECOMMENDATIONS
AND $11,176,309                 1 RECOMMENDATION AND               AND $2,764 UNRESOLVED
UNRESOLVED                      S665,8 17 UNRESOLVED
                                                                   Yap
Federated States of             92-A-51 9 CHUUK STATE
Micronesia                      GOVERNMENT, FISCAL                 94-A-371 STATE OF YAP,
                                YEAR ENDED                         FEDERATED STATES OF
95-A-1043 FEDERATED             SEPTEMBER 30, 1990                 MICRONESIA, FISCAL
STATES OF MICRONESIA            (2.‘25192)                         YEAR ENDED
NATIONAL GOVERNMENT,            1 RECOMMENDATION AND               SEPTEMBER 30, 1992
FISCAL YEAR ENDED               5 1,940,938 UNRESOLVED             (2125i94)
SEPTEMBER 10, 1993                                                 22 RECOMMENDATIONS
(6127i95)                       94-A-374 STATE OF CHUUK,           UNRESOLVED
10 RECOMMENDATIONS              FEDERATED STATES OF                Guam
UNRESOLVED                      MICRONESIA, FISCAL YEAR
                                ENDED SEPTEMBER 30. 1992           97-A-514 GOVERNMENT
96-A-482 FEDERATED              (2i28194)                          OF GUAM, FISCAL YEAR
STATES OF MICRONESIA            15 RECOMMENDATIONS                 ENDED SEPTEMBER 30,
NATIONAL GOVERNMENT,            UNRESOLVED                         1995 (2!21/97)
FISCAL YEAR ENDED                                                  106 RECOMMENDATIONS
SEPTEMBER 30, 1994                                                 b%RESOLVED
(2129196)                       Kosrae
19 RECOMMENDATIONS                                                 98-A-254 GOVERNMENT
AND $57,900 UNRESOLVED          94-A-367 STATE OF                  OF GUAM, FISCAL YEAR
                                KOSRAE, FEDERATED                  ENDED SEPTEMBER 30,
97-A-244 FEDERATED              STATES OF MICRONESIA,              1996 (2:4198)
STATES OF MICRONESIA            FISCAL YEAR ENDED                  46 RECOMMENDATIONS
NATIONAL GOVERNMENT,            SEPTEMBER 30, 1992                 UNRESOLVED
FISCAL YEAR ENDED               (2.‘24/94)
SEPTEMBER 30, 1995              9 RECOMMENDATIONS                  Republic of the Marshall
(12123196)                      LXRESOLVED                         Islands
22 RECOMMENDATIONS
AND $166,523 UNRESOLVED         Pohnpei                            96-A-104 REPUBLIC OF THE
                                                                   MARSH4LL ISLANDS.
98-A-386 FEDERATED              91-A-398 STATE OF                  FISCAL YEAR ENDED
STATES OF MICRONESIA            POHNPEI GOVERNMENT,                SEPTEkfBER 30, 1994
NATIONAL GOVERNMENT,            FISCAL YEAR ENDED                  (1 lili95)
FISCAL YEAR ENDED               SEPTEMBER 30, 1989 (2:4!91)        75 RECOMMENDATIONS
SEPTEMBER 30,1996               1 RECOMMENDATION AND               AND $1,068,317
(313 I/98)                      $98,216 UNRESOLVED                 LXRESOLVED
23 RECOMMENDATIONS
AND $383,920 UNRESOLVED




62          Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
97-A-1272 REPUBLIC OF           94-A-882 REPUBLIC OF              U.S. Virgin Islands
THE MARSHALL ISLANDS,           PALAU, FISCAL YEAR
FISCAL YEAR ENDED -             ENDED SEPTEMBER 30, 1992
                                                                  92-A-107 VIRGIN ISLANDS
SEPTEMBER 30, 1996              (6127194)
                                                                  WATER AND POWER
(9123197)                       37 RECOMMENDATIONS                AUTHORITY ( 1 Oi 16/9 1)
29 RECOMMENDATIONS              .4ND $1,085 UNRESOLVED            3 RECOMMENDATIONS
LXZESOLVED
                                                                  UNRESOLVED
                                95-A-1395 MICRONESIA
Republic of Palau               OCCUPATIONAL COLLEGE,
                                                                  93-A-177 UNIVERSITY OF
                                PALAU, 2 FISCAL YEARS
                                                                  THE VIRGIN ISLANDS,
92-A-368 PALAU                  ENDED SEPTEMBER 30, 1992
                                                                  2 FISCAL YEARS ENDED
COMMUNITY ACTION                (9128195)
                                                                  SEPTEMBER 30, 1991
AGENCY, FISCAL YEAR             6 RECOMMENDATIONS
                                                                  (1 l/5/92)
ENDED SEPTEMBER 30, 1990        UNRESOLVED
                                                                  4 RECOMMENDATIONS
f 1124192)                                                        UNRESOLVED
 1 RECOMMENDATION AND           98-A-130 REPUBLIC OF
$2,593 UNRESOLVED               P 4LAU, FISCAL YEAR
                                                                  96-A-l 144 GOVERNMENT
                                E.NDED SEPTEMBER 30, 1996
                                                                  OF THE VIRGIN ISLANDS,
92-A-885 REPUBLIC OF            (1 l/19/97)
                                                                  2 FISCAL YEARS ENDED
PALAU, FISCAL YEAR              19 RECOMMENDATIONS
                                                                  SEPTEMBER 30, 1990
ENDED SEPTEMBER 30,1989         UNRESOLVED
                                                                  (8120196)
(6/5i92)
                                                                  16 RECOMMENDATIONS
1 RECOMMENDATION AND            98-A-l 76 PALAU
                                                                  UNRESOLVED
$40,262 UNRESOLVED              COMMUNITY ACTION
                                AGENCY, FISCAL YEAR
                                ENDED SEPTEMBER 30,1994           98-A-154 GOVERWENT OF
93-A-1053 PALAU
                                (12/12/97)                        THE VIRGIN ISLANDS.
COMMUNITY ACTION
                                16 RECOMMENDATIONS                FISCAL YEAR ENDED
AGENCY, FISCAL YEAR
                                AND $4,769 UNRESOLVED             SEPTEMBER 30. 1994
ENDED SEPTEMBER 30, 1991
                                                                  (I 212197)
(5/l 1193)
                                98-A-177 PALAU                    5 RECOMMENDATIONS
12 RECOMMENDATIONS
                                COMMUNITY ACTION                  AND 3632,247
UNRESOLVED
                                AGENCY, FISCAL YEAR               UNRESOLVED
93-A-1629 REPUBLIC OF           ENDED SEPTEMBER 30, 1995
PALAU, FISCAL YEAR              (12/12/97)                        NATIONAL PARK
ENDED SEPTEMBER 30, 1990        12 RECOMMENDATIONS                SERVICE
(9/30/‘93)                      AND $43,843 UNRESOLVED
1 RECOMMENDATION AND                                             97-A-1019 ILLINOIS
$40 1,843 UNRESOLVED           98-A-340 PALAU                    HISTORIC PRESERVATION
                               COMMUNITY COLLEGE,                AGENCY, 2 FISCAL YEARS
94-A-499 REPUBLIC OF           FISCAL YEAR ENDED                 ENDED JUNE 30, 1996
PALAU, FISCAL YEAR             SEPTEMBER 30, 1996                (7/10/97)
ENDED SEPTEMBER 30,1991        (3/l 1198)                        1 RECOMMENDATION
(416i94)                       6 RECOMMENDATIONS                 UNRESOLVED
11 RECOMMENDATIONS             UNRESOLVED
AND $5 17,693 UNRESOLVED




           Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999         63
98-A-194 GEORGIA TRUST             97-A-1180 WISCONSIN,
FOR HISTORIC                       FISCAL YEAR ENDED
PRESERVATION, INC., -              JUNE 30, 1995 (915197)
FISCAL YEAR ENDED                  3 RECOMMENDATIONS AND
MARCH 3 1. 1997 ( 12/24i97)        526,410 UNRESOLVED
2 RECOMMENDATIONS                  (Unresolved findings pertain to
UNRESOLVED                         the Natzonal Park Senaice)

98-A-229 NATIONAL                  97-A-1241 SOUTH
INSTITUTE FOR THE                  CAROLINA, FISCAL YEAR
CONSERVATION OF                    ENDED JUNE 30,1996
CULTURAL PROPERTY,                 (9117197)
INC., FISCAL YEAR ENDED            2 RECOMMENDATIONS
DECEMBER 3 1,1996                  UNRESOLVED
&l/15/98)                          (Unresolvedfindings pertain to
1 RECOMMENDATION                   the National Park Service.j
UNRESOLVED
                                   98-A-148 NORTH
U.S. FISH AND                      CAROLINA, FISCAL YEAR
                                   ENDED JUNE 30, 1996
WILDLIFE SERVICE
                                   ( 1212197)
                                   1 RECOMMENDATION
97-A-843 NATIONAL
                                   UNRESOLVED
TROPICAL BOTANICAL
GARDEN, FISCAL YEAR
                                   98-A-149 ARIZONA, FISCAL
ENDED DECEMBER 3 1, 1995
                                   YEAR ENDED JUNE 30, 1996
(S/15/97)
                                   ( 1212197)
5 RECOMMENDATIONS
                                    1 RECOMMENDATION
UNRESOLVED
                                   UNRESOLVED
                                   (Unresolved finding pertains to
97-A-954 NEW MEXICO
                                   the National Park Service.)
DEPARTMENT OF GAME
AND FISH, FISCAL YEAR
ENDED JUNE 30, 1996
(6119197)
18 RECOMMENDATIONS
AND $30,740 UNRESOLVED

97-A-993 VIRGINIA, FISCAL
YEAR ENDED JUNE 30, 1995
(8/S/97)
2 RECOMMENDATIONS
UNRESOLVED
(Unresolvedfindings pertain to
the National Park Service.)




64             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
                                                           APPENDIX 7

     SUMMARY bF INTERNAL AUDIT REPORTS OVER 6 MONTHS
             OLD PENDING CORRECTIVE ACTION

      This is a listing of internal audit reports with management decisions over 6 months old for which COrKChve action has not been
      completed. It provides report number, title, issue date. and the number of recommendations without tinal corrective action.
      These audits continue to be monitored by the Focus Leader for Management Control and Audit Followup, Assistant Secretary
      for Policy, Management and Budget, for completion of corrective action.               Note: The insular area reports contain
      recommendations made specifically to the insular area governors and other territorial officials. who do not report to the Secretary
      and are not subject to the policy, guidance, and administrative oversight established by the Assistant Secretary for Policy,
      Management and Budget.




i3UFWAU OF INDIAN                                 97-I-771 GENERAL                                       95-I-379 FOLLOWLT
                                                  CONTROLS OVER                                          OF RECOMMENDATIONS
AFFAIRS                                                                                                  RELATING TO BUREAU OF
                                                  AUTOMATED
                                                  INFORMATION SYSTEMS,                                   LAND MANAGEMENT USER
95-I-598 BbREAU OF                                OPERATIONS SERVICE                                     CHARGES FOR
INDIAN AFFAIRS                                    CENTER, BUREAU OF                                      MINERAL-RELATED
PRINCIPAL FINANCIAL                               INDIAN AFFAIRS (413Oi97)                               DOCUMENT PROCESSmG
STATEMENTS FOR FISCAL                             5 RECOMMENDATIONS                                      (l/23195)
YEARS 1993 AND 1994                                                                                      2 RECOMMEhDATIONS
(2128195)                                         97-I-834 BUREAU OF
2 RECOMMENDATIONS                                 INDLAN AFFAIRS                                         95-I-638 ONSHORE OIL
                                                  CONSOLIDATED                                           AND GAS LEASING
95-I-1402 WAPATO                                  FINANCIAL STATEMENTS                                   ACTIVITIES, BUREAU OF
IRRIGATION PROJECT,                               FOR FISCAL YEARS 1995                                  LAND MANAGEMENT
BUREAU OF INDIAN                                  AND 1996 (5/9/97)                                      (3120195)
AFFAIRS (g/30/95)                                 1 RECOMMEhmATION                                       2 RECOMMENDATIONS
3 RECOMMENDATIONS
                                                  98-I-483 FOLLOWUP OF                                   95-I-747 RIGHT-OF-WAY
96-I-641 REVIEW OF                                GENERAL CONTROLS OVER                                  GRANTS, BUREAU OF
INDIAN IRRIGATION                                 AUTOMATED                                              LAND MANAGEMENT
PROECTS, BUREAU OF                                INFORMATION SYSTE>MS,                                  (3/31/95)
INDIAN AFFAIRS (3129196).                         OPERATIONS SERVICE                                     6 RECOMMENDATIONS
13 RECOMMENDATIONS                                CENTER, BUREAU OF
                                                  INDIAN AFFAIRS (6/10/98)                               96-I-1025 NEVADA LAND
97-I-504 DIRECT AND                               6 RECOMMENDATIONS                                      EXCHANGE ACTIVITIES,
GUARANTEED LOAN                                                                                          BCJAU OF LAND
PROGRAMS, EASTERN                                                                                        MANAGEMENT (71’15196)
AREA OFFICE, BUREAU OF                            BUREAU OF LAND
                                                                                                         2 RECOMMENDATIONS
rNDIAN AFFAIRS (3/10/97)                          MANAGEMENT
1 RECOMMENDATION                                                                                         96-I-1265 OCCUPANCY
                                                  92-I-828 ONSHORE                                       TRESPASS RESOLUTION,
                                                  GEOPHYSICAL                                            BUREAU OF LAND
                                                  EXPLORATION PROGR4h4                                   MANAGEMENT (913Oi96)
                                                  (5;26:92)                                              2 RECOMMENDATIONS
                                                  2 RECOMMENDATIONS



                 Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999                                                       65
97-I-l 104 MANAGEMENT              93-I-577 PROPOSED                   95-I-1376 FOLLOWUP OF
OF HERD LEVELS, WILD               DEFERRAL OF NOTICE OF               RECOVERY OF OPERATION
HORSE AND BURRO -                  SUBSTANTIAL                         AND MAINTENANCE
PROGRAM, BUREAU OF                 COMPLETION OF THE                   PROGRAM EXPENSES
LAND -MANAGEMENT                   CENTRAL ARIZONA                     (9129195)
(g/12/97)                          PROJECT (2!19/93)                   1 RECOMMENDATION
2 RECOMMENDATIONS                  3 RECOMMENDATIONS
                                   (Final action is pending outcome    95-I-1383 RECOVERY OF
97-I-l 299 RECREATION              of litigation.)                     OPERATION AND
MANAGEMENT, BUREAU                                                     MAINTENANCE COSTS,
OF LAND MANAGEMENT                 93-I-810 IMPLEMENTATION             COLUMBIA BASIN PROJECT
(9/30/97)                          OF THE COLORADO RIVER               (9129195)
4 RECOMMENDATIONS                  BASIN SALINITY CONTROL              2 RECOMMENDATIONS
                                   PROGRAM (313 1193)
98-I-41 9 THE ADOPT-A-             3 RECOMMENDATIONS                   96-I-313 AWARD A&D
HORSE PROGRAM, BUREAU                                                  ADMINISTRATION OF
OF LAND MANAGEMENT                 93-I-1641 PICK-SLOAN                CONTRACT
(4130198)                          MISSOURI RIVER BASIN                NO. 1425-2-CC-40-12260
4 RECOMMENDATIONS                  PROGRAM COST                        WITH ENVIRONMENTAL
                                   ALLOCATION (9130193)                CHEMICAL CORPORATION
98-I-551 REIMBURSEMENT             5 RECOMMENDATIONS                   RELATED TO THE
OF FIREFIGHTING COSTS,                                                 SUMMITVILLE MINE SITE
BUREAU OF LAND                     94-I-884 DEVELOPMENT                CLEANUP, BUREAU OF
MANAGEMENT (7/27/98)               STATUS OF THE DOLORES               RECLAMATION (3/14:96)
6 RECOMMENDATIONS                  AND THE                             1 RECOMMENDATION
                                   ANIMAS-LA PLATA
BUREAU OF                          PROJECTS (7/l l/94)                 97-I-683 MAINFRAME
RECLAMATION                        1 RECOMMENDATION                    COMPUTER POLICIES AND
                                                                       PROCEDURES,
                                   94-I-930 IRRIGATION OF              ADMINISTRATJVE SERVICE
92-I-887 MISCELLANEOUS
                                   INELIGIBLE LANDS (7/l l/94)         CENTER, BUREAU OF
REVENUE COLLECTION
                                   3 RECOMMENDATIONS                   RECLAMATION (313 1:97)
AND DISTRIBUTION
                                                                       2 RECOMMENDATIONS
(6/12!92)
                                   95-I-870 RECREATION
2 RECOMMENDATIONS
                                   MANAGEMENT ACTIVITIES               98-I-258 DETERMINATION
                                   AT SELECTED SITES                   OF THE REIMBURSABILITY
92-I-1128 REPAYMENT OF
                                   (S/17/95)                           OF ENVIRONMENTAL
MUNICIPAL AND
                                   2 RECOMMENDATIONS                   ACTIVITIES COSTS
INDUSTRLAL WATER
                                                                       ASSOCIATED WITH GLEN
SUPPLY INVESTMENT
                                   95-I-1204 FINANCIAL                 CANYON DAM BY THE
COSTS (g/13/92)
                                   MANAGEMENT OF THE                   BUREAU OF
2 RECOIMMENDATIONS
                                   COLUMBIA BASIN PROJECT,             RECLAMATION (2123 98)
                                   PACIFIC NORTHWEST                   2 RECOMMENDATIONS
92-I-1151 REVIEW OF THE
                                   REGION (S/22/95)
COST ALLOCATION FOR
                                   1 RECOMMENDATION                    98-I-383 CENTRAL VXLLEY
THE CENTRAL ARIZONA
                                                                       PROJECT’S RESTORATION
PROJECT (8/l 7/92)
                                                                       FUND, BUREAU OF
4 RECOMMENDATIONS
(Fmal action is pending                                                RECLAMATION (313 1 98)
outcome of litigation.)                                                2 RECOMMEN?>ATIONS




66             Semiannual   Report to the Congress: October 1, 1998 - March 3 1, 1999
98-I-623 FOLLOWUP OF            95-I-106 CONTRACTING              Republic of Palau
MAINFRAME COMPUTER              AND CONTRACT
POLICIES     AND    .           ADMLNISTRATION,                   92-I-1368 BILLINGS AND
PROCEDURES,                     COMMONWEALTH                      COLLECTIONS OF THE
ADMINISTRATIVE SERVICE          UTILITIES CORPORATION,            REPUBLIC OF PALAUS
CENTER. BUREAU OF               COMMONWEALTH OF THE               GROSS REVENUE TAX
RECLAMATION (8i20/98)           NORTHERW MARIANA                  (9!28:92)
11 RECOMMENDATIONS              ISLANDS (1 l/14/94)               3 RECOMMENDATIONS
                                5 RECOMMENDATIONS
98-I-630 AWARD AND                                                U.S. Virgin Islands
ADMINISTRATION OF               Guam
CONTRACTS FOR THE                                                 91-I-1188 SECURITY AND
PROGRAMMATIC                    92-1-1360 GOVERNMENT              MAINTENANCE OF
ENVIRONMENTAL IMPACT            OF GUAM RETIREMENT                CORRECTIONAL
STATEMENT FOR                   FUND (9118192)                    FACILITIES, GOVERNMENT
IMPLEMENTATION OF THE           7 RECOMMENDATIONS                 OF THE VIRGIN ISLANDS
CENTRAL VALLEY                                                    (812919 1)
PROJECT IMPROVEMENT             98-1-14 PROCUREMENT               16 RECOMMENDATIONS
ACT, BUREAU OF                  ACTIVITIES, PORT
RECLAMATION (813 l/98)          AUTHORITY OF GUAM,                91-I-1431 FOLLOWU’P OF
8 RECOMMENDATIONS               GOVERNMENT OF GUAM                AUDIT OF THE
                                ( 1017197)                        GOVERNMENT
INSULAR AREAS                    1 RECOMMENDATION                 EMPLOYEES’ RETIREMENT
                                                                  SYSTEM, GOVERNMENT OF
American Samoa                  98-I-335 PROGRAMS AND             THE VIRGIN ISLANDS
                                OPERATIONS,                       (9/30/91)
96-I-533 AMERICAN               DEPARTMENT OF                     1 RECOMMENDATION
SAMOA LEGISLATURE,              VOCATIONAL
AMERICAN SAMOA                  REHABILITATION,                   92-I-90 PRISON
GOVERNMENT (3122196)            GOVERNMENT OF GUAM                OVERCROWDING, BLREAU
7 RECOMMENDATIONS               (3/16/98)                         OF CORRECTIONS ( 1 O/2819 1)
                                3 RECOMMENDATIONS                 5 RECOMMENDATIONS
Commonwealth of the
                                98-I-570 ASSESSMENT AND           94-I-248 PROPERTY
Northern Mariana                COLLECTION OF GROSS               MAN4GEMENT
Islands                         RECEIPTS TAXES,                   FUNCTIONS, POLICE
                                DEPARTMENT OF REVENUE             DEPARTMENT,
94-I-1323 UTILITIES RATE        AND TAXATION,                     GOVERNMENT OF THE
STRUCTURE,                      GOVERNMENT OF GUAM                VIRGIN ISLANDS (1;24/94)
COMMONWEALTH OF THE             (7/17/98)                         1 RECOMMENDATION
NORTHERN MARlANA                4 RECOMMENDATIONS
ISLANDS (9130/94)                                                 95-I-52 SELECTED
3 RECOMMENDATIONS               98-I-643 OPERATIONAL              ADMINISTRATIVE
                                FUNDING STATUS,                   FUNCTIONS, ST. CROIX
                                DEPARTMENT OF                     INTERIM HOSPITAL.
                                EDUCATION, GOVERNMENT             GOVERNMENT OF THE
                                OF GUAM (8128198)                 VIRGIN ISLANDS (IO/3 13’94)
                                2 RECOMMENDATIONS                 2 RECOMMENDATIONS




            Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999             67
97-I-257 SMALL BUSINESS           96-I-1267 INSPECTION AND          OFFICE OF SURFACE
DEVELOPMENT AGENCY,               ENFORCEMENT PROGRAM               MINING
GOVERNMENT OF THE-                AND SELECTED RELATED
                                  ACTIVITIES, BUREAU OF
                                                                    RECLAMATION AND
VIRGIN ISLANDS ( l/l 5197)
4 RECOMMENDATIONS                 LAND IMANAGEMENT                  ENFORCEMENT
                                  (9i30/96)
97-I-590 SUPPLEMENTAL             11 RECOMMENDATIONS                97-I-1303 FEE
FOOD PROGRAM FOR                                                    COMPLIANCE PR0GRa.M.
WOMEN, JNFANTS AND               97-I-548                           OFFICE OF SURFACE
CHILDREN, DEPARTMENT             ADMINISTRATIVELY                   MINING RECLAMMATION
OF HEALTH, GOVERNMENT            UNCONTROLLABLE                     AND ENFORCEMENT
OF THE VIRGIN ISLANDS            OVERTIME, DEPARTMENT               (913Oi97)
(3J24J97)                        OF THE TNTERIOR (2/27/‘97)         1 RECOMMENDATIOS
1 RECOMMENDATION                 2 RECOMMENDATIONS
.                                                                   OFFICE OF THE
98-I-293 BUSINESS                97-I-1293 VALUE                    SPECIAL TRUSTEE
LICENSING FEES,                  ENGLNEERING PROGRA-MM,             FOR AMERICAN
DEPARTMENT OF                    DEPARTMENT OF THE
                                                                    INDIANS
LICENSING AND                    INTERIOR (9/29/97)
CONSUMER AFFAIRS,                4 RECOMMENDATIONS
GOVERNMENT OF THE                                                   97-I-196 STATEMENT OF
VIRGIN ISLANDS (2127198)                                            ASSETS AND TRUST FUND
                                 NATIONAL PARK
3 RECOMMENDATIONS                                                   BALANCES AT
                                 SERVICE                            SEPTEMBER 30, 1995, OF
                                                                    THE TRUST FUNDS
MINERALS                         92-I-204 NATIONAL                  MANAGED BY THE OFFICE
MANAGEMENT                       NATURAL LANDMARKS                  OF TRUST FUNDS
SERVICE                          PROGRAM (12/5/91)                  MANAGEMENT (12113 96)
                                 2 RECOMMENDATIONS                  16 RECOMMENDATIONS
97-I-l 042 ROYALTY
MANAGEMENT                       93-I-1615 RECREATIONAL             97-I-l 167 JUDGMENT
PROGRAM’S AUTOMATED              ASSISTANCE PROVIDED TO             FUNDS AWARDED TO THE
INFORMATION SYSTEMS,             STATE AND LOCAL                    TURTLE MOUNTAIN BAND
MINER4LS MANAGEMENT              GOVERNMENTS (9130193)              OF CHIPPEWA INDIASS
SERVICE (7/3 l/97)               1 RECOMMENDATION                   (9122i97)
4 RECOMMENDATIONS                                                   1 RECOMMENDATION
                                 98-I-406 FOLLOWUP OF
                                 RECOMMENDATIONS
MULTI-OFFICE                                                       97-I-l 168 JUDGMENT
                                 CONCERNING UTILITY
                                                                   FUNDS AWARDED TO THE
                                 RATES IMPOSED BY THE
92-I-140 COMPLIANCE                                                NAVAJO NATION (9!22 97)
                                 NATIONAL PARK SERVICE
WITH THE FEDERAL                                                   1 RECOMMENDATIOS
                                 (4/15/98)
MANAGERS’ FINANCIAL
                                 6 RECOMMENDATIONS
INTEGRITY ACT OF 1982                                              97-I-l 169 JUDGMENT
FOR FISCAL YEAR 199 1,                                             FUNDS AWARDED TO THE
BUREAU OF LAND                                                     PAPAGO TRIBE OF
MANAGEMENT (1 l/18/91)                                             ARIZONA (9/ 15i97)
1 RECOMMENDATION                                                   2 RECOMMENDATIOSS




68           Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
98-I-206 FINANCIAL              97-I-1305 AUTOMATED
STATEMENTS FOR FISCAL           LAW ENFORCEMENT
YEAR 1996 FOR OFFICE OF         SYSTEM, U.S. FISH AND
THE SPECIAL TRUSTEE             WILDLIFE SERVICE (9/30/97)
FOR A.MERICAN INDIANS           5 RECOMMENDATIONS
TRIBAL, INDIVIDUAL
INDIAN MONIES AND               98-I-224 FINANCIAL
OTHER SPECIAL TRUST             ACTIVITIES OF
FUNDS MANAGED BY THE            UNDERCOVER BUSINESS
OFFICE OF TRUST FUNDS           INV#6806AP, U.S. FISH AND
MANAGEMENT (l/23/98)            WILDLIFE SERVICE (112698)
12 RECOMMENDATIONS              2 RECOMMENDATIONS


U.S.FISH AND                    U.S.GEOLOGICAL
WILDLIFE~ERVICE                 SURVEY

94-I-408 FARMING               97-I-98 GENERAL CONTROL
OPERATIONS CONDUCTED           ENVIRONMENT OF THE
BY THE U.S. FISH AND           FEDERAL FINANCIAL
WILDLIFE SERVICE               SYSTEM AT THE RESTON
(3121194)                      GENERAL PURPOSE
1 RECOMMENDATION               COMPUTER CENTER
                               (10/31/‘96)
95-I-376 CONCESSION            2 RECOMMENDATIONS
FEES, U.S. FISH AND
WILDLIFE SERVICE               97-I-927 U.S. GEOLOGICAL
(1117195)                      SURVEY FINANCIAL
1 RECOMMENDATION               STATEMENTS FOR FISCAL
                               YEAR 1996 (6/12/97)
97-I-1112                      9 RECOMMENDATIONS
ADMINISTRATION OF
GRANTS AWARDED UNDER
THE NORTH AMERICAN
WETLANDS
CONSERVATION ACT,
U.S. FISH AND WILDLIFE
SERVICE (8129197)
1 RECOMMENDATION

97-I-1302 PARTNERS FOR
WILDLIFE HABITAT
RESTORATION PROGRAM,
U.S. FISH AND WILDLIFE
SERVICE (9/29197)
4 RECOMMENDATIONS




           Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999   69
                                              APPENDIX 8
         STATUTORY AND ADMINISTRATIVE RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452) as amended, sets forth specific requirements for
semiannual reports to be made to the Secretary for transmittal to the Congress. A selection of other statutory
and administrative responsibilities and criminal and civil investigative authorities of the OIG follows:

                                    Statutory Audit Responsibilities

Statutorv audit responsibilities include:

P.L. 96-5 10        Comprehensive Environmental Response, Compensation and Liability Act of 1980
                      (Superfund)
P.L. 97-357         Insular Areas Act of 1982
P.L. 97-45 1        Federal Oil and Gas Royalty Management Act of 198; !
P.L. 98-502         Single Audit Act of 1984
P.L. 99-499         Superfund Amendments and Reauthorization Act of 1 986
P.L. 101-576        Chief Financial Officers Act of 1990
P.L. 103-382        Improving American Schools Act of 1994
P.L. 104-208        Federal Financial Management Improvement Act of 996
P.L. 104-316        General Accounting Office Act of 1996, Section 108, “To Require DOI-OIG
                     To Audit the Central Utah Project Cost Allocation”
P.L. 105-277        Office of National Drug Control Policy Reauthorization Act of 1998

                                    Administrative Responsibilities

Office of Management and Budget circulars and bulletins:

     A-50           “Audit Followup”
     A-123          “Management Accountability and Control”
     A-131          “Value Engineering”
     A-133          “Audits of States, Local Governments, and Non-Profit Organizations”
     97-01          “Form and Content of Agency Financial Statements” (Bulletin)
     98-08          “Audit Requirements for Federal Financial Statements” (Bulletin)

                            Criminal and Civil Investigative Authorities

Criminal investigative authorities include:

     - Title 18, United States Code, section on crime and criminal procedures as they pertain to OIG’s
        oversight of DOI programs and employee misconduct.

Civil and administrative investigative authorities include civil monetary penaltv authorities such as:

     - Title 3 1, United States Code, Section 3801 et seq., the Program Fraud Civil Remedies Act.
     - Title 3 1, United States Code, Section 3729-3733, the False Claims Act.

70             Semiannual Report to the Congress: October 1, 1998 - March 3 1, 1999
~                                             APPENDIX 9

             CROSS-REFERENCES TO THE INSPECTOR GENERAL ACT
                                                                                           Pace
    Inspector General .4ct. as amended

    Section 4(a)(2)           Review of Legislation and Regulations                       N/A*

    Section 5(a)( 1)          Significant Problems, Abuses, and Deficiencies               5-29

    Section 5(a)(2)           Recommendations With Respect to Significant Problems,        5-29
    .
                              Abuses, and Deficiencies

    Section 5(a)(3)           Summary of Audits From Agency’s Previous Report on          65-69
                              Which Corrective Action Has Not Been Completed

    Section 5(a)(4)           Matters Referred to Prosecutive Authorities                    iv

    Section 5(a)(5)           Summary of Instances Where Information Was Refused          N/A*

    Section 5(a)(6)           List of Audit Reports                                       31-49

    Section 5(a)(7)           Summary of Significant Reports                               5-29

    Section 5(a)(8)           Statistical Table - Questioned Costs                           53

    Section 5(a)(9)           Statistical Table - Recommendations That Funds Be              54
                              Put To Better Use

    Section 5(a)( 10)         Summary of Audit Reports Issued Before the                  56-64
                              Commencement of the Reporting Period for Which
                              No Management Decision Has Been Made

    Section 5(a)( 11)         Significant Revised Management Decisions Made               N/A*
                              During the Reporting Period

    Section 5(a)( 12)         Management Decisions With Which the                         N/A*
                              Inspector General Is in Disagreement

    Section 5(a)( 13)         Information Described Under Section 05(b) of the Federal
                              Financial Management Improvement Act of 1996                N/A*



    *N/.4: Not applicable.


                    Semiannual Report to the Congress: October 1, 1998 - March 31, 1999     71
                          GENERAL INFORMATION

    Send Requests for Publications to:

     U.S. Department of the Interior     (202) 208-4599
     Office of Inspector General
.    1849 C Street, NW
     Mail Stop 5341, MIB
     Washington, D.C. 20240


     Facsimile Number:                   (202) 208-4998


     World Wide Web Site:                www.oig.doi.gov




     HOTLINE

     Toll Free Numbers:                  l-800-424-5081
                                         TDD l-800-354-0996


     FTSKommercial Numbers:              (202) 208-5300
                                         TDD (202) 208-2420
     U.S. Department of the Interior
     Office of Inspector General
     1849 C Street, NW
     Mail Stop 5341, MIB
     Washington, D.C. 20240
ILLEGAL OR WASTEFUL ACTIVITIES
SHOULD BE REPORTED TO THE
OFFICE OF INSPECTOR GENERAL BY:


Sending Written Documents to:       Calling:



           Within the Continental United States
Office of Inspector General         Our 24-hour Telephone HOTLINE
1849 C Street, NW                   I-800-424-508 I or (202) 208-5300
Washington, D.C. 20240
                                    TDD for hearing impaired
                                    l-800-354-0096 or (202) 208-2420


          Outside the Continental United States
                           Caribbean Region

U.S. Department of the Interior     (703) 2359221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                         North Pacific Region

U.S. Department of the Interior     (671) 647-6060
Office of Inspector General
North Pacific Office
415 Chalan San Antonio
Baitej Pavillion, Suite 306
Tamuning, Guam 969 11
